SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                          SIGAR                  Special Inspector General for   JULY 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | JULY 30, 2010
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                 Afghanistan Reconstruction       2010
2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




                                 3                                                                        QUARTERLY REPORT TO THE UNITED STATES CONGRESS
Cover Captions (clockwise from left):
Tribal and religious leaders gather in
Kandahar to discuss a range of local
issues in June. Earlier in the month, the
GIRoA hosted the three-day Peace Jirga,
at which some 1,600 religious scholars,
tribal leaders, civil society organization
leaders, Afghan refugees, and govern-
ment representatives discussed ways to
end violence and achieve lasting peace in
Afghanistan. (U.S. Navy photo)
An Afghan soldier from the ANA’s Close
Support Kandak participates in the first-ever
joint engineering task with the 21st Regi-
ment of the British Army’s Royal Engineers.
The combined teams are working on infra-
structure projects at Patrol Base Rahim in
Nahr-e Saraj, Helmand. (ISAF photo)
Fifteen Afghan women attend a workshop
in journalism held at Herat University. The
workshop was promoted by the Herat PRT
this quarter. (ISAF photo)
Two Afghans measure grain to sell at
the Koru Chareh Bazaar in Marjah in May.
Since the initial fighting to take the city
from insurgent control, residents have
returned to their homes, and the market-        An Afghan musician plays the rubab at the Anab Gull Poetry Festival in Farah in May. A rubab is a lute-like instrument
place—the hub of the community—has               typically made from the trunk of a mulberry tree and animal skin. During the festival, male and female poets of all
reopened. (U.S. Marine Corps photo,              ages recited their poems to an audience of coalition forces, provincial leaders, and Afghans from the 10 districts of
LCpl James Clark)                                         Farah. The festival was the first of its kind in two years. (U.S. Air Force photo, SrA Rylan K. Albright)
SIGAR                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                     JULY 30
                                                                                      2010




The National Defense Authorization Act (P.L. 110-181) established
the Special Inspector General for Afghanistan Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective
• conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
• leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations; and prevent and detect waste, fraud, and abuse in such programs
   and operations.
• means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated, or otherwise made available for the
reconstruction of Afghanistan.

Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
ISLAMIC REPUBLIC OF AFGHANISTAN

                                                 UZBEKISTAN                                                            CHINA
                                                                                                          TAJIKISTAN



          TURKMENISTAN                 JOWZJAN                        KUNDUZ              BADAKHSHAN
                                                      BALKH                      TAKHAR


                                                           SAMANGAN
                           FARYAB                                BAGHLAN
                                       SAR-E PUL                        PANJSHIR
                                                                                NURISTAN
                 BADGHIS
                                                                PARWAN KAPISA        KUNAR
                                                     BAMYAN                  LAGHMAN
                                                                     KABUL
        HERAT                                               WARDAK
                                                                               NANGARHAR
                           GHOR                                    LOGAR
                                        DAYKUNDI                      PAKTIYA
                                                             GHAZNI                KHOWST

                                     URUZGAN
         FARAH
                                                                       PAKTIKA
                                                   ZABUL



                                                                                               PAKISTAN
        NIMROZ
IRAN             HELMAND
                                  KANDAHAR
                                    SPECIAL INSPECTOR GENERAL              FOR

                                    AFGHANISTAN RECONSTRUCTION


July 30, 2010


    I am pleased to submit SIGAR’s quarterly report to Congress on the U.S. reconstruction effort in
Afghanistan. This report documents SIGAR’s activities and provides an update on the status of reconstruc-
tion programs in Afghanistan for the quarter ending June 30, 2010.
    SIGAR’s auditors and investigators had a productive quarter. We issued 4 audit reports and announced
5 new audits, bringing the total number of ongoing contract, performance, and forensic audits to 18. SIGAR
opened 27 new investigations and closed 14 cases, bringing the number of ongoing investigations to 55.
We participated in a number of joint investigations, including one in which two Afghan companies have
pleaded guilty to bribery. SIGAR also collaborated with other federal law enforcement agencies to investi-
gate the sources of bulk cash shipments leaving Afghanistan through the Kabul airport.
    In the past year, SIGAR has produced 24 reports, including audits of construction contracts and project
management as well as performance reviews of large programs, such as the $627 million that the Congress
has earmarked for Afghan women and girls. As I testified on two occasions this quarter—once before
the Commission on Wartime Contracting and once before the State, Foreign Operations Appropriations
Subcommittee of the House of Representatives—our work has made me increasingly concerned about four
issues that are impeding the reconstruction effort.
•   lack of accountability and insufficient oversight by implementers
•   inadequate attention to metrics
•   inadequate attention to sustainability
•   insufficient capacity building in Afghan institutions

    SIGAR’s work has identified a number of areas where implementing agencies could improve their
ability to monitor projects and better account for reconstruction dollars. For example, U.S. agencies have
no shared database of reconstruction contracts. Despite the recommendations of our audit last year, the
United States still lacks an integrated management information system that would help agencies coordi-
nate projects and track completed, ongoing, and planned reconstruction activities. Implementing agencies
need accurate and timely information to ensure appropriate oversight.
    We must establish better metrics to use in determining whether a program is sustainable. This quar-
ter, we found that the Capability Milestone rating system, which had been used since 2005 to measure the
progress of the Afghan security forces, was unreliable. This audit underscored the critical need for good
metrics. Similarly, our audit of the energy sector found that the U.S. government did not have an effective
way to track progress toward delivering more electricity to the Afghan people.




                          2221 SOUTH CLARK STREET, SUITE 800   ARLINGTON, VIRGINIA 22202
    We must also give much greater thought to sustainability: all of SIGAR’s audits of infrastructure projects have
identified operations and maintenance issues. For example, the Government of the Republic of Afghanistan is not
yet able to operate and maintain any of the facilities that have been built to house the Afghan security forces. To
protect our investment, the U.S. government is awarding two contracts—totaling $800 million—to provide opera-
tions and maintenance for more than 650 security force facilities over the next five years. SIGAR is seeing similar
sustainability issues throughout the reconstruction effort.
    I am also concerned that we have not done enough to build the Afghans’ capacity to manage their govern-
ment and develop their economy. U.S. implementing agencies must include robust capacity-building measures in
every reconstruction program. The U.S. Department of State is taking steps to address this problem through its
civilian surge and by channeling more reconstruction dollars through Afghan institutions. A key component of
SIGAR’s mission is to provide oversight of this crucial effort.
    Last February, in just our 16th month of funded operations, I asked the Council of the Inspectors General on
Integrity and Efficiency (CIGIE) to conduct an early peer review of SIGAR. A peer review typically occurs after
the third year of operations, but I requested this early review so that we could quickly benefit from the input of
our peers and enhance our ability to conduct effective oversight. In July, CIGIE concluded its review. Our Audit
Directorate passed the review with deficiencies, and we are implementing CIGIE’s recommendations to correct
them. The CIGIE review found that the Investigations Directorate was not yet in full compliance with certain
administrative requirements, but CIGIE concluded that our implementation of new policies and procedures is
likely to result in full compliance in the near future.
    The United States is in its ninth year in Afghanistan, implementing an extensive reconstruction program in a
dangerous, difficult, and rapidly changing environment. The United States and its coalition partners are trying to
simultaneously provide security, build governing institutions, and promote economic development so that
military forces can be drawn down a year from now. Because of the complexity of this effort, it is critical to
identify systemic problems quickly.
    As our work this quarter demonstrates, SIGAR is providing real-time oversight of individual projects as
well as of the systems that underpin the entire reconstruction effort. We will continue to conduct the broad
range of contract, performance, and forensic audits needed to detect and prevent the waste, fraud, and abuse
of funds appropriated for the reconstruction of Afghanistan.




Very respectfully,




Arnold Fields
Special Inspector General for Afghanistan Reconstruction




                           2221 SOUTH CLARK STREET, SUITE 800   ARLINGTON, VIRGINIA 22202
TABLE OF CONTENTS




       SECTION 1
       AFGHANISTAN OVERVIEW
        3    Kabul Conference Streamlines
             Reconstruction Priorities
        4    Security
        6    Governance and the Rule of Law
        7    Economic and Social Development
        8    Reconciliation and Reintegration
        9    Regional Cooperation
        9    Looking Ahead




       SECTION 2
       SIGAR OVERSIGHT
       13    SIGAR Audits
       30    SIGAR Investigations
       32    Peer Review
       33    SIGAR Budget
       33    SIGAR Staff




       SECTION 3
       RECONSTRUCTION UPDATE
        37   Overview
        41   Status of Funds
        55   Security
        69   Governance
        89   Economic and Social Development
       107   Counter-Narcotics
TABLE OF CONTENTS




   SECTION 4
   OTHER AGENCY OVERSIGHT
   119   Completed Oversight Activities
   123   Ongoing Oversight Activities
   132   Other Agency Investigations
   133   Other Agency Inspections




   APPENDICES & ENDNOTES
   136 Appendix A: Cross-Reference of Report
                   to Statutory Requirements
   140 Appendix B: U.S. Government Appropriated Funds
   142 Appendix C: SIGAR Audits
   144 Appendix D: SIGAR Investigations and Hotline
   145 Appendix E: Abbreviations and Acronyms
   148 Endnotes
             Moving forward
             A U.S. soldier travels to the village of Paspajak in Logar
             province in June. The new Afghan reconstruction plan puts
             Afghan security forces in charge of military operations
             throughout the country by 2014.
             (U.S. Army photo, SGT Russell Gilchrest)




222   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
1   AFGHANISTAN
    OVERVIEW




        1
           AFGHANISTAN OVERVIEW




     “The Afghan government can
   guarantee security only when its
       people are confident in its
    ability to deliver public services,
    good governance, human rights
protection—including gender equality—
     and economic opportunities.”
           —Kabul Conference Communiqué




           Source: Kabul Conference, “Communiqué,” 7/19/2010.




                2                      SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
This reporting period, concerns mounted over the pace of the reconstruction
effort in Afghanistan, now in its ninth year. A sense of urgency pervades both
Afghanistan and the international community: the Government of the Islamic
Republic of Afghanistan (GIRoA) must take more responsibility for the country’s
future. The success of the U.S. and international strategy for reconstruction rests
on the GIRoA’s ability to independently provide for the nation’s security and lead
sustained economic development.
   The GIRoA took an important step toward achieving these goals by develop-
ing a new reconstruction plan, which the international community endorsed at
the Kabul Conference on July 20. At this conference, the largest ever hosted in
Afghanistan, representatives from more than 60 countries and a dozen interna-
tional organizations gathered to realign the international reconstruction effort
with Afghan priorities.
   U.S. Secretary of State Hillary Clinton called the conference “a milestone in a
long and difficult journey.” At the same time, she cautioned that the road ahead
would not be easy: it will be necessary to honestly assess the progress made,
identify the gaps between expectations and performance, and resolve to close
those gaps. Closing those gaps will require robust oversight of the reconstruction
program.

KABUL CONFERENCE STREAMLINES
RECONSTRUCTION PRIORITIES
The Kabul Conference delegates endorsed a new, three-year Prioritization and
Implementation Plan, which builds on the 2008 Afghanistan National Development
Strategy. The new plan establishes Afghan national priorities in five critical areas:
• security
• governance and the rule of law
• economic and social development
• reconciliation and reintegration
• regional cooperation
   The international participants at the conference agreed to realign their
assistance to advance Afghanistan’s priorities and supported the goal of chan-
neling at least 50% of their aid through the GIRoA’s budget within two years. This
commitment is contingent on the GIRoA successfully implementing reforms




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010           3
                                                             AFGHANISTAN OVERVIEW




                                                             Delegates from more than 60 countries take part in the International Conference on
                                                             Afghanistan, co-hosted by the GIRoA and the UN. The Kabul Conference endorsed Afghan-led
                                                             programs aimed at improving development, governance, and security. (UNAMA photo)


 “The Afghan people have                                     to strengthen public management systems, reduce corruption, improve budget
                                                             execution, and increase revenue collection to finance critical national programs.
 charted a comprehensive                                        The Kabul Conference underscored how much the U.S. reconstruction
  strategy for their future.                                 strategy has evolved over the last two years—from one that primarily bypassed
 Their plans are detailed,                                   the Afghan government by funding reconstruction projects through private
   practical, and reflect a                                  contracts, cooperative agreements, and grants, to one that channels funds
                                                             through the Afghan government. To do this effectively and to protect these funds
   great deal of work and
                                                             from waste and corruption, Afghanistan’s public institutions must be greatly
 consultation. And we are                                    strengthened.
   here as representatives                                      In this rapidly changing environment in which the United States is spending
 of individual nations and                                   large sums of money, oversight bodies must quickly identify systemic prob-
 as members of the global                                    lems so that implementing agencies can adjust programs before tax dollars are
                                                             wasted. To provide effective oversight, SIGAR is conducting a broad mix of
   community to offer our                                    contract, program management, and performance audits that focus on the use of
    support and align our                                    U.S. funds in the newly realigned priority areas of the reconstruction effort.
 resources behind Afghan
goals and Afghan policies.”                                  SECURITY
                    —U.S. Secretary of State                 More than $25 billion—about half of all U.S. reconstruction dollars spent in
                            Hillary Clinton                  Afghanistan since 2001—has been appropriated for the Afghan Security Forces
                                                             Fund (ASFF) to train, equip, and house the Afghan National Security Forces
Source: DoS, “Remarks: Secretary of State Hillary Rodham
Clinton, Intervention at the Kabul Conference,” 7/20/2010.
                                                             (ANSF). The Administration’s requests for the FY 2011 appropriation and the
                                                             FY 2010 supplemental appropriation include an additional $14 billion to increase
                                                             the troop strength of the Afghan National Army to 171,600 and the Afghan




                                                                4                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




National Police to 134,000 by October 2011—a 30% increase from current
security force levels.
   Under the current U.S. strategy for securing and stabilizing Afghanistan, the
United States will begin to withdraw its military forces in July 2011. U.S. officials
have said the rate of this withdrawal will depend on conditions in Afghanistan;
however, the Afghan Prioritization and Implementation Plan established a
timeline that would put Afghan security forces in charge of military operations
throughout the country by 2014. The success of both U.S. and Afghan plans
depends on the success of efforts to build the capability of the Afghan army and
police forces to provide security. As of June 30, 2010, the U.S. Department of
Defense (DoD) has allocated nearly $5.75 billion for the infrastructure projects
needed to house and train the ANSF.
   This quarter, SIGAR issued three audits related to efforts to build the capabil-
ity of the ANSF:
 • an evaluation of the Capability Milestone (CM) rating system
 • a review of construction to build a garrison for the ANA in Farah province
 • a review of construction of an ANP compound in Kandahar
When SIGAR began its audit of the CM rating system, the CM was the primary
metric for measuring the development of the ANSF. SIGAR found that the
system, which had been in use since 2005, could not provide a reliable or consis-
tent assessment of the capabilities of the ANSF. In early March, SIGAR auditors
briefed military commanders on their findings. In late April, the International
Security Assistance Force (ISAF) Joint Command replaced this system with a
new, unit-level assessment. It is too early to assess the new system, but SIGAR’s
findings and recommendations pertain to any system designed to evaluate the
operational effectiveness of the ANSF. The United States and the GIRoA must
have a reliable way to measure the progress of the ANA and the ANP if they are
to achieve their goal of transferring responsibility for the security of Afghanistan
to the ANSF. Section 2 of this report provides a summary of this audit.
   SIGAR’s audits of the ANA garrison in Farah province and an ANP compound
in Kandahar identified a number of problems, including inadequate project plan-
ning and insufficient quality assurance, that have resulted in project delays and
cost increases. For example, the ANA garrison at Farah was built in two phases,
both of which were more than a year behind schedule at the time SIGAR com-
pleted its audit. The estimated cost of phase one—$29.4 million—had increased
by about 30%.
   Similarly, construction of the four facilities that constitute the Joint Regional
Afghan Security Forces Compound (JRAC) in Kandahar experienced delays rang-
ing from six months to two years. Moreover, the U.S. Army Corps of Engineers
(USACE), which was responsible for the contract, did not have a master plan
that integrated the four projects. Consequently, the JRAC has some redundant
power, water, and sewer systems, as well as a variety of heating and cooling
systems. In addition, the armory was placed next to the barracks, unnecessarily
posing a potential danger to security forces stationed at the JRAC. Section 2 of
this report provides summaries of both of these SIGAR audits.



             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010          5
AFGHANISTAN OVERVIEW




   SIGAR has four ongoing audits in the security sector. Two are assessing three
infrastructure contracts to build eight ANSF facilities. One is reviewing the
process that the United States, its coalition partners, and the GIRoA are using
to determine how many ANA and ANP facilities are needed and where these
facilities should be built. SIGAR’s fourth audit is evaluating the ANP’s personnel
management systems. As part of this work, SIGAR will identify the sources of
funding for ANP salaries and the extent to which the ANP has systems in place to
mitigate the risks of fraud, waste, and abuse.

GOVERNANCE AND THE RULE OF LAW
Both the U.S. strategy and the Afghan Prioritization and Implementation Plan
emphasize the need to improve governance and strengthen the rule of law at
every level—from Kabul to the provincial capitals and rural communities. The
communiqué released at the close of the Kabul Conference underscored that
need: “Good governance, the rule of law, and human rights form the foundation
of the strategy to achieve a stable and prosperous Afghanistan. Improvements in
these areas should not only increase the confidence of the Afghan people in their
own future, but also underpin security improvements and social developments.”1
    The GIRoA pledged to take action on numerous issues to improve gover-
nance, including strengthening local institutional capacity, combating corruption,
and implementing electoral reform. The U.S. government is relying on an influx
of civilians to assist Afghans. Since the beginning of this year, the Department
of State (DoS), in coordination with other U.S. departments and agencies, has
tripled the number of civilian experts deployed to help build Afghan capac-
ity. According to Ambassador Richard Holbrooke, Special Representative for
Afghanistan and Pakistan, these civilians “are engaged in a range of activities,
from rebuilding Afghanistan’s once vibrant agriculture sector, to working with
key Afghan ministries to improve the provision of health, education, justice, and
other services outside of provincial capitals.”2
    The success of the U.S. strategy depends on the ability of these civilians
to work with their Afghan counterparts to design, implement, and oversee
reconstruction projects. SIGAR is conducting an audit of the civilian surge to
identify the number and types of personnel who are being deployed through-
out Afghanistan and to assess the extent to which these civilians are able to
work with their Afghan counterparts to advance U.S. strategic and program-
matic reconstruction goals. In July 2010, SIGAR and the DoS Office of Inspector
General agreed to conduct portions of this audit jointly.

Corruption
Corruption continues to be of serious concern to both international donors and
Afghan citizens. Because the United States is committed to provide more funding
assistance through Afghan ministries, these ministries must have the capability
to account for this funding. SIGAR will be looking closely at the steps taken by




   6               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




U.S. agencies to help ensure that donor funds channeled through the GIRoA are
reasonably protected from waste, fraud, and abuse.
   More than a year ago, SIGAR initiated a series of audits to determine the
following:
• what the United States and other donor countries are doing to build the capac-
    ity of Afghan institutions to deter corruption and strengthen the rule of law
• the extent to which Afghan institutions that receive significant U.S. funding
    have the systems in place to account for donor funds
As part of this program to assess Afghan institutional capacity, SIGAR has
completed seven audits and is conducting four. Two of the completed audits
assessed key Afghan oversight bodies—the High Office of Oversight (HOO)
and the Control and Audit Office (CAO). Despite the important role that these
Afghan oversight institutions should play in combating corruption and providing
accountability over donor funding, very little had been done until recently to help
them develop their capacity.
   SIGAR is finalizing a review of U.S. assistance programs that are designed to
help the GIRoA develop its anti-corruption capabilities. Although multiple U.S.
agencies now conduct anti-corruption assistance programs, most of this assis-
tance has been provided without the benefit of a comprehensive anti-corruption
strategy. Although a draft strategy exists, a final strategy is urgently needed to
guide and direct U.S. anti-corruption assistance. SIGAR will report on this review
next month.

Electoral Reform
The United States and the international community view elections as critical to
sustaining a legitimate government. After last year’s fraud-marred presidential
election, a SIGAR audit recommended that the international community take
steps to build the capacity of Afghanistan’s Independent Election Commission
(IEC) to sustain the electoral process. In the Kabul Conference communiqué, the
GIRoA pledged to “initiate within six months a strategy for long-term electoral
reform that addresses in particular the sustainability of the electoral process.”3
   Since the presidential election, President Karzai has replaced key electoral
officials, but it is not clear how these changes will affect the September parlia-
mentary elections. In July, the IEC announced the final list of 2,556 candidates,
which included 406 women. The United States is providing assistance to a num-
ber of organizations, including the United Nations, for these elections.
   During the next quarter, SIGAR will publish a review that identifies lessons
learned from past elections to improve the electoral process in Afghanistan.

ECONOMIC AND SOCIAL DEVELOPMENT
In his opening remarks at the Kabul Conference, President Karzai urged the
international community to support Afghan-run programs, such as the National
Solidarity Program (NSP). The Afghan Ministry of Rural Rehabilitation and




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        7
AFGHANISTAN OVERVIEW




Development started this program in 2003 to help Afghan communities develop
their own projects. Since then, the United States and other international donors
have provided nearly $1 billion for the program, which the ministry says has
brought 40,000 projects to completion.
    SIGAR is conducting an audit of the NSP to identify donor assistance, to deter-
mine what the United States and other donors have done to ensure that the NSP
can account for their contributions, and to examine the capacity of the Ministry
of Rural Rehabilitation and Development to plan, manage, and monitor the pro-
gram. The United States has pledged $440 million to this program.
    The GIRoA’s new priorities to spur the economy include building large-scale
infrastructure projects to develop the country’s mineral resources, expanding
irrigation systems, extending the road network, and increasing the supply of
electricity. Earlier this year, a SIGAR review of the energy sector found that the
GIRoA urgently needed an updated master plan to guide international investment
in this sector.
    Participants at the Kabul Conference reiterated their commitment to protect
women’s rights. From 2003 through 2010, the Congress has appropriated
$627 million to address the needs of Afghan women and girls. This quarter, SIGAR
issued an audit assessing whether DoS and the U.S. Agency for International
Development (USAID) had complied with congressional directives and whether
this money had funded activities that were consistent with U.S. and Afghan
national strategies. SIGAR found that DoS and USAID did not coordinate their
approach to reporting on the use of these funds, only partially met congressional
directives, and did not show linkages between U.S.-funded activities and Afghan
goals and benchmarks. Section 2 of this report provides a summary of this audit.

RECONCILIATION AND REINTEGRATION
In early June, the GIRoA convened a Consultative Peace Jirga to discuss ways to
begin a process of reconciliation with insurgents who are willing to accept the
Afghan Constitution and renounce ties to al-Qaeda and other terrorist groups.
About 1,600 Afghans from around the country participated in the Peace Jirga and
issued a 16-point resolution that called on the government to develop a program
to implement a peace process.
   At the Kabul Conference, the GIRoA unveiled the Afghanistan Peace and
Reintegration Program. President Karzai had earlier announced the formation
of the High Peace Council to lead the program. A new Peace and Reintegration
Trust Fund, supported though international contributions, has been established
to fund its activities. The program seeks to reintegrate thousands of former
combatants and stabilize 4,000 communities in 220 districts over 5 years.
   DoD has received congressional approval to provide $100 million from
the Commander’s Emergency Response Program for the reintegration effort.
Ambassador Holbrooke said the reintegration program was one of the most impor-
tant initiatives to come out of the Kabul Conference because defeating the Taliban
requires a political process that goes hand in hand with the military campaign.




   8               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




   Improving security is essential to the success of the reconstruction program in
Afghanistan. SIGAR will continue to observe the evolving process of reconcilia-
tion and provide oversight of U.S. spending as needed.

REGIONAL COOPERATION
The United States and its international partners have been encouraging greater
regional cooperation to help stabilize Afghanistan and facilitate increased trade
and investment to fuel economic development. These efforts have been par-
ticularly focused on improving Afghanistan’s relationship with Pakistan. In a
breakthrough this quarter, the two countries reached a trade transit agreement
that will allow Afghan trucks to transport products through Pakistan to the
Indian border.
   Afghanistan’s Prioritization and Implementation Plan calls for greater interna-
tional investment in regional infrastructure projects, such as railways and roads
to link Afghan cities to markets in central Asia, south Asia, and Europe. Other
priorities include building a natural gas pipeline and expanding regional electric-
ity transmission networks. Most of these projects would have to be funded by the
international community and will require effective oversight.

LOOKING AHEAD
At the Kabul Conference, the GIRoA vowed to implement key reforms, such as
improving its public financial management systems, to ensure that donor funds
channeled through the government benefit the Afghan people. The final commu-
niqué from the Conference noted that donors must review the GIRoA’s progress
in achieving its goals; nevertheless, it did not provide a mechanism or timeline
for conducting those reviews.
   U.S. implementing agencies have the primary obligation to ensure that
taxpayer dollars are spent wisely in support of U.S. strategic goals. SIGAR is
committed to providing the critical real-time oversight needed to quickly identify
problems and prevent the waste, fraud, and abuse of U.S. reconstruction funds.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        9
               Growing local industries
               An Afghan worker packs honey into jars in a USAID-funded
               facility in Jalalabad. Regenerating agribusiness is a key goal
               of the U.S. Afghanistan and Pakistan Regional Stabilization
               Strategy. (USAID Photo)




10   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
2   SIGAR
    OVERSIGHT




        11
           SIGAR OVERSIGHT




   “Accountability is the cornerstone
of good governance. Without it, we risk
 losing our investment in Afghanistan
    to waste, corruption, and fraud.
        Everyone involved in the
    reconstruction effort—the U.S.
    implementing agencies, private
      contractors, nongovernment
     organizations, and the Afghan
       government—must be held
    accountable for public funds at
             their disposal.”
    —Special Inspector General Arnold Fields




           Source: Special Inspector General Arnold Fields, “Oversight of U.S. Civilian Assistance for Afghanistan,” testimony before the State,
           Foreign Operations Appropriations Subcommittee, U.S. House of Representatives, 7/15/2010.




               12                           SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                           SIGAR OVERSIGHT




SIGAR OVERSIGHT
SIGAR’s Audit, Investigations, and Management directorates had a highly
productive quarter. SIGAR completed four audits and announced five new
audits, bringing the total number of ongoing contract, performance, and forensic
audits to 18. SIGAR opened 26 new investigations; it also participated in joint
operations with other federal law enforcement agencies to determine the source
of bulk cash shipments leaving Afghanistan through the Kabul airport. As a result
of SIGAR’s public outreach campaign, the SIGAR Hotline recorded a 77% jump in
the number of complaints it received alleging fraud, waste, and abuse of recon-
struction dollars. Table 2.1 lists SIGAR’s completed audits as of July 30.
   During this reporting period, SIGAR also continued to build its staff. SIGAR has
93 full-time employees when this report went to press. SIGAR is working with the
U.S. Embassy in Kabul and U.S. Forces - Afghanistan to increase the number of
people it can station at the Embassy and at other locations in Afghanistan.

SIGAR AUDITS
A key goal of the U.S. strategy in Afghanistan is to develop self-sufficient Afghan
security forces that can independently provide internal and external security for
the country. More than half of all reconstruction funding is used to train, equip,
and house the Afghan National Army (ANA) and the Afghan National Police
(ANP). Three of the four SIGAR audits completed this quarter were related to
this critical effort.
   The United States has also committed to promoting gender equity in
Afghanistan. SIGAR’s fourth completed audit this quarter reviewed the use of


TABLE 2.1


COMPLETED SIGAR AUDITS, APRIL 1–JULY 30, 2010
Report Identifier         Report Title                                                          Date Issued
SIGAR-Audit-10-14         ANA Garrison at Farah Appeared Well Built Overall, but Some Construction 7/30/2010
                          Issues Should Be Addressed
SIGAR-Audit-10-13         Greater Coordination Needed in Meeting Congressional Directives To    7/30/2010
                          Address and Report on the Needs of Afghan Women and Girls
SIGAR-Audit-10-12         ANP Compound at Kandahar Generally Met Contract Terms but Has Project 7/22/2010
                          Planning, Oversight, and Sustainability Issues
SIGAR-Audit-10-11         Actions Needed To Improve the Reliability of Afghan Security Force    6/29/2010
                          Assessments




                    REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2010               13
SIGAR OVERSIGHT




the $627 million that the Congress has earmarked since 2003 to assist Afghan
women and girls.

Completed Audit Reports
This quarter, SIGAR issued four audit reports, which are summarized in the
following subsections.

Audit 10-11: Afghanistan Security Forces
Actions Needed To Improve the Reliability of Afghan Security Force Assessments
The U.S. strategy in Afghanistan depends on building the country’s capacity by
training and equipping the Afghan National Security Forces (ANSF) to provide for
security. Since 2002, the United States has provided about $27 billion—more than
half of all reconstruction dollars—for ANSF training, equipping, and sustainment.
Current ANSF force-generation goals, which were agreed to by the GIRoA and the
international community, call for 171,600 ANA troops and 134,000 ANP members
by October 2011. In the short term, ANSF capabilities are essential to the U.S. and
coalition counter-insurgency strategy, which calls for securing key population areas
and relies on bolstering the Afghan people’s confidence in their government. In the
long term, ANSF progress is critical because the United States and the international
community aim to transfer responsibility for security to the Afghan security forces.
Since 2005, the United States has used the Capability Milestone (CM) rating system
to monitor and report on progress in the development of ANSF capabilities.

OBJECTIVES
The audit addressed four objectives:
• Assess the reliability of the CM rating system.
• Assess summary reports provided to decision makers.
• Identify challenges to U.S. and coalition efforts to assess the ANSF.
• Identify systemic ANSF deficiencies that have undermined efforts to develop
  unit-level capabilities.

FINDINGS
1. SIGAR found that the CM rating system has not provided reliable or con-
   sistent assessments of ANSF capabilities. The assessments depended on
   quantitative data such as supplies and numbers of personnel rather than
   subjective evaluations of a unit’s ability to perform its mission effectively. In
   some cases, ANA personnel numbers were inflated because they were based
   on the number assigned to a unit rather than the number present for duty.
2. The measurements used in the assessment system overstated the capabili-
   ties of the ANSF, particularly for top-rated army and police units that did
   not always maintain the ability to conduct independent operations. The
   rating system inadvertently created disincentives for ANSF units to progress
   toward a top-level rating, because they faced the prospect of losing force
   protection, expertise, supplies, funding, and prestige.




  14                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




3. Summary reports of ANSF capability ratings included outdated assessment
   data because monthly CM assessments were missing. The submissions were
   missing because of a lack of mentors and partners to provide reporting,
   among other reasons. In the case of ANP records, the ratings either were
   missing or had been carried over for as long as four months.
4. U.S. and coalition efforts to assess the ANSF’s capabilities face serious
   challenges, including security conditions, mentor shortages, and inadequate
   training. ANP mentoring and assessment have been significantly limited and
   sometimes ineffective in areas where enemy activity is intense. The shortfall
   in mentors and partners and their lack of training have significantly affected
   the development and assessment of ANSF units, particularly the police.
5. Systemic ANSF deficiencies have undermined efforts to develop unit capa-
   bilities. These deficiencies include logistics problems, personnel attrition,
   inadequate personnel authorizations, infrastructure deficiencies, corrup-
   tion, drug abuse, and illiteracy. For example, mentors and partners reported
   logistics problems such as vanishing supply requests, hoarding, and the
   inability to track supply request forms through ministerial supply chain sys-
   tems. Another key issue is the attrition that has drained a large portion of the
   police trained through the Focused Police District Development (FPDD) pro-
   gram. The attrition occurred largely because of pressure from anti-coalition
   forces and disappointment over pay levels.

RECOMMENDATIONS
In use since 2005, the CM rating system has not provided a consistent and reli-
able means of reporting on the effectiveness of ANSF units. According to officials
from the International Security Assistance Force (ISAF) Joint Command (IJC),
the CM rating system is being replaced by a new unit-level assessment system,
which SIGAR has not yet reviewed. SIGAR’s recommendations remain relevant
to the new system: without the recommended measures, decision makers will
not have a clear understanding of the extent to which progress is being made in
developing Afghan security forces that are capable of independently conducting
operations and ultimately securing Afghanistan.
   To obtain more reliable assessments of ANSF operational effectiveness,
SIGAR recommended that IJC take the following actions:
• Emphasize subjective assessment of the overall operational capability
    provided by mentor and partner team evaluators.
• Develop a manual for mentors and partners that incorporates real-world
    examples and best practices to support more consistent evaluation.
• Work with the NATO Training Mission - Afghanistan/Combined Security
    Transition Command - Afghanistan (NTM-A/CSTC-A) to provide additional
    training and guidance to mentor and partner teams on decrees and proce-
    dures from the Ministry of Interior (MoI) and the Ministry of Defense (MoD).
• Encourage an equivalent understanding among raters of different ANSF units
    to ensure that rating-level definitions are consistent.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        15
SIGAR OVERSIGHT




• Incorporate present-for-duty figures as a percentage of assigned personnel
  into assessments for both ANP and ANA units.
• Conduct independent validations of top-level ANP unit capabilities.
  To improve the transparency and accuracy of ANSF assessment reporting,
SIGAR recommended that IJC take these actions:
• Begin to systematically track the number of unit-level evaluations not sub-
   mitted each month and the number of elements not observed within those
   assessments.
• Add an additional overall rating level to represent units “not assessed” where
   no mentors/partners are assigned.
   To maximize visibility into ANP capabilities, SIGAR recommended that IJC
take this action:
• Require all U.S. and coalition military mentor and partner teams to submit
   unit assessments, and begin requesting unit assessments from civilian advis-
   ers in districts where no military mentors/partners are assigned.
  To counteract disincentives resulting from the ANSF assessment system,
SIGAR recommended that IJC take this action:
• Evaluate—in conjunction with NTM-A/CSTC-A, MoI, and MoD—the creation
   of an incentive system to reward Afghan units for top-level capabilities.
  SIGAR also recommended that NTM-A/CSTC-A take these actions:
• To monitor supply requests, work with MoI and MoD to implement better
  tracking systems.
• To counterbalance the effects of attrition in FPDD units, develop a program
  to train new recruits who are assigned to FPDDs that have previously
  received training.
• To enable each ANSF unit to extend driver training using its own personnel,
  implement a train-the-trainer driving program.

AGENCY COMMENTS
IJC concurred or partially concurred with 10 recommendations, stating that
it intended to address the recommendations as it implemented its new rating
system, the Commander’s Unit Assessment Tool (CUAT). IJC disagreed with two
recommendations, which SIGAR removed from the final report because IJC’s
responses fulfilled the spirit of the recommendations.
    In its response, NTM-A/CSTC-A concurred with the recommendations but sug-
gested that the report included out-of-date information. However, SIGAR’s audit
work relied on interviews and information collected from October 2009 through
May 2010, including field observations of 18 ANSF units made during February
and March 2010.
    The Office of the Secretary of Defense (OSD) Policy provided additional infor-
mation, including clarification about the nature of DoD reports to the Congress
and comments regarding DoD’s concerns about the CM rating system. OSD
Personnel and Readiness also commented on the report and provided additional




  16               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




information regarding the history of efforts to improve ANSF assessments,
including details on OSD’s involvement in attempting to address reliability and
integrity problems with the CM rating system.

Audit 10-12: Kandahar ANP Compound
ANP Compound at Kandahar Generally Met Contract Terms but Has Project Planning,
Oversight, and Sustainability Issues
The international coalition in Afghanistan is working to provide facilities to train
and house the ANP. With the ANP force size growing from 95,000 in December
2009 to 134,000 by October 2011, CSTC-A has helped fund a country-wide build-
ing program to meet the ANP’s needs. As a part of this effort, CSTC-A provided
$45 million to the U.S. Army Corps of Engineers (USACE) to fund the construc-
tion of the Joint Regional Afghanistan Security Forces Compound (JRAC) in
Kandahar. The compound is located outside the Kandahar Airfield.
   The compound consists of four separate ANP projects: a Regional Logistics           New generators begin operation at the
                                                                                       Kandahar ANP compound. SIGAR found that
Center, an Afghan National Civil Order Police battalion, the Afghan Uniform
                                                                                       the JRAC had some redundant power sys-
Police’s regional headquarters, and the Afghan Border Police’s zone command.           tems due to a lack of integrated planning.
USACE awarded a firm-fixed-price contract for the Regional Logistics Center proj-      (SIGAR photo)
ect and firm-fixed-price task orders for construction of the projects for the Afghan
National Civil Order Police, Afghan Uniform Police, and Afghan Border Police.

OBJECTIVES
The audit addressed three objectives:
• Determine whether the JRAC was constructed within the terms of the con-
  tracts, including schedule and cost.
• Assess whether USACE oversight of construction was conducted in accor-
  dance with the Federal Acquisition Regulation (FAR), USACE requirements,
  and oversight provisions of the contract.
• Identify what plans are in place to sustain these facilities once they are
  turned over to the GIRoA.

FINDINGS
1. SIGAR found that three of the four JRAC projects experienced delays rang-
   ing from 6 to 12 months. The fourth project was delayed two years, in part
   because of a land dispute between CSTC-A and the U.S. Drug Enforcement
   Administration, which led to its relocation to the JRAC site. Nearly $280,000
   in USACE expenses was related to the project’s relocation. In addition, the
   prime contractor has filed a request for equitable adjustment for $665,000 in
   additional costs. SIGAR noted that the final JRAC project is scheduled for
   occupancy by July 2010. SIGAR’s inspection of completed work revealed no
   apparent construction problems.
2. Inadequate project planning affected all four projects. USACE staff did not
   prepare a master plan for the JRAC that fully integrated the four projects. As
   a result, the JRAC had some redundant power, water, and sewer systems and




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010         17
SIGAR OVERSIGHT




Work continues on the Kandahar ANP Compound. This quarter, a SIGAR audit made a
number of recommendations to ensure that the GIRoA can sustain the facilities in the future.
(SIGAR photo)


   varying heating and cooling systems. In addition, an armory for one project
   was constructed adjacent to a barracks for another project.
3. Project oversight was also deficient in several respects. USACE quality
   assurance procedures were not fully adhered to, which raises the risk that
   construction problems could surface later in the life of the project, increase
   operations and maintenance costs, and compromise occupant safety. In
   addition, the results of site inspections were not always documented; prime
   contractors did not adequately document the results of site inspections and
   whether required testing and inspections had occurred.
4. CSTC-A officials stated that the GIRoA does not have the financial or tech-
   nical capacity to sustain ANSF facilities in the near term once they are
   completed. To address this issue, USACE intends to award two five-year
   contracts for the operation and maintenance of ANSF facilities throughout
   Afghanistan, at an estimated cost of $800 million. These contracts include
   provisions for developing the ANSF’s sustainment capabilities.
5. A key development that will help the ANP provide for its own operations and
   maintenance is the move toward “austere” construction standards, as defined
   by CSTC-A. However, these standards do not include details on heating and
   cooling options and electrical and plumbing fixtures that could promote the
   long-term sustainability of U.S.-constructed facilities such as the JRAC.




   18                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                             SIGAR OVERSIGHT




RECOMMENDATIONS
The United States has already committed to paying an estimated $800 million to
support all ANSF facilities over the next five years. To enhance compliance with
USACE’s quality assurance and control procedures and increase the likelihood
that the GIRoA will be able to sustain the facilities without assistance from the
United States, SIGAR recommended that the Commanding General, USACE, take
the following actions:
• Direct that future projects adhere to USACE’s established quality assurance
   and quality control procedures.
• Review and update current guidance on austere construction standards to
   include more details on heating and cooling options for different types of
   facilities, with the option of allowing for regional differences.
• Include additional guidance regarding appropriate electrical, plumbing, and
   other fixtures for facilities.

AGENCY COMMENTS
CSTC-A concurred with SIGAR’s recommendations to update guidance on
austere construction standards in Afghanistan. USACE concurred with the
recommendation to better adhere to quality assurance and quality control pro-
cedures. Both CSTC-A and USACE commented on SIGAR’s observation that an
armory and a barracks had been built adjacent to each other. CSTC-A indicated
that the armory was for securing weapons and not ammunition, implying that
there was no safety concern. In contrast, USACE stated that it was in discussions
with CSTC-A about installing 20-foot concrete barriers between the two areas.
SIGAR noted that this matter needs to be resolved because the facilities will be
transferred to Afghan authorities at the end of July 2010, according to USACE
officials from Afghanistan Engineering District (AED)-South.

Audit 10-13: Women and Girls
Greater Coordination Needed in Meeting Congressional Directives To Address and Report
on the Needs of Afghan Women and Girls
From 2003 through 2010, the Congress earmarked $627 million in appropri-
ated funds to address the needs of Afghan women and girls. The Congress also
periodically directed the Department of State (DoS) to report on the use of
these funds. These earmarked funds signal congressional concern that, without
greater attention to the challenges facing women and girls in Afghanistan, the
country’s prospects for economic growth and democratic development will be
sharply reduced, according to a 2004 conference report. Although the United
States and its allies cited the defense of women’s rights as one of the primary
reasons for commitment to Afghanistan’s future after the defeat of the Taliban,
Afghan women continue to be among the worst off in the world, according to a
December 2009 Human Rights Watch Report.




             REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2010           19
SIGAR OVERSIGHT




Before the Kabul Conference, U.S. Secretary of State Hillary Rodham Clinton participates in
a women’s empowerment event hosted by EU High Representative for Foreign Policy Catherine
Ashton in Kabul on July 20, 2010. (DoS photo)


OBJECTIVES
The audit had three objectives:
• Assess the approach that DoS and the U.S. Agency for International
  Development (USAID) used to attribute and report on funds covering activi-
  ties for Afghan women and girls for FY 2008 and FY 2009.
• Determine the extent to which specific earmarks to certain organizations
  met congressional directives.
• Assess whether reported activities were consistent with U.S. and Afghan
  national strategies, including the National Action Plan for the Women of
  Afghanistan.

FINDINGS
1. SIGAR’s report focused on the DoS October 2009 report of U.S.-funded
   activities for women and girls in Afghanistan, and to some extent on DoS’s
   2008 report. In reviewing the 2009 report, SIGAR found that DoS and USAID
   did not coordinate their approach to reporting on the use of the funds ear-
   marked for Afghan women and girls. The reports submitted to the Congress
   in 2008 and 2009 did not provide complete and consistent information about
   the reported activities in which women and girls were intended beneficia-
   ries, such as relating funded activities to numbers of female beneficiaries or
   services provided.
2. SIGAR found other problems with DoS’s reporting. For example, the
   reports used different time frames for and approaches to the data presented.
   Although DoS and USAID took action in the past year to coordinate gender-
   related issues in Kabul, DoS did not develop guidelines or a rationale for
   determining and reporting earmark attributions. The report provided no
   explanation for why certain activities were included and others were not.



   20                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




   As a result, the reports to the Congress did not provide a clear picture of
   how the funds were used to address the needs of Afghan women and girls.
3. Congressional legislation also specified that certain Afghan organizations
   should receive earmarks of specific amounts. DoS and USAID partially met
   these congressional directives. For example, the Ministry of Women’s Affairs,
   which has responsibility for implementing GIRoA policies to secure and
   expand the legal rights of women, did not receive appropriated funds for
   each year it was mentioned in legislation. Other organizations received only
   partial amounts of the funds earmarked for them by the Congress, including
   the Afghanistan Independent Human Rights Commission and nongovernmen-
   tal organizations and civil society organizations led by Afghan women.
4. U.S. policy is to support women’s rights, gender integration, and Afghan
   national strategies. However, the 2009 report did not show linkages between
   U.S.-funded activities and Afghan goals and benchmarks included in the
   National Action Plan for Women in Afghanistan, a key tool by which the GIRoA
   seeks to realize its gender equity goals. Such linkage is important to ensure
   that the reported activities address the needs of Afghan women and girls.

RECOMMENDATIONS
Earmarks of appropriated funds for addressing the needs of Afghan women
and girls have increased significantly over time, from $5 million in 2003 to
$175 million for 2010. Although the Congress has directed DoS to report on the
use of these funds for Afghan women and girls, the reporting has not provided a
clear picture of how the funds have been used to benefit Afghan women and girls
or how U.S.-funded activities support the goals of National Action Plan for the
Women of Afghanistan. SIGAR thus recommended that the Secretary of State,
in consultation with the USAID Administrator, take the following actions before
September 30, 2010, when DoS’s next report to the Congress is due:
 • Develop consistent reporting requirements for all USAID and DoS programs
    and activities to provide data on female beneficiaries and on the measurable
    impacts of activities intended to address the needs of Afghan women and girls.
 • Develop a coordinated approach for determining the earmark attribution
    amounts and reporting on the use of earmarked funds that provides consis-
    tent information about each activity, identifies funding sources, and provides
    the rationale for reporting activities.
 • Align activities to ensure consistency with the goals and benchmarks stated
    in Afghanistan’s national strategies, particularly the National Action Plan for
    the Women of Afghanistan.
 • Target funds to address the organizations specified in the legislation—
    including the Ministry of Women’s Affairs, the Afghanistan Independent
    Human Rights Commission, and nongovernmental organizations and civil
    society organizations led by Afghan women—to ensure that appropriated
    funds are used as directed by the Congress and address the needs of Afghan
    women and girls.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        21
                                             SIGAR OVERSIGHT




                                             AGENCY COMMENTS
                                             At the time this publication went to press, the agencies were still preparing formal
                                             comments on a draft of the report. The final audit report contains the agency
                                             comments and response to the findings and recommendations (www.sigar.mil).

                                             Audit 10-14 Farah ANA Garrison
                                             ANA Garrison at Farah Appeared Well Built Overall, but Some
                                             Construction Issues Should Be Addressed
                                             The international coalition seeks to build Afghanistan’s capacity to provide for
                                             its own security by training and equipping the ANSF. From FY 2005 to FY 2010,
                                             more than $25 billion has been appropriated for the Afghanistan Security Forces
                                             Fund, which provides the funding to train and equip the ANSF. New require-
                                             ments call for the ANA troop levels to grow to 171,600 by October 2011. As a
                                             result, additional facilities are needed to train and base the Afghan force. The
                                             garrison at Farah, located in Farah province, will house approximately 2,000
The Farah Garrison project is nearly         personnel. The ANA began occupying the garrison in October 2009. CSTC-A is
complete. When finished, the facility will   funding two contracts, for a total of $68.1 million, to construct the garrison in
house approximately 2,000 ANA personnel.
                                             two phases. USACE’s AED-South awarded two firm-fixed-price contracts for
(SIGAR photo)
                                             program management and oversight of Phases I and II to Fazlullah Construction
                                             and Engineering Co. (an Afghan firm) and United Infrastructure Projects (an
                                             American firm).

                                             OBJECTIVES
                                             The audit addressed four objectives:
                                             • Determine whether the Farah garrison was constructed within the terms of
                                               the contract, including schedule and cost.
                                             • Assess USACE oversight of construction and whether it was conducted in
                                               accordance with the FAR, USACE requirements, and oversight provisions of
                                               the contract.
                                             • Review the plans for sustaining ANSF facilities.
                                             • Identify CSTC-A’s overall justification for the garrison.

                                             FINDINGS
                                             1. SIGAR found that, although the Farah garrison project was nearly complete,
                                                Phase I was completed about 16 months after its original completion date.
                                                Phase II was scheduled to be completed by July 2010—about 12 months past
                                                its original completion date. The cost to CSTC-A of Phase I, awarded for
                                                $29.4 million, increased by almost $10 million, largely because of contract
                                                options exercised by AED-South and changes to the scope of work. In addi-
                                                tion, issues with the security of ground transportation led to an increase of
                                                $100,000 to fly in building materials. The cost of Phase II, awarded for
                                                $34.6 million, decreased by more than $5.7 million because of the removal
                                                of line items that duplicated Phase I.
                                             2. Overall, the garrison appeared to be well constructed; however, during the
                                                site inspection, SIGAR observed some construction issues related to site



                                               22                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




   grading, asphalt roads, and silt accumulation that should be addressed.
   Grading at the site was not sufficiently sloped, which will allow water to
   collect around buildings. Asphalt was not always properly compacted and
   will deteriorate and will need repair. The unlined drainage ditches at the site
   will collect silt and require frequent maintenance.
3. SIGAR found that overall contract management and oversight met contract
   requirements. Progress payments were documented properly, and qual-
   ity assurance reports met USACE requirements. However, the Resident
   Management System reports and two modifications for Phase I contained
   some incorrect information.
4. According to CSTC-A, the GIRoA does not have the financial or technical            Afghan workers dig a drainage trench dur-
   capacity to sustain all ANSF facilities. AED-South is in the process of award-     ing construction of ANA facilities in Farah
   ing two contracts to provide operations and maintenance for ANSF facilities.       province. A SIGAR audit this quarter identi-
   The contracts as planned total $800 million and will cover 663 ANSF sites.         fied a number of construction issues that
                                                                                      should be addressed.
5. CSTC-A did not provide SIGAR with an overall justification for the Farah garri-
                                                                                      (SIGAR photo)
   son, such as a rationale for its location. SIGAR reviewed various documents that
   addressed certain other ANSF facilities, but none addressed garrisons. Rather
   than make a recommendation regarding facility planning at this time, SIGAR is
   undertaking a separate audit of CSTC-A’s planning efforts for ANSF facilities.

RECOMMENDATIONS
The United States has provided more than $68 million to build this garrison
to support ANA operations in Farah province. To protect the U.S. investment
and provide a sustainable facility for ANA troops, the construction issues that
SIGAR observed should be addressed. To ensure that the garrison is completed
in accordance with the contract and that sustainability issues are minimized,
SIGAR recommended that the Commanding General, USACE, direct AED-South
to address the following construction issues:
 • Ensure that the site is properly graded around buildings to prevent the
    pooling of water.
 • Ensure that the asphalt roads and parking lots are properly compacted to
    minimize deterioration.
 • Consider mitigating silt accumulation in the unlined drainage ditches around
    the garrison to minimize maintenance.

AGENCY COMMENTS
At the time this publication went to press, the agencies were still preparing for-
mal comments on a draft of the report. The final audit report contains the agency
comments and response to the findings and recommendations (www.sigar.mil).

New Audits Announced This Quarter
This quarter, SIGAR initiated five new audits that will assess the planning and
implementation of infrastructure projects for the Afghan security forces, review
cooperative agreements with nongovernmental organizations, and evaluate a




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010          23
SIGAR OVERSIGHT




selection of projects that are funded by the Commander’s Emergency Response
Program (CERP).

Planning for ANSF Facilities
This audit is examining the process used in providing a rationale for ANSF
infrastructure and facilities and for meeting the ANSF’s changing requirements.
As noted in SIGAR audit reports issued this quarter, without an updated facilities
plan that reflects current ANSF requirements, CSTC-A runs the risk of building
facilities that are inadequate for the ANSF’s projected force strength. The audit
has three objectives:
 • Review CSTC-A’s overall plan for constructing ANSF infrastructure and facili-
    ties in Afghanistan.
 • Review CSTC-A’s strategic and tactical rationale for ANSF infrastructure and
    facilities, including justifications for the deployment of ANSF personnel, the
    locations of the various facilities, and their role in the operational missions
    of the ANA and the ANP.
 • Assess how CSTC-A updates its facilities plans to ensure that current and
    planned ANSF infrastructure and facilities meet changing requirements.

Review of U.S. Air Force Center for Engineering and the
Environment Infrastructure Projects in Herat and in Mazar-e Sharif
SIGAR is examining two infrastructure projects undertaken by the U.S. Air Force
Center for Engineering and the Environment. This review has three objectives:
• Assess whether the projects are being completed within the terms of the
   contracts, including schedule and cost.
• Determine whether construction is in accordance with approved construc-
   tion plans and specifications.
• Assess whether U.S. contract administration and construction oversight
   are effective.

Review of Construction Projects for Six ANP Facilities
in Helmand and Kandahar
SIGAR is initiating a performance audit to assess the construction and progress
of six ANP district headquarters facilities, which are being constructed under
USACE contract. The work will be conducted at three sites in the Helmand
districts of Garmsir, Nahri Saraj, and Nad ’Ali, and three sites in the Kandahar
districts of Spin Boldak, Zheley, and Registan. This audit has three objectives:
• Determine whether the infrastructure projects were completed within the
    terms of the contract, including schedule and cost.
• Assess whether the construction is in accordance with approved construc-
    tion plans and specifications.
• Evaluate the nature and adequacy of U.S. contract administration and con-
    struction oversight.




  24               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




Review of USAID’s Cooperative Agreement with CARE
International for the Food Insecurity Response for Urban
Populations of Kabul (FIRUP-K) Program
SIGAR is initiating an audit of an estimated $60 million cooperative agreement
between USAID and CARE International. The agreement, the Food Insecurity
Response for Urban Populations of Kabul (FIRUP-K), is for one of four programs
addressing food insecurity in major urban areas in Afghanistan. Although the
completion date of the one-year program was originally March 2010, USAID
has recently indicated it was extended to September 2011. SIGAR will examine
USAID’s award and oversight processes, program start dates and results, and
challenges to implementation. The audit has three objectives:
• Assess USAID’s process for awarding cooperative agreements, particularly
   FIRUP-K, and USAID’s management and oversight of the program.
• Review the goals and objectives of the program, assess how USAID mea-
   sures results, and identify what the program has achieved.
• Identify challenges the program has encountered, how they have affected
   implementation, and what USAID and CARE have done to address them, in
   particular the rationale for extending the planned completion date.

Review of Selected CERP Projects in Afghanistan
This review is a pilot audit of a selection of Commander’s Emergency Response
Program (CERP) projects. SIGAR intends to replicate the pilot in selected
geographical areas and categories of CERP assistance. The audit will examine
schedules and costs, outcomes, U.S. oversight, and plans for sustaining the
projects. The audit will address four objectives:
• Assess whether the CERP projects were completed within the terms of the
   project plans, including schedule and cost.
• Examine the processes in place for evaluating CERP projects and the extent
   to which CERP project outcomes have been assessed.
• Assess the nature and extent of U.S. administration and oversight for
   CERP projects.
• Identify the plans that exist for Afghan authorities to take possession of the
   projects, perform maintenance, and pay for sustainment.

Ongoing Audits
During this reporting period, SIGAR continued work on 10 audits, including
contract assessments, program reviews, and audits related to SIGAR’s anti-
corruption initiative. The audits address reconstruction issues related to security,
governance, and development.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010         25
SIGAR OVERSIGHT




Review of the Implementation of the Civilian Uplift in
Support of the U.S. Reconstruction Effort in Afghanistan
SIGAR has coordinated the scope of this audit with the Government Accountability
Office (GAO). GAO is examining how the U.S. government determined its
requirements; SIGAR is assessing the implementation of the increased civilian
deployment. The audit has three objectives:
• Identify the number and types of personnel provided to implement the
   civilian uplift.
• Assess the extent to which required resources have been provided to
   support the operational and support needs of these additional personnel
   in Afghanistan.
• Assess the extent to which civilians in the field are being used to achieve
   stated strategic and programmatic goals, including collaborating with
   military and international partners and assisting with contract oversight
   responsibilities.

Review of Afghanistan’s National Solidarity Program
This audit is related to a series of audits SIGAR is conducting to examine U.S.
and other donor assistance in support of the GIRoA’s anti-corruption capabilities.
These audits also assess the internal controls that Afghan public institutions are
able to exercise to ensure that donor assistance funds provided to the GIRoA are
reasonably protected against waste, fraud, and abuse.
   In 2003, the Afghan Ministry of Rural Rehabilitation and Development estab-
lished the National Solidarity Program to help Afghan communities identify,
plan, manage, and monitor their own development projects. Since then, the
program has received more than $900 million in international funding and has
reported completing nearly 40,000 small infrastructure projects. The audit has
two objectives:
 • Identify U.S. and donor assistance to the program and determine actions
    taken by the United States and other donors to ensure that their contri-
    butions are adequately accounted for, appropriately programmed, and
    ultimately used for their intended purposes.
 • Examine the capacity of the Ministry of Rural Rehabilitation and
    Development to plan, manage, and monitor the program, to provide reason-
    able assurance that adequate internal controls are in place and are used
    properly to achieve the program’s intended results.

Review of U.S. Efforts To Improve the Accountability
and Anti-Corruption Capabilities and Performance of the
Nangarhar Provincial Government
This audit is examining funding, accountability, and capacity issues related to
Nangarhar province. This is a pilot audit resulting from survey work conducted
on the accountability and anti-corruption capabilities and performance of pro-
vincial governments. If successful, SIGAR will replicate this audit in other key
provinces in the future. The audit has three objectives:



  26               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




• Identify the amounts, sources, and purposes of donor and Afghan funding
  for Nangarhar.
• Assess the steps the U.S. government has taken to ensure that U.S. recon-
  struction funds provided for Nangarhar are used according to national and
  provincial priorities.
• Determine the extent to which Nangarhar’s provincial government can
  ensure that funds are properly protected from misuse and used according to
  national and provincial priorities.

U.S. and International Efforts To Build the Afghan
Government’s Capacity To Fight Corruption
Most of the more than $51 billion provided for the reconstruction of Afghanistan
has been managed directly by U.S. agencies, bypassing the GIRoA. Consistent
with a new donor approach adopted in January 2010, the United States plans
to direct up to half of future development assistance through GIRoA channels.
However, this support is contingent on the GIRoA’s ability to reduce corruption,
among other things. The audit is assessing U.S. and international efforts to help
the GIRoA build the capacity to manage, monitor, and account for donor funds
and deter corruption.

Review of Salary Support Provided by U.S. Government
Agencies to Afghan Government Officials
This audit is part of SIGAR’s effort to assess the internal controls and account-
ability procedures of key GIRoA institutions. It is reviewing all U.S. government
salary support for GIRoA officials, except for uniformed ANSF members. The
review has these objectives:
• Identify all U.S. government salary support to Afghan officials.
• Examine the internal controls and other accountability mechanisms for
   determining the recipients of salaries and the amounts paid.
• Identify challenges, if any, in providing salary support.

Identification of Major Vendors for Reconstruction
Contracts in Afghanistan
SIGAR initiated this audit to identify and describe the largest U.S. reconstruc-
tion contracts; this information will help guide SIGAR’s contract audits. GAO has
provided SIGAR with access to the database it compiled to prepare its reports
addressing contracting in Afghanistan during FY 2007, FY 2008, and the first six
months of FY 2009. SIGAR has analyzed GAO’s data to identify and rank the prime
vendors by total obligations during that period. This audit has three objectives:
• Ensure that the vendors and associated contracts identified are for recon-
   struction in Afghanistan (rather than support for the U.S. presence).
• Determine the value and purpose of the contracts identified.
• Document each contract’s reported total obligations and expenditures
   through FY 2009.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010       27
SIGAR OVERSIGHT




   SIGAR is working with DoS, DoD, and USAID to identify any prime contrac-
tors that have active contracts for substantive reconstruction assistance to
Afghanistan that did not appear in GAO’s database. To minimize duplication of
effort, SIGAR is coordinating this work with GAO’s ongoing compilation of contract
obligations for the last six months of FY 2009.

Review of U.S. Assistance for the Preparation and Conduct of
Presidential and Provincial Council Elections in Afghanistan
This audit, the third in a series of reports on the election process, is reviewing
independent assessments of the 2009 presidential and provincial council elections
and actions taken by U.S. and international donors to support the 2010 parlia-
mentary elections. This review will identify the lessons learned from the 2009
elections and actions taken to address electoral reforms priorities and issues.

Review of U.S. Agencies’ Use of Contractors To Provide
Security for Reconstruction Programs in Afghanistan
SIGAR is conducting this audit to identify the number and volume of contracts in
place to provide security services in Afghanistan. The audit has these objectives:
• Determine the number of security contractors and personnel working for
   U.S. federal agencies in Afghanistan.
• Assess the agencies’ management and oversight of security contractors
   and subcontractors.
• Determine the extent to which GAO and the inspector general community
   have conducted audits of private security contracts.

Contract Audit: Reconstruction Security Support Services
from Global Strategies Group, Inc.
This audit, which is related to SIGAR’s audit of private security contractors in
Afghanistan, is examining whether the USACE received the security services it
needed from the contractor at a reasonable cost. This quarter, SIGAR re-scoped
this audit to clarify the objectives. The re-scoped audit has these objectives:
• Identify the services provided by Global Strategies Group (Global) and deter-
   mine whether those services were provided in accordance with the contract,
   including schedule, cost, and any modifications.
• Determine whether USACE conducted its oversight of the Global contract in
   accordance with the Federal Acquisition Regulation, USACE requirements,
   and any oversight provisions in the contract.
• Identify the private security subcontractors that were used, if any, and deter-
   mine how they were vetted and considered to be capable of performing the
   contracted services.

Review of Afghan National Police (ANP) Personnel Management
SIGAR is conducting this audit to evaluate the extent to which the ANP has
developed accurate systems for personnel accounting. This audit originally




  28               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




focused on both the ANP and ANA, but SIGAR re-scoped the audit to focus only
on the ANP in order to avoid duplicating work being conducted by GAO and to
meet the growing interest in the ANP. The re-scoped audit has four objectives:
• Describe ANP personnel management processes and systems.
• Describe actions taken by the GIRoA and donors to implement and maintain
   ANP personnel management processes and systems.
• Identify any challenges that may impede the implementation and sustain-
   ment of ANP personnel management processes and systems.
• Identify the extent to which risks of fraud, waste, and abuse are being
   mitigated.

Forensic Audits
SIGAR is conducting three reviews, including two announced this quarter,
under the authority of P.L. 110-181, as amended. The legislation requires SIGAR
to investigate improper payments—such as duplicate payments or duplicate
billings—and to prepare a final forensic audit report on all programs and opera-
tions funded with amounts appropriated or otherwise made available for the
reconstruction of Afghanistan. The new reviews will examine USAID and DoS
transaction data related to reconstruction funding.

Forensic Review of Afghanistan Security Forces Fund
Transaction Data
SIGAR initiated a review of DoD appropriation, obligation, and expenditure
transaction data related to the Afghanistan Security Forces Fund (ASFF) for
FY 2005 to FY 2009. This initiative will analyze transactional data to identify
anomalies that may indicate fraud, using data-mining techniques and fraud indi-
cators. The results could support or lead to SIGAR audits or investigations.

Forensic Review of U.S. Agency for International Development
Transaction Data Related to Afghanistan Reconstruction
SIGAR is initiating a review of USAID appropriation, obligation, and expenditure
transaction data related to Afghanistan reconstruction activities from FY 2002
to the present. This initiative will analyze transaction data to identify anomalies,
using data-mining techniques and fraud indicators. The results could support or
lead to SIGAR audits or investigations.

Forensic Review of Department of State Transaction
Data Related to Afghanistan Reconstruction
SIGAR has announced an initiative to review DoS appropriation, obligation,
and expenditure transaction data related to Afghanistan reconstruction activi-
ties from FY 2002 to the present. The objective of this initiative is to analyze
transaction data to identify anomalies, using data-mining techniques and fraud
indicators. The results could support or lead to SIGAR audits or investigations.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010         29
                                                       SIGAR OVERSIGHT




FIGURE 2.1
                                                       SIGAR INVESTIGATIONS
                                                       This quarter, the SIGAR Investigations Directorate opened 27 new cases and
CASES UNDER INVESTIGATION BY STATUS
                                                       closed 14 cases. SIGAR has 55 ongoing cases divided among three investigative
                                                       activities, as authorized by the Attorney General guidelines for inspectors general
                        Total: 55                      with statutory law enforcement authority. The three activities are assessments,
                                                       preliminary investigations, and full investigations; the distinctions between them
                                                       derive from the authorized investigative methods and the nature of the informa-
                                                       tion regarding the alleged crime. As of July 30, 2010, SIGAR is conducting
               Full                                    1 assessment, 19 preliminary investigations, and 35 full-scale investigations.
               Investigations
               35            Preliminary
                                                       SIGAR thoroughly assesses all allegations of criminal activity to determine
                             Investigations            whether reconstruction funds are involved. The United States is funding so many
                             19                        interrelated military and civilian activities in Afghanistan that contractors and
                                                       their subcontractors often work for multiple entities engaged in multiple activi-
                                                       ties. This often makes it difficult to quickly determine the source of funds, such
                               Assessments
                               1                       as in the case of bulk cash shipments.
                                                          The cases under investigation involve contract fraud, public corruption, pro-
Source: SIGAR Investigations Directorate, 7/19/2010.   curement fraud, and miscellaneous criminal activities. Figure 2.1 and Figure 2.2
                                                       provide a breakdown of the cases by status and type.
FIGURE 2.2
                                                       Building Investigative Capacity
CASES UNDER INVESTIGATION BY TYPE                      Since the last reporting period, SIGAR has hired three new investigators and
                                                       is on track to meet its targeted staffing level of 32 by the end of the fiscal year.
                        Total: 55                      SIGAR investigators are senior-level, career law enforcement officers with expe-
                                                       rience in white collar crime, accounting, and fraud examination.
                                                          Of the 24 investigators already on staff, 14 are in Afghanistan, and 10 are
                                                       based at SIGAR headquarters in Arlington, Virginia. SIGAR has assigned inves-
                 Contract       Public                 tigators to the U.S. Embassy in Kabul, CSTC-A headquarters at Camp Eggers,
                 Fraud          Corruption
                                14                     Bagram Air Field, and Kandahar Air Field. To expand its investigative pres-
                 23
                                                       ence in Afghanistan, SIGAR is in the process of adding seven new field offices
                              Procurement              in five provinces where significant reconstruction work is planned or under
                              Fraud
                              11                       way—Nangarhar, Logar, Khowst, Herat, and Balkh. SIGAR is coordinating with
                                                       the commanders of ISAF and USFOR-A and with DoS officials to facilitate the
                            Other                      logistics, including force protection and life support services.
                            7
                                                          SIGAR investigators work in close cooperation with other federal law enforce-
Source: SIGAR Investigations Directorate, 7/19/2010.
                                                       ment agencies in Afghanistan and in the United States to maximize resources
                                                       and to ensure that all allegations of the misuse of U.S. taxpayer dollars are seri-
                                                       ously considered. SIGAR maintains a permanent, full-time presence at the Joint
                                                       Operation Center of the International Contract Corruption Task Force (ICCTF)
                                                       in Washington, D.C. The ICCTF is the principal U.S. law enforcement organiza-
                                                       tion coordinating U.S. federal investigations of fraud internationally.




                                                         30                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




Two Afghan Companies Plead Guilty to Bribery and Are Fined
$4.4 Million
On June 25, 2010, two Afghan trucking companies pleaded guilty to paying bribes
to U.S. public officials in exchange for unfair advantages in obtaining trucking
service contracts at the Bagram Air Field. These companies were transporting
reconstruction materials, among other commodities. The case is the result of
a joint investigation by SIGAR, the Defense Criminal Investigative Service, the
U.S. Army Criminal Investigation Command Division, and other members of
the ICCTF. The plea agreements require the companies, Afghan International
Trucking (AIT) and Afghan Trade Transportation (ATT), to pay a combined total
of $4.4 million in criminal fines.
   The investigation revealed that AIT made corrupt payments totaling more than
$120,000 to various U.S. military officials, and ATT made corrupt payments of more
than $30,000 to one of those officials. According to the statement of facts, AIT
employees began offering money to officials in the transportation office in 2004. At
one point, AIT paid a government official $70,000 cash stuffed in a box of candy.

SIGAR Is Investigating Cash Leaving Afghanistan
SIGAR investigators are working closely with other federal agencies, including
U.S. Immigration and Customs Enforcement (ICE), to determine the source of
bulk cash shipments leaving Afghanistan through the Kabul Airport. At the end
of March, ICE and other federal law enforcement agencies launched a three-day
operation to examine cash leaving the airport. During this period, seven passen-
gers declared $8.2 million in cash. No arrests were made because each of these
passengers had declared the money in their possession, as required by Afghan law.
   During April and May, SIGAR investigative teams made three trips to Dubai
to support ongoing investigations, which included looking at the flow of cash
between Afghanistan and Dubai. SIGAR has provided relevant information con-
cerning fraud and bulk cash shipments to ICE in both Kabul and Dubai.

SIGAR Hotline and Complaints Management System
 This quarter, the SIGAR Hotline and Complaints Management System (HCMS)
received 62 complaints—up 77% from last quarter. Since becoming operational
in January 2009, the HCMS has received 196 reports of alleged fraud, waste, and
abuse in Afghanistan reconstruction.
    Of the 62 complaints received this quarter, SIGAR referred 11 internally for
appropriate action and 13 to other agencies; 19 are being coordinated or are under
review. Also, SIGAR closed 19 complaints that were found to be without merit.
    During this reporting period, the Hotline received several complaints alleg-
ing that Afghan subcontractors had not been paid for work completed. SIGAR
is looking into these allegations because failure by a U.S. contractor to pay
Afghan subcontractors for work properly executed undermines the U.S.
reconstruction effort.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010         31
                                                             SIGAR OVERSIGHT




                                                             A SIGAR Hotline billboard raises awareness of waste, fraud, and abuse. This billboard is on
                                                             the road leading to the Kabul Airport. (SIGAR photo)
FIGURE 2.3


SOURCE OF SIGAR HOTLINE COMPLAINTS,                             SIGAR Investigations initiated a broad public outreach campaign this quarter
APRIL 1–JUNE 30, 2010                                        to increase awareness of the SIGAR Hotline, using these and other methods:
                                                             • posters and business cards in English, Dari, and Pashtu
                                                             • commercial billboards along heavily travelled routes in Kabul
                          Total: 62
                                                             • a television advertisement on the Armed Forces Network
                                                             • a radio advertisement in Dari and Pashtu
                                                             • fraud awareness briefings with civilian and military working groups
                                                             Figure 2.3 shows the sources of SIGAR Hotline complaints.
                 E-mail
                 37
                                      Phone
                                      21
                                                             PEER REVIEW
                                                             Last February, SIGAR asked the Council of the Inspectors General on Integrity
                                                             and Efficiency (CIGIE) to conduct an early peer review to help SIGAR enhance
                                                             its ability to conduct effective oversight. This quarter, CIGIE concluded its
               Walk-in                Written (not e-mail)   review of SIGAR’s Audit and Investigations directorates. The Audit Directorate
               1                      3                      passed its review and is implementing recommendations to correct deficiencies
                                                             that were noted. Although the CIGIE review team found that the Investigations
Source: SIGAR Investigations Directorate, 7/14/2010.
                                                             Directorate was not yet in full compliance with administrative record-keeping
                                                             requirements, the team concluded that SIGAR’s implementation of new policies
                                                             and procedures was likely to result in full compliance in the near future.




                                                                32                 SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                    SIGAR OVERSIGHT




SIGAR BUDGET
Since 2008, the Congress has appropriated $46.2 million to cover SIGAR’s operat-
ing expenses. In the last year, SIGAR’s staff has more than doubled, enabling the
organization to significantly expand its audit and investigations work. SIGAR’s
FY 2011 budget request of $35.6 million would provide the resources to fully staff
the 132 positions needed to conduct oversight of the expanding reconstruction
effort in Afghanistan. Table 2.2 summarizes SIGAR’s funding through FY 2010.

SIGAR STAFF
During this reporting period, SIGAR increased its staff by about 18%—from 79
at the end of April to 93 when this report went to press. SIGAR is aggressively
recruiting qualified personnel to reach its goal of 132 staff members in FY 2011.
   SIGAR has offices in Kabul and three other locations in Afghanistan. At the
end of July, SIGAR had 25 staff members in Afghanistan, including 19 assigned
to the U.S. Embassy Kabul and 2 on temporary duty there. SIGAR is working
with the U.S. Embassy to increase the number of people it can station full-time
in Kabul from 20 to 32. SIGAR is also working with U.S. Forces - Afghanistan to
increase our staffing at military-controlled facilities. Meanwhile, SIGAR continues
to send additional staff on temporary duty rotations to conduct audits and
investigations throughout Afghanistan.

TABLE 2.2


SIGAR FUNDING SUMMARY ($ MILLIONS)
Appropriation                      Public Law     Appropriated    Made Available   Expires     Amount
Supplemental Appropriations for    P.L. 110-252   6/30/2008       6/30/2008        9/30/2009     $2.0
Fiscal Year 2008, H.R. 2642
Supplemental Appropriations for    P.L. 110-252   6/30/2008       10/1/2008        9/30/2009     $5.0
Fiscal Year 2008, H.R. 2642
Consolidated Security, Disaster    P.L. 110-329   9/30/2008       9/30/2008        9/30/2010     $9.0
Assistance, and Continuing
Appropriations Act, 2009
Supplemental Appropriations for    P.L. 111-32    6/24/2009       6/24/2009        9/30/2010     $7.2
Fiscal Year 2009, H.R. 2346
Consolidated Appropriations Act,   P.L. 111-117   12/16/2009      10/1/2009        9/30/2010    $23.0
2010, H.R. 3288
Total                                                                                          $46.2




                  REPORT TO THE UNITED STATES CONGRESS        I   JULY 30, 2010                33
               Breaking ground
               Afghans work together in Logar province on one of the
               many community-based projects that are essential to rural
               development throughout Afghanistan. (U.S. Army photo,
               Sgt Russell Gilchrest)




34   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
3   RECONSTRUCTION
    UPDATE




       35
         RECONSTRUCTION UPDATE




   “Only through the provision of
services, establishing law and order,
  and fostering economic activity
  nationwide can the Government
    garner legitimacy in the eyes
        of its constituents.”
                          —Afghan Prioritization and
                               Implementation Plan




         Source: GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 4.




             36                         SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                         RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of Afghanistan during this reporting period.
Updates on accomplishments, challenges, and local initiatives provide context
for the oversight needed in reconstruction efforts. The section is divided into
five subsections: Status of Funds, Security, Governance, Economic and Social
Development, and Counter-Narcotics. The Security, Governance, and Economic
and Social Development subsections mirror the three pillars set forth in the
2008 Afghanistan National Development Strategy. The Counter-Narcotics subsec-
tion focuses on a cross-cutting issue identified in that strategy.

TOPICS
Section 3 discusses five broad topics: historical and current funding information,
security conditions, governance activities, economic and social development
programs, and counter-narcotics initiatives. Quarterly highlights dispersed
throughout this section accent a single topic related to reconstruction efforts
within a specific subsection.
   The Status of Funds subsection provides a comprehensive discussion of the
monies pledged and spent for Afghanistan reconstruction. It also includes specific
information on major U.S. funds, international contributions, and the budget of the
Government of the Islamic Republic of Afghanistan (GIRoA).
   The Security subsection details the activities of the Afghan National Security
Forces, including the Afghan National Army and the Afghan National Police, and
discusses U.S. and international efforts to bolster security. A quarterly highlight
focuses on three of the main insurgent groups operating in Afghanistan.
   The Governance subsection provides an overview of the GIRoA’s efforts and
progress toward achieving good governance. It presents an overview of progress in
reintegration; elections; public administration, justice, and prison reforms; anti-
corruption efforts; and aspects of human rights, including gender equality and
religious freedom. A quarterly highlight focuses on minority representation.
   The Economic and Social Development subsection focuses on reconstruction
activities in areas ranging from agriculture and energy to health services. It provides
a snapshot of the state of the economy and updates on the progress being made in
achieving fiscal sustainability, delivering electricity, and boosting agricultural output.
A quarterly highlight discusses the rapid growth of communication media.




              REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2010            37
RECONSTRUCTION UPDATE




   The Counter-Narcotics subsection describes efforts to reduce the prevalence
of narcotics in the Afghan economy. It provides updates on progress in interdiction,
drug demand reduction, alternative development programming, and develop-
ment of capacity to conduct counter-narcotics work. This subsection discusses
U.S. and Afghan joint efforts to combat the drug trade and the challenges imped-
ing the success of those efforts. A quarterly highlight provides information about
drug addiction in Afghanistan.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. Except where SIGAR audits or investigations are specifically referenced,
SIGAR has not verified this data; the information does not reflect SIGAR’s opinions.
All data and information is attributed to the reporting organization in endnotes to
the text or notes to the tables and figures; because multiple organizations provide
the data, numbers may conflict. For a complete discussion of SIGAR audits and
investigations this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
 • Department of State
 • Department of Defense
 • Office of Management and Budget
 • U.S. Trade and Development Agency
A preliminary draft of the report was provided to the responding agencies prior to
publication to allow these agencies to verify and clarify the content of this section.

Open-Source Research
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
 • U.S. agencies represented in the data call
 • International Security Assistance Force
 • Government Accountability Office
 • United Nations (and relevant branches)
 • International Monetary Fund
 • World Bank
 • GIRoA ministries and other Afghan government organizations
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call, for review before this
report is published.




  38                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                               GRAPHICS KEY




UNDERSTANDING THE GRAPHICS
All figures and tables report data for this quarter, except where identified in titles or notes.



BAR CHARTS                                                                  HEAT MAPS
This report discusses many funds and projects with                          Heat maps assign colors to provinces, based on
dollar values ranging from millions to billions. To                         pertinent data. Each color represents a data set,
provide an accurate graphical representation of these                       defined in a legend; darker colors represent larger
numbers, some bar graphs appear with a break (a                             numbers, lighter colors show smaller numbers.
wavy line) to indicate a jump between zero and a
larger number.

     $500                         $200

     $450
                                  $150
     $400
                                  $100
     $350

                                   $50
                                                                                                                     0
                                                                                                                     1–20
       $0                           $0                                                                               21–40
                                                                                                                     41–200
            Bar chart with a             Bar chart without                                                           201–429
             break in scale              a break in scale



DISTINGUISHING BILLIONS AND MILLIONS                                        FUNDING MARKERS
Because this report details funding in both billions                        Funding markers identify individual funds discussed
and millions of dollars, it uses a visual cue to distin-                    in the text. The agency responsible for managing the
guish the two measurement units. Dollars reported in                        fund is listed in the tan box below the fund name.
billions are represented in blue, and dollars reported
in millions are depicted in green.




                                                                                                        ESF



                                                                                                       USAID




       Pie Chart in Billions         Pie Chart in Millions




               REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2010             39
TITLE OF THE SECTION




 40    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




STATUS OF FUNDS
As of June 30, 2010, the United States had appropriated more than $51.50 billion for
relief and reconstruction in Afghanistan since fiscal year (FY) 2002. This cumulative
funding total is based on data reported by agencies and amounts appropriated in
FY 2010, as shown in Appendix B. This total has been allocated as follows:
• nearly $26.75 billion for security
• more than $14.74 billion for governance and development
• nearly $4.24 billion for counter-narcotics efforts
• more than $2.05 billion for humanitarian aid
• more than $3.72 billion for oversight and operations
Figure 3.1 provides an overview of the major U.S. funds that contribute to
these efforts.

FIGURE 3.1


U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                        FUNDING SOURCES (TOTAL: $51.50)
                                                                                                                               ASFF: Afghanistan Security Forces
                                                                                                                               Fund
       ASFF                 CERP                 DoD CN                 ESF                  INCLE                 Other

                                                                                                                               CERP: Commander’s Emergency
     $25.23                 $2.64                 $1.43                $9.74                 $2.68                $9.78
                                                                                                                               Response Program


                                                          AGENCIES                                                             DoD CN: DoD Drug Interdiction and
                                                                                                                               Counter-Drug Activities
                                                                                        Department of          Distributed
               Department of Defense (DoD)                             USAID
                                                                                         State (DoS)           to Multiple     ESF: Economic Support Fund
                        $29.30                                         $9.74
                                                                                            $2.68               Agenciesa

                                                                                                                               INCLE: International Narcotics Control
Notes: Numbers affected by rounding. USAID data is as of 3/31/2010, because updates were unavailable at the time this report   and Law Enforcement
went to press.
a. Multiple agencies include DoJ, DoS, USAID, Treasury, and USDA.
Sources: DoD, responses to SIGAR data call 7/14/2010, 7/13/2010, 10/14/2009, and 10/1/2009; FY 2010 Defense                    Other: Other Funding
Explanatory Statement; DoS, responses to SIGAR data call, 7/13/2010 and 7/12/2010; Treasury, response to SIGAR data call,
7/13/2010; OMB, response to SIGAR data call, 4/19/2010; USAID, responses to SIGAR data call, 1/15/2010, 1/8/2010, and
10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                    REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2010                       41
                                                                   STATUS OF FUNDS




                                                                   U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF     CERP DoD CN             ESF    INCLE                    As of June 30, 2010, cumulative appropriations for relief and reconstruction in
                                                                   Afghanistan totaled more than $51.50 billion. This total can be divided into five
                                                                   major categories of reconstruction funding: security, governance and development,
            DoD                USAID      DoS                      counter-narcotics, humanitarian, and oversight and operations. Updated agency
                                                                   data resulted in lower cumulative appropriation totals for FY 2009 and higher
                                                                   cumulative appropriation totals for FY 2010. For complete information regarding
The amount provided by the five major
                                                                   U.S. appropriations, see Appendix B.
U.S. funds together represents 81.0%
                                                                      As shown in Figure 3.2, cumulative appropriations as of FY 2010 increased
(nearly $41.72 billion) of total recon-
                                                                   by almost 30.1% over cumulative appropriations as of FY 2009, to more than
struction assistance in Afghanistan
since FY 2002. Of this amount, almost                              $51.50 billion. Since FY 2002, security efforts have received the largest cumulative
82.9% (more than $34.56 billion)                                   appropriations. Appropriations for security (nearly $26.75 billion) account for more
has been obligated, and more than                                  than 51.9% of total U.S. reconstruction assistance. In FY 2010, security had a large
73.1% (nearly $30.50 billion) has been                             gain in cumulative appropriations over FY 2009 (more than 32.5%), followed by gov-
disbursed. The following pages provide                             ernance and development (nearly 27.6%), and counter-narcotics (more than 20.8%).
additional details on these funds.                                    As shown in Figure 3.3 on the facing page, appropriations for FY 2010 amounted
                                                                   to nearly $11.91 billion, surpassing FY 2009 levels by over 15.0%. This is the largest
                                                                   amount appropriated in a single year for the reconstruction effort.
                                                                      FY 2010 appropriations for security increased by more than 17.0% over
                                                                   FY 2009 appropriations, to more than $6.56 billion. Of the total appropriations for
                                                                   FY 2010, security initiatives accounted for almost 55.1%, followed by governance
                                                                   and development with almost 26.8%. Appropriations in FY 2010 for security (more
                                                                   than $6.56 billion) are the second-largest appropriations made in a single year; the
                                                                   largest (nearly $7.41 billion) occurred for security in FY 2007.
FIGURE 3.2


CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF JUNE 30, 2010                                     ($ BILLIONS)

                                                                                                                                                                      $51.50
  $50
  $45
                                                                                                                                                   $39.59
   $40
   $35
   $30                                                                                                                         $29.23

   $25                                                                                                          $23.04
   $20
   $15                                                                                      $13.01
   $10                                                                  $9.53
                                                         $4.68
    $5                                $2.08
                $1.06
    $0
                2002                  2003               2004           2005                    2006             2007           2008                   2009           2010


                        Security              Governance/Development        Counter-Narcotics            Humanitarian       Oversight and Operations          Total
Note: Numbers affected by rounding.
Sources: DoD, responses to SIGAR data call 7/14/2010, 7/13/2010, 10/14/2009, and 10/1/2009; FY 2010 Defense Explanatory Statement; DoS, responses to SIGAR data call, 7/13/2010 and
7/12/2010; Treasury, response to SIGAR data call, 7/13/2010; OMB, response to SIGAR data call, 4/19/2010; USAID, responses to SIGAR data call, 1/15/2010, 1/8/2010, and 10/9/2009; DoJ,
response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                                                                       42                        SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                               STATUS OF FUNDS




   Figure 3.3 displays annual appropriations by funding category from FY 2002
to FY 2010. The bars show the dollar amounts appropriated, and the pie charts
show the proportions of the total appropriated by category. These figures reflect
amounts as reported by the respective agencies and amounts appropriated in the
following legislation:
• the FY 2010 Department of Defense Appropriations Act (FY 2010 DoD
    Appropriations Act)
• the FY 2010 Departments of Transportation and Housing and Urban
    Development, and Related Agencies Appropriations Act (FY 2010
    Consolidated Appropriations Act)
   In previous quarterly reports, the cumulative comparison graphics for each
fund depicted the amounts appropriated as reported by the pertinent agency.
Last quarter, these graphics also depicted total appropriated funding for FY 2010
as reported by the Office of Management and Budget (OMB). This quarter, total
amounts appropriated are reported as provided by OMB in those instances when
data is unavailable or reported only as part-year amounts. To reflect this change,
the representation of previously reported data has been adjusted in the cumula-
tive comparison graphics on the following pages.

FIGURE 3.3

APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                              ($ BILLIONS)


                                                                                                                                                                         $11.91
        $12
        $11
                                                                                                                   $10.03                               $10.36
        $10
         $9
         $8
         $7                                                                                                                         $6.19
         $6
                                                                              $4.85
         $5
         $4                                                                                       $3.48
         $3                                              $2.60
         $2
                    $1.06             $1.01
         $1
         $0
                     2002              2003               2004                2005                2006               2007            2008               2009              2010


 Percentage




                         Security         Governance/Development              Counter-Narcotics           Humanitarian       Oversight and Operations            Total

Note: Numbers affected by rounding.
Sources: DoD, responses to SIGAR data call, 7/14/2010, 7/13/2010, 10/14/2009, and 10/1/2009; FY 2010 Defense Explanatory Statement; DoS, responses to SIGAR data call, 7/13/2010 and
7/12/2010; Treasury, response to SIGAR data call, 7/13/2010; OMB, response to SIGAR data call, 4/19/2010; USAID, responses to SIGAR data call, 1/15/2010, 1/8/2010, and 10/9/2009; DoJ,
response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                    REPORT TO THE UNITED STATES CONGRESS                  I    JULY 30, 2010                        43
                                                       STATUS OF FUNDS




                                                       AFGHANISTAN SECURITY FORCES FUND
   ASFF                                                The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the Afghan National Security Forces (ANSF) with equipment, supplies,
                                                       services, and training, as well as facility and infrastructure repair, renovation,
            DoD                                        and construction.4 The primary organization responsible for building the ANSF
                                                       is the NATO Training Mission - Afghanistan/Combined Security Transition
                                                       Command - Afghanistan (NTM-A/CSTC-A).5
ASFF FUNDS TERMINOLOGY
                                                           As of June 30, 2010, nearly $25.23 billion had been appropriated to the U.S.
DoD reported ASFF funds as available,                  Department of Defense (DoD) for building the ANSF—almost 49.0% of total
obligated, or disbursed.                               U.S. reconstruction assistance in Afghanistan. DoD reported that of this amount,
Available: Total monies available for                  more than $21.83 billion had been obligated, of which nearly $20.79 billion had
commitments                                            been disbursed.6 Figure 3.4 displays the amounts made available for the ASFF
Obligations: Commitments to pay monies                 by fiscal year.
Disbursements: Monies that have been                       DoD reported that cumulative obligations as of June 30, 2010, increased by more
expended                                               than $1.56 billion over cumulative obligations as of March 31, 2010. Cumulative
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       disbursements as of June 30, 2010, increased by nearly $2.37 billion over cumulative
                                                       disbursements as of March 31, 2010.7 Figure 3.5 provides a cumulative comparison
                                                       of amounts made available, obligated, and disbursed for the ASFF.



                                                       FIGURE 3.4                                             FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                    ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                           ($ BILLIONS)


                                                                                                                                     Available                 Available
                                                       $8.0                                                   $25.0                  $25.23                    $25.23



                                                                                                                                                               Obligated
                                                       $6.0                                                                                                    $21.83
                                                                                                                                     Obligated                 Disbursed
                                                                                                              $20.0                  $20.27                    $20.79
                                                                                                                                     Disbursed
                                                                                                                                     $18.42
                                                       $4.0



                                                                                                              $15.0
                                                       $2.0




                                                         $0                                                       $0
                                                              2005      06       07      08      09      10              As of Mar 31, 2010       As of Jun 30, 2010

                                                       Note: Numbers affected by rounding.                    Notes: Numbers affected by rounding. Amounts reported as
                                                       Source: DoD, response to SIGAR data call, 7/14/2010.   provided by DoD.
                                                                                                              Sources: DoD, responses to SIGAR data call, 7/14/2010
                                                                                                              and 4/13/2010.




                                                           44                         SPECIAL INSPECTOR GENERAL   I    AFGHANISTAN RECONSTRUCTION
                                                           STATUS OF FUNDS




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:8                                                Budget Activity Groups: categories
 • Defense Forces (Afghan National Army, or ANA)                                                                     within each appropriation or fund
 • Interior Forces (Afghan National Police, or ANP)                                                                  account that identify the purposes,
 • Related Activities (primarily Detainee Operations)                                                                projects, or types of activities financed
Funds for each budget activity group are further allocated to four sub-activity                                      by the appropriation or fund
groups: Infrastructure, Equipment and Transportation, Training and Operations,
                                                                                                                     Sub-Activity Groups: accounting
and Sustainment.9
                                                                                                                     groups that break down the command’s
   As of June 30, 2010, DoD had disbursed nearly $20.79 billion for ANSF
                                                                                                                     disbursements into functional areas
initiatives. Of this amount, nearly $13.62 billion was disbursed for the ANA and
nearly $7.08 billion for the ANP; the remaining $0.09 billion was directed to
related activities.10                                                                                              Sources: DoD, “Manual 7110.1-M Department
                                                                                                                   of Defense Budget Guidance Manual,” accessed
   As shown in Figure 3.6, of the funds disbursed for the ANA, the largest                                         9/28/2009; Depar tment of the Navy, “Medical Facility
                                                                                                                   Manager Handbook,” accessed 10/2/2009, p. 5.
portion—nearly $6.25 billion—supported Equipment and Transportation.
Of the funds disbursed for the ANP, the largest portion—nearly $1.94 billion—
also supported Equipment and Transportation, as shown in Figure 3.7.11




FIGURE 3.6                                             FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                         ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                 By Sub-Activity Group,
FY 2005–June 30, 2010 ($ BILLIONS)                     FY 2005–June 30, 2010 ($ BILLIONS)


                      Total: $13.62                                          Total: $7.08
                                                                                               Equipment and
                                                                                               Transportation
                                                                                               $1.94
                     Equipment and
                     Transportation
                     $6.25
                                                                    Sustainment        Infrastructure
              Sustainment       Infrastructure                      $1.92              $1.59
              $3.69             $2.48



             Training and                                        Training and
                                                                 Operations
             Operations                                          $1.63
             $1.21


Note: Numbers affected by rounding.                    Note: Numbers affected by rounding.
Source: DoD, response to SIGAR data call, 7/14/2010.   Source: DoD, response to SIGAR data call, 7/14/2010.




                   REPORT TO THE UNITED STATES CONGRESS                I   JULY 30, 2010                      45
                                                        STATUS OF FUNDS




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
           CERP                                         The Commander’s Emergency Response Program (CERP) enables U.S.
                                                        commanders in Afghanistan to respond to urgent humanitarian relief and recon-
                                                        struction requirements in their areas of responsibility by supporting programs
           DoD                                          that will immediately assist the local population. Funding under this program is
                                                        intended for small projects that are estimated to cost less than $500,000 each.12
                                                        Projects with cost estimates exceeding $1.00 million are permitted, but they
CERP FUNDS TERMINOLOGY                                  require approval from the Commander of U.S. Central Command.13
OMB reported CERP funds as appropriated.
Appropriations: Total monies available for              Status of Funds
commitments                                             The FY 2010 DoD Appropriations Act provides $1.20 billion for CERP to
                                                        promote and support development activities. Of this amount, $1.00 billion is for
DoD reported CERP funds as appropriated,                initiatives in Afghanistan.14 This brings the cumulative total funding for CERP
obligated, or disbursed.                                to nearly $2.64 billion—more than 5.1% of total U.S. reconstruction assistance
Appropriations: Total monies available for
                                                        in Afghanistan.15 As of June 30, 2010, DoD reported that of this amount, nearly
commitments
                                                        $1.64 billion had been obligated, of which more than $1.24 billion has been
Obligations: Commitments to pay monies
Disbursements: Monies that have been                    disbursed.16 Figure 3.8 shows CERP appropriations by fiscal year.
expended
                                                        FIGURE 3.8                                                         FIGURE 3.9
Sources: OMB, response to SIGAR data call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.
                                                        CERP APPROPRIATIONS BY FISCAL YEAR                                 CERP FUNDS, CUMULATIVE COMPARISON
                                                        ($ MILLIONS)                                                       ($ BILLIONS)



                                                        $1,000                                                             $3.0

                                                                                                                                               Appropriated                Appropriated
                                                                                                                           $2.5                $2.64                       $2.64
                                                          $800


                                                                                                                           $2.0
                                                          $600
                                                                                                                                               Obligated                   Obligated
                                                                                                                           $1.5                $1.60                       $1.64

                                                                                                                                                                           Disbursed
                                                          $400                                                                                 Disbursed                   $1.24
                                                                                                                           $1.0                $1.14


                                                          $200
                                                                                                                           $0.5


                                                            $0                                                               $0
                                                                 2004 05        06     07     08     09     10                     As of Mar 31, 2010         As of Jun 30, 2010

                                                        Notes: Data may include inter-agency transfers. Numbers affected   Notes: Numbers affected by rounding. Amounts reported as
                                                        by rounding.                                                       provided by DoD and OMB.
                                                        Sources: OMB, response to SIGAR data call, 4/19/2010; DoD,         Sources: OMB, response to SIGAR data call, 4/19/2010; DoD,
                                                        response to SIGAR data call, 1/13/2010.                            responses to SIGAR data call, 7/15/2010, 4/14/2010, and
                                                                                                                           1/13/2010.




                                                            46                         SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                          STATUS OF FUNDS




   DoD reported that cumulative obligations as of June 30, 2010, increased by more
than $33.88 million over cumulative obligations as of March 31, 2010. Cumulative
disbursements as of June 30, 2010, increased by more than $98.91 million over
cumulative disbursements as of March 31, 2010.17 Figure 3.9 provides a cumulative
comparison of amounts appropriated, obligated, and disbursed for CERP projects.

Categories of CERP Funding
According to DoD, there are two categories of recipients of CERP funding:
local Afghan contractors and local Afghan civilians. Projects and payments
include battle damage and condolence payments, as well as small-scale projects
(less than $5,000).18
   DoD reported that in cases when local Afghan contractors cannot fulfill a
requirement, CERP funds may be suballocated to other organizations that can
fulfill the requirement. These cases include transfers to U.S. government agen-
cies, such as the U.S. Army Corps of Engineers, which receive CERP funds to
manage some large-scale infrastructure projects that require a high degree of
technical expertise and project management experience. Domestic and foreign
(non-Afghan) contractors or nongovernmental organizations (NGOs) occasion-
ally receive CERP funding to carry out humanitarian and reconstruction projects
in Afghanistan because Afghan contractors either lack the capacity or are not
available at a particular place or time.19
   CERP funds are not used to pay ministries of the Government of the Islamic
Republic of Afghanistan (GIRoA) directly or to duplicate services provided by
provincial governments. CERP funds are paid to Afghan contractors to support
certain ministry projects (such as paying local Afghans to repair a school for
the Ministry of Education or repairing a courthouse to support the Ministry of
Justice). Using CERP funds to pay salaries, bonuses, or pensions to Afghan
military or civilian government personnel is strictly prohibited.20
   The National Defense Authorization Act, H.R. 2647-329 authorizes the
Secretary of Defense to transfer up to $50.00 million of FY 2010 CERP funding to
the Department of State to support the Afghanistan National Solidarity Program.
DoD reported that it expects to transfer the entire amount ($50.00 million) during
the current fiscal year.21




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010       47
                                                       STATUS OF FUNDS




                                                       DoD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
                   DoD CN                              DoD’s Drug Interdiction and Counter-Drug Activities (DoD CN) fund supports
                                                       DoD’s efforts to stabilize Afghanistan by combating the drug trade and related
                                                       activities. The DoD CN fund provides support to the counter-narcotics effort in
            DoD                                        the following ways:22
                                                       • supporting military operations against drug traffickers
                                                       • expanding Afghan interdiction operations
DoD CN FUNDS TERMINOLOGY
                                                       • building the capacity of Afghan law enforcement—including the Afghan
DoD reported DoD CN funds as appropriated,                Border Police—with specialized training, equipment, and facilities
obligated, or disbursed.                                  As of June 30, 2010, nearly $1.43 billion had been appropriated to DoD for
Appropriations: Total monies available for             counter-narcotics efforts in Afghanistan—almost 2.8% of total U.S. reconstruc-
commitments
                                                       tion assistance in Afghanistan.23 Figure 3.10 displays DoD CN appropriations by
Obligations: Commitments to pay monies
                                                       fiscal year. DoD reported that of this amount, nearly $1.40 billion had been obli-
Disbursements: Monies that have been
expended                                               gated and disbursed.24 Figure 3.11 shows the cumulative amounts appropriated,
                                                       obligated, and disbursed for DoD CN–funded initiatives.
Source: DoD, response to SIGAR data call, 4/13/2010.



                                                       FIGURE 3.10                                                 FIGURE 3.11

                                                       DOD CN APPROPRIATIONS BY                                    DOD CN FUNDS, CUMULATIVE ($ BILLIONS)
                                                       FISCAL YEAR ($ MILLIONS)

                                                       $350                                                        $1.45

                                                                                                                                         Appropriated                 Appropriated
                                                       $300                                                                              $1.43                        $1.43
                                                                                                                                         Obligated                    Obligated
                                                                                                                   $1.40                 $1.40                        $1.40
                                                       $250
                                                                                                                                         Disbursed                   Disbursed
                                                                                                                                         $1.40                       $1.40
                                                       $200
                                                                                                                   $1.35

                                                       $150


                                                       $100                                                        $1.30


                                                        $50


                                                          $0                                                          $0
                                                               2004 05         06      07     08      09      10               As of Mar 31, 2010       As of Jun 30, 2010

                                                       Notes: Data may include inter-agency transfers. Numbers     Notes: Numbers affected by rounding. Amounts reported as
                                                       affected by rounding.                                       provided by DoD. No quarterly comparison made because data is
                                                       Source: DoD, response to SIGAR data call, 7/13/2010.        unchanged. Obligation data was not provided; thus, obligations
                                                                                                                   were assumed to equal disbursements.
                                                                                                                   Source: DoD, response to SIGAR data call, 7/13/2010.




                                                           48                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                             STATUS OF FUNDS




ECONOMIC SUPPORT FUND
Economic Support Fund (ESF) programs advance U.S. interests by helping                                                                                          ESF
countries meet short-term and long-term political, economic, and security needs.
ESF programs support counter-terrorism; bolster national economies; and assist
in the development of effective, accessible, independent legal systems for a more                                                                             USAID
transparent and accountable government.25
    Because data for this quarter was not available at press time, the data presented
                                                                                                                                ESF FUNDS TERMINOLOGY
here is as of March 31, 2010. The FY 2010 Consolidated Appropriations Act provides
almost $2.04 billion for ESF programs in Afghanistan. This brings the cumulative                                                OMB reported ESF funds as appropriated.
total funding for the ESF to nearly $9.74 billion—more than 18.9% of total U.S. assis-                                          Appropriations: Total monies available for
tance to the reconstruction effort.26 As of March 31, 2010, USAID reported that of this                                         commitments
amount, more than $7.57 billion had been obligated, of which more than $5.39 billion
has been disbursed.27 Figure 3.12 shows ESF appropriations by fiscal year.                                                      USAID reported ESF funds as appropriated,
    USAID reported that cumulative obligations as of March 31, 2010, increased                                                  obligated, or disbursed.
by more than $36.81 million over cumulative obligations as of December 31,                                                      Appropriations: Total monies available
                                                                                                                                for commitments
2009. In addition, cumulative disbursements as of March 31, 2010, increased by
                                                                                                                                Obligations: Commitments to pay monies
nearly $419.65 million over cumulative disbursements as of December 31, 2009.28
                                                                                                                                Disbursements: Monies that have been
Figure 3.13 provides a cumulative comparison of the amounts appropriated,
                                                                                                                                expended
obligated, and disbursed for ESF programs.
                                                                                                                                Sources: OMB, response to SIGAR data call, 4/19/2010;
FIGURE 3.12                                               FIGURE 3.13                                                           USAID, response to SIGAR data call, 4/15/2010.


ESF APPROPRIATIONS BY FISCAL YEAR                         ESF FUNDS, CUMULATIVE COMPARISON
($ BILLIONS)                                              ($ BILLIONS)




 $2.0                                                     $10.0                  Appropriated                 Appropriated      Funds appropriated for ESF programs in
                                                                                 $9.74                        $9.74             Afghanistan support various categories of
                                                           $8.0                                                                 recipients. Appropriations to each category
                                                                                 Obligated                    Obligated         are as follows:
 $1.5
                                                           $7.0
                                                                                 $7.53                        $7.57
                                                                                                                                • 0.21% to local Afghan contractors
                                                                                                                                • 0.84% to GIRoA ministries
                                                          $6.0                                                                  • 1.95% to non-U.S. and non-Afghan
                                                                                                                                  contractors
 $1.0                                                                                                         Disbursed
                                                          $5.0                   Disbursed                    $5.39             • 26.20% to international organizations
                                                                                 $4.97                                          • 69.56% to domestic U.S. contractors

                                                           $4.0
                                                                                                                                • 1.24% to the U.S. government
 $0.5                                                                                                                           Source: USAID, response to SIGAR data call, 4/6/2010.

                                                          $3.0



   $0                                                        $0
        2002 03 04 05 06 07 08 09 10                                 As of Dec 31, 2009           As of Mar 31, 2010

Notes: Data may include inter-agency transfers. Numbers   Notes: Data may include inter-agency transfers. Numbers affected by
affected by rounding. Data is as of 3/31/2010 because     rounding. Amounts reported as provided by USAID and OMB. Data is as
updates were unavailable at press time.                   of 3/31/2010 because updates were unavailable at press time.
Sources: OMB, response to SIGAR data call, 4/19/2010;     Sources: OMB, response to SIGAR data call, 4/19/2010; USAID, re-
USAID, responses to SIGAR data call, 4/15/2010 and        sponses to SIGAR data call, 4/15/2010, 1/15/2010, and 10/9/2009.
10/9/2009.




                    REPORT TO THE UNITED STATES CONGRESS                 I   JULY 30, 2010                        49
                                                           STATUS OF FUNDS




                                                           INTERNATIONAL NARCOTICS CONTROL AND LAW
                                          INCLE            ENFORCEMENT
                                                           The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)
                                                           manages an account for advancing rule of law and combating narcotics produc-
                                           DoS
                                                           tion and trafficking—the International Narcotics Control and Law Enforcement
                                                           (INCLE) account. INCLE supports several INL program groups, including police,
INL FUNDS TERMINOLOGY
                                                           counter-narcotics, and rule of law and justice.29
                                                              As of June 30, 2010, more than $2.68 billion had been allotted to INL for
OMB reported INL funds as appropriated.                    INCLE-funded efforts—more than 5.2% of total U.S. reconstruction assistance
Appropriations: Total monies available for                 in Afghanistan. INL reported that of this amount, nearly $2.13 billion had been
commitments                                                obligated, of which nearly $1.68 billion had been liquidated.30 Figure 3.14 displays
                                                           INCLE allotments by fiscal year.
INL reported INCLE and other INL funds
                                                              INL reported that cumulative obligations as of June 30, 2010, increased by
as allotted, obligated, or liquidated.
                                                           nearly $32.65 million over cumulative obligations as of March 31, 2010. Cumulative
Allotments: Total monies available
for commitments
                                                           liquidations as of June 30, 2010, increased by more than $89.59 million over
Obligations: Commitments to pay monies
                                                           cumulative liquidations as of March 31, 2010.31 Figure 3.15 provides a cumulative
Liquidations: Monies that have been expended
                                                           comparison of amounts allotted, obligated, and liquidated.

Sources: OMB, response to SIGAR data call, 4/19/2010;      FIGURE 3.14                                               FIGURE 3.15
DoS, response to SIGAR data call, 4/9/2010.
                                                           INCLE ALLOTMENTS BY FISCAL YEAR                           INCLE FUNDS, CUMULATIVE COMPARISON
                                                           ($ MILLIONS)                                              ($ BILLIONS)




                                                           $700                                                      $2.75
                                                                                                                                               Allotted                      Allotted
                                                                                                                                               $2.69                         $2.68
Funds allotted to INCLE for initiatives in                 $600                                                      $2.50
Afghanistan support various categories of
recipients. Allotments to each category are                $500
                                                                                                                     $2.25
as follows:                                                                                                                                                                 Obligated
• 68% to local Afghan contractors                          $400
                                                                                                                                              Obligated
                                                                                                                                              $2.09
                                                                                                                                                                            $2.13
• 20% to GIRoA ministries                                                                                            $2.00

• 7% to international organizations                        $300
• 3% to U.S. government and quasi-
  government organizations
                                                                                                                     $1.75
                                                                                                                                                                             Liquidated
                                                           $200                                                                                Liquidated                    $1.68
• 2% to U.S.-based nongovernmental
  organizations
                                                                                                                     $1.50                     $1.59
                                                           $100
Note: Derived from informal data as provided by DoS.
Sources: DoS, response to SIGAR vetting, 1/19/2010; DoS,     $0                                                         $0
response to SIGAR data call, 1/9/2010.                            2002 03 04 05 06 07 08 09 10                                      As of Mar 31, 2010         As of Jun 30, 2010

                                                           Notes: Data may include inter-agency transfers. Numbers   Notes: Data may include inter-agency transfers. Numbers affected
                                                           affected by rounding.                                     by rounding. Updated data from DoS resulted in a lower figure for
                                                           Source: DoS, response to SIGAR data call, 7/13/2010.      allotments than the figure reported last quarter by OMB for
                                                                                                                     appropriations.
                                                                                                                     Sources: DoS, response to SIGAR data call, 7/13/2010; OMB,
                                                                                                                     response to SIGAR data call, 4/19/2010; DoS, response to SIGAR
                                                                                                                     data call, 4/9/2010.




                                                               50                        SPECIAL INSPECTOR GENERAL            I     AFGHANISTAN RECONSTRUCTION
                                          STATUS OF FUNDS




GIRoA BUDGET AND BUDGET EXECUTION
Updated data for the GIRoA budget was unavailable at the time this report
went to press.

INTERNATIONAL RECONSTRUCTION
FUNDING FOR AFGHANISTAN
The international community provides a significant amount of funding, in
addition to assistance provided by the United States, to support reconstruction
efforts in Afghanistan. Concerns regarding the institutional capacity within the
GIRoA caused many international donors to use trust funds as a method to pro-
vide assistance to Afghanistan, as noted in SIGAR’s April 2010 quarterly report.
Donors also use trust funds to accomplish other efforts:32
• Channel resources in line with Afghan priorities to strengthen the ownership
   and accountability of the GIRoA.
• Channel resources through the Afghan budget to strengthen the GIRoA’s
   capacity to use the budget to prioritize, direct, and allocate resources.
• Offer a collective platform for donor funding to reduce the transaction costs
   for the government.
• Offer a collective platform for donor-government dialogue to create leverage
   for the government to implement critical reforms.
• Offer an efficient channel for funding national priority programs—which are
   more effective mechanisms for development than individual projects.
   Funds from international donors are pooled and then distributed for recon-
struction activities. The two main sources of such funding are the Afghanistan
Reconstruction Trust Fund (ARTF) and the Law and Order Trust Fund for
Afghanistan (LOTFA).33

Contributions to the Afghanistan Reconstruction Trust Fund
From 2002 to May 21, 2010, according to the World Bank, 32 international donors
had contributed $3.7 billion to the ARTF. The United States has provided nearly
$722 million of this amount. These contributions maintain the trust fund’s status
as the largest contributor to the GIRoA budget for both operating costs and
development programs.34 Contributions are divided into two funding channels—
the Recurrent Cost (RC) Window and the Investment Window. As of May 21,
2010, contributions to the RC Window amounted to $1.95 billion. The RC Window
supports the operating costs of the GIRoA, because domestic revenues continue
to be insufficient to support its recurring costs.35 The Investment Window sup-
ports the costs of development programs.36 As of May 2010, the ARTF funded 20
active projects. These projects have a combined commitment value of more than
$1.03 billion, of which $779.92 million has been disbursed.37
   The GIRoA’s operating costs continue to increase year over year, resulting in a
declining share of support to the overall budget from the RC Window, as reported
by the World Bank. Approximately 50% of the ARTF’s RC Window resources are




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010       51
                                                       STATUS OF FUNDS




FIGURE 3.16                                            FIGURE 3.17

ARTF CONTRIBUTIONS FOR 2010 BY                         ARTF CONTRIBUTIONS FOR 2010 BY DONOR, AS OF JUNE 21, 2010 ($ MILLIONS)
STATUS, AS OF JUNE 21, 2010
Proportion of Amounts Paid In to Amounts                                                           Total Commitments: $740              Total Paid In: $87
Committed ($ MILLIONS)

                                                          United States         15                                                                                 540
               Total Commitments: $740
                                                            Netherlands 0             38

                         Paid In                                 Norway 0             36
                         $87
                                                                 Canada 27 27

                                                                Australia 19 26

                                                        United Kingdom 24 24
                        Pledged
                        $653                                     Sweden 0 18

                                                                   Spain 0 14

Note: Numbers affected by rounding.                               Others       3 17
Source: World Bank, “ARTF: Administrator’s Report on
Financial Status as of 6/21/2010,” p. 1.                                   0                 100             200                  300               400      500


                                                                                                                 Paid In          Commitments
                                                       Note: Numbers affected by rounding.
                                                       Source: World Bank, “ARTF: Administrator's Report on Financial Status as of 6/21/2010,” p. 1.




                                                       provided to the Ministry of Education. The ministry receives such a significant
                                                       amount of resources from the ARTF because roughly 60% of the nonuniformed
                                                       civil service consists of teachers.38 In the past two years, the Investment Window
                                                       has increased significantly in volume and scope, according to the World Bank.
                                                       In fact, commitments for investments over this time period have exceeded those
                                                       for recurrent costs. The World Bank reported that the disbursement rates for the
                                                       Investment Window have also been high, with 75% of commitments disbursed as
                                                       of May 21, 2010.39 Figure 3.16 and Figure 3.17 show contributions by status and
                                                       by donor to the ARTF as of June 21, 2010.
                                                          During the reporting period, the GIRoA and international donors reached an
                                                       agreement on the ARTF’s Incentive Program for the Afghan fiscal year 1390 (the
                                                       solar year that runs from March 20, 2010, to March 21, 2011). The agreement pro-
                                                       vides for funding to be made available to the ARTF RC Window and for additional
                                                       discretionary funding—on an annual basis—in return for concomitant economic
                                                       policy reforms. The agreement has three themes:40
                                                       • sustaining domestic revenues
                                                       • improving public sector governance
                                                       • enabling private sector development




                                                          52                           SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                          STATUS OF FUNDS




   The GIRoA has included the ARTF Incentive Program in its reform pro-
gram for the July 20 Kabul Conference. On June 12, 2010, a Memorandum of
Understanding was signed between the World Bank and the Ministry of Finance.
The Incentive Program has the following objectives:41
 • predictable ARTF RC Window funding over the medium term
 • support for the GIRoA’s core policy reforms, including domestic revenue
    generation
 • strengthening the ARTF as a platform for policy dialogue between donors
    and the GIRoA
 • clearer strategic objectives for the ARTF RC Window
The Incentive Program also allows for increased allocations towards the
financing of the GIRoA’s core development programs through the ARTF
Investment Window.42

Contributions to the Law and Order Trust Fund for Afghanistan
In its progress report for the first calendar quarter of 2010, the United Nations
Development Programme (UNDP) reported that expenditures from the LOTFA
over the reporting period amounted to nearly $138.10 million.43 A large portion
of these funds paid the salaries of approximately 96,000 ANP personnel—a
principal priority of the fund.44 The LOTFA has been implemented in phases; it is
currently in its fifth phase, which has the following priorities:45
• payment of ANP salaries
• institutional development
• procurement, maintenance, and operations of non-lethal police equipment
    and supplies
• rehabilitation, maintenance, and operations of police facilities
• gender orientation (selection, recruitment, and training of police)
• payment of uniformed personnel employed by the Central Prisons
    Department through specially earmarked contributions
   According to the UNDP report, the LOTFA reimburses the MoF for the pay-
ment of ANP salaries and food allowances, in addition to other project priorities.
This helps to ensure that the ANP receives salary payments in a transparent and
timely manner.46 In an effort to promote the fiscal sustainability of LOTFA expen-
ditures and to lessen the financial burden on donors, the MoF agreed to forego
reimbursement of food allowance payments and to assume full responsibility for
these payments to the ANP.47 The fifth phase of LOTFA is set to end on August 31,
2010. The UNDP noted that the GIRoA and international donors will discuss
whether to extend the fund and for what duration of time.48




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010       53
TITLE OF THE SECTION




 54    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




SECURITY
Developing capable, well-trained, and self-sufficient Afghan National Security
Forces (ANSF) continues to be a key component of the U.S. strategy to help the
Government of the Islamic Republic of Afghanistan (GIRoA) become sustain-
able.49 This strategy is in line with the GIRoA’s stated plans and goals. At the
Kabul Conference, Afghan President Hamid Karzai announced that, by 2014,
Afghanistan will assume all military and security responsibilities. The details of
the Afghan Prioritization and Implementation Plan for the transition of security
responsibilities to the ANSF calls for the four stages of the plan to include the
following milestones and goals:50
• Stage One: Transfer responsibilities for Provincial Reconstruction Teams
    (PRTs) from military to civilian leadership; the ANSF maintains the lead for
    security operations with the International Security Assistance Forces (ISAF),
    moving from a supported to supporting role.
• Stage Two: Provinces provide adequate justice and public services; PRTs
    become Provincial and District Support Teams; ISAF transitions from partner
    to mentor and liaison to the ANSF.
• Stage Three: ISAF Operational Mentor and Liaison Teams (OMLTs) continue
    to support the ANSF to increase its capabilities; OMLTs progressively reduce
    in size commensurate with increased ANSF capabilities.
• Stage Four: Complete Afghan ownership of security; the ANSF is able to
    conduct operations independently; ISAF provides minimal advisory and
    mentoring assistance; the strategic partnership between Afghanistan and
    international partners is further deepened and expanded.
   As of June 30, 2010, the United States had appropriated nearly $26.75 bil-
lion—including more than $6.56 billion for FY 2010—to develop the ANSF. Most
of these funds were appropriated through the Afghanistan Security Forces Fund
(ASFF), administered by the U.S. Department of Defense (DoD), which provides
equipment, services, training, and infrastructure-related assistance to the ANSF.51
As shown in Appendix B of this report, this amount is more than all other U.S.
relief and reconstruction funding categories combined.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        55
                                                                    SECURITY



TABLE 3.1


STRATEGIC PRIORITIES FOR SECURITY
                                                                                                                                                                        ANDS Completion
Priority                          ANDS Target                                           Current Target                          Status                                  Date
Afghan National Army              80,000 troops (plus 6,600 in training)                134,000 troops                          129,885 troops (as of 6/20/2010)        End of 2010
                                                                                        (by 10/2010)
                                                                                        171,600 troops
                                                                                        (by 10/2011)
Afghan National Police            82,180 police officers                                109,000 police officers                 105,873 police officers (as of          End of 2010
                                                                                        (by October 2010)                       6/20/2010)
                                                                                        134,000 police officers
                                                                                        (by 10/2011)
Disarmament of Illegal            All illegal armed groups disbanded in                                                         98 of 140 DIAG-targeted districts       March 20, 2011
Armed Groups                      all provinces                                                                                 declared compliant
Removing Unexploded               Land area contaminated by mines and                                                                                                   End of 2010
                                                                                                                                UN: Land area contaminated by
Ordnance                          unexploded ordnance reduced by 70%
                                                                                                                                mines and unexploded ordnance
                                  90% of all known areas contaminated by                                                        reduced by 47%                          2012
                                  mines or explosive remnants of war cleared
                                                                                                                                DoS: 665 million square meters
                                  All emplaced anti-personnel mines cleared                                                                                             2013
                                                                                                                                of contaminated land remain

Notes: Numbers affected by rounding. Priorities were originally based on Afghanistan National Development Strategy (ANDS) targets.

Sources: GIRoA, “Afghanistan National Development Strategy, Executive Summary,” 6/2008, p. 6; NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010; UNDP, “Afghanistan’s New Beginning Programme:
DIAG Fast Facts,” 7/3/2010; UN, “Mine Action Programme of Afghanistan Newsletter: May 2010,” 5/2010, p. 4; DoS, response to SIGAR data call, 6/30/2010.




                                                                    SECURITY GOALS
                                                                    The ANSF force strength, according to DoD, has surpassed targeted goals, grow-
                                                                    ing from 170,537 in May 2009 to 235,758 in June 2010. This latest number includes
                                                                    129,885 in the Afghan National Army (ANA) and 105,873 in the Afghan National
                                                                    Police (ANP).52 Table 3.1 shows the status of progress toward security goals.

                                                                    SECURITY EVENTS
                                                                    On June 6, the chief of the Afghan National Directorate for Security and the
                                                                    Minister of Interior resigned, at the behest of Afghan President Hamid Karzai,
                                                                    following the insurgent attacks on the GIRoA’s Peace Jirga.53 On June 23, U.S.
                                                                    President Barack Obama accepted the resignation of General Stanley McChrystal
                                                                    as the commander of ISAF and the U.S. Forces - Afghanistan (USFOR-A)
                                                                    and nominated General David Petraeus as his replacement.54 On July 4, 2010,
                                                                    Petraeus, the former commander of U.S. Central Command (CENTCOM),
                                                                    assumed his new duties in Afghanistan.55

                                                                    Operation Moshtarak
                                                                    In February 2010, coalition forces launched Operation Moshtarak, which mobi-
                                                                    lized 15,000 ANA and ISAF troops, according to DoD, to force the Taliban out of
                                                                    central Helmand and central Kandahar.56 During the first phase, the operation
                                                                    worked to create freedom of movement across southern Afghanistan, mainly on




                                                                        56                          SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




the major highways. The second phase—which continued this quarter—is a shape,
clear, hold, and build operation in central Helmand. The ANSF will lead the third
phase, to expand into central Kandahar.57 DoD officials have repeatedly stressed
the importance of Operation Moshtarak in turning the tide against the Taliban and
establishing Afghan-led security.58 DoD reported that it expects total security forces
in Kandahar to number more than 20,000 by the end of August 2010—up from 7,300
in June 2009.59
   This quarter, U.K. soldiers and Afghan security forces made inroads south into
insurgent-held territory in Helmand, according to CENTCOM, to force Taliban
fighters from the Nad ’Ali district. The forces established three patrol bases to
use as footholds to provide protection to local inhabitants from insurgents while
U.K. bomb disposal experts cleared IEDs from nearby roads. In June, CENTCOM
reported that these forces were focused on holding their ground so that recon-
struction and development projects can begin.60

SIGAR Audits the Capability Milestone Rating System
Developing a self-sufficient ANSF is one of the main components of the U.S.
strategy to improve security in Afghanistan.61 Over the past five years, ANSF
readiness has been measured by the Capability Milestone (CM) rating system.
This quarter, SIGAR released an audit report on the effectiveness of the CM
rating system.62 The audit was conducted from October 2009 to May 2010.63
   In April, the ISAF Joint Command (IJC) stopped using the CM rating system,
transitioning to a new system, the Commander’s Unit Assessment Tool (CUAT).64
The CUAT system, which is managed by IJC, is now in use and operating on
a six-week cycle. The new system includes ratings on leadership, operations,
intelligence, logistics, equipping, personnel, maintenance, communications,
and training and education.65 DoD plans to begin reporting the results of the              Direct fire attack: Any engagement or at-
assessments in the upcoming months and to include them in the October                      tack initiated with only direct fire weapons.
submission of the Section 1230 report to the Congress.66
   For more information on SIGAR’s audit of the CM rating system, see Section 2            Indirect fire attack: Engagements and
of this report.                                                                            attacks involving indirect fire weapons sys-
                                                                                           tems, including mortars, rockets, etc.; does
                                                                                           not involve other weapons.
SECURITY INCIDENTS
This quarter, the IJC reported that attacks were up by 53% over last quarter; how-         IED attack: An incident caused by the
ever, DoD reported that this was due to the increased presence of ISAF troops              detonation of an improvised explosive
in areas they had not previously occupied.67 In June 2010, the Acting Minister of          device.
Interior told the press that only 9 of Afghanistan’s 364 districts were considered
safe.68 IJC reported 6,880 attacks on the ANSF, coalition forces, and civilians:           Complex attack: Any engagement involv-
 • 3,918 direct fire attacks                                                               ing a combination of weapon deployment
 • 1,026 indirect fire attacks                                                             systems, such as direct fire following an
 • 1,428 improvised explosive device (IED) attacks                                         IED attack or a direct attack following a
 • 508 complex attacks                                                                     mortar attack.
Nearly half of all direct fire attacks occurred in Helmand.69
                                                                                         Source: IJC, response to SIGAR data call, 4/1/2010.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010           57
                                                        SECURITY




FIGURE 3.18                                                In June, the Secretary-General of the United Nations (UN) reported that
                                                        armed clashes and IED incidents accounted for one-third of incidents reported
ANA CASUALTIES BY PROVINCE
                                                        this quarter. On average, about three suicide attacks occurred per week—half
                                                        of which were carried out in the southern region. Complex suicide attacks
                                                        occurred at an average rate of two per month, double the figure recorded in 2009.
                                                        For example, recent attacks in Kabul and Helmand targeted guesthouses used
                                                        by international civilians. In addition, insurgents assassinated approximately
                                                        seven people per week (mainly in the southern and southeastern areas where
                                                        Operation Moshtarak has been under way since February)—a 45% increase over
                                                        the same period in 2009. In the city of Kandahar, assassinations targeted civil
                                             0
                                             1–20
                                                        servants, clerics, and elders.70
                                             21–40         According to the Secretary-General, the rate of IED attacks within the first
                                             41–60      four months of 2010 was 94% higher than during the same period in 2009.
                                             61–120
                                                        According to IJC, 1,449 IEDs were identified and cleared during the quarter—
Note: Casualties reported from 4/1/2010 to 6/30/2010.
                                                        about the same number as last quarter.71 Figure 3.18 and Figure 3.19 show that
Source: IJC, response to SIGAR data call, 7/6/2010.     the provinces with the highest numbers of ANA and ANP casualties were in the
                                                        south, where Operation Moshtarak is under way.


FIGURE 3.19                                             AFGHAN NATIONAL ARMY
                                                        As of June 20, 2010, ANA troop strength was 129,885—an increase of more than
ANP CASUALTIES BY PROVINCE                              17,000 troops since March 20, 2010.72 According to ISAF, the ANA has a target
                                                        troop strength of 171,600 by October 2011.73 This quarter, the NATO Training
                                                        Mission - Afghanistan/Combined Security Transition Command - Afghanistan
                                                        (NTM-A/CSTC-A) and the Ministry of Defense (MoD) fielded 25 ANA units, rang-
                                                        ing from company to battalion size. The units included brigade headquarters,
                                                        support units, infantry kandaks, a commando kandak, and the first four Special
                                                        Forces teams.74
                                               0
                                               1–10     ANA Training
                                               11–20    NATO commanders have expressed concern about the lack of well-trained
                                               21–40
                                                        officers and noncommissioned officers (NCOs) in the ANA. On June 2, 2010, the
                                               41–100
                                                        NTM-A deputy commander pointed out that despite the growth in troop strength,
                                                        there is a critical shortfall of trained leaders.75 NTM-A is planning to train approx-
Note: Casualties reported from 4/1/2010 to 6/30/2010.
Source: IJC, response to SIGAR data call, 7/6/2010.
                                                        imately 4,500 officers and 15,000 NCOs in 2011. As part of this plan, NTM-A
                                                        announced that it will send the top recruits from every Basic Warrior training
                                                        class to the NCO training course. DoD reported that 1,650 recruits began training
                                                        this quarter and that an expansion of the program will result in approximately
                                                        1,500 NCOs being trained during each 12-week cycle.76
                                                           This quarter, NTM-A/CSTC-A reported that 27,392 ANA personnel received
                                                        some form of training in a spectrum of subjects.77 Of those who were trained,
                                                        14,359 graduated from training courses to prepare them for placement within
                                                        their assigned unit, as shown in Figure 3.20. Of those who graduated, 785 were
                                                        officers, and 1,244 were NCOs.78 Figure 3.21 shows how many students graduated
                                                        from ANA training schools.




                                                          58                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                           SECURITY




   As noted in SIGAR’s April 2010 quarterly report, work has begun on the new
training center for the ANA that will house the Afghan Defense University.79 The
University, which will include the West Point-style National Military Academy,
will be located on a 105-acre site in Kabul. It is expected to serve approximately
7,000 students and faculty members through eight schools for the ANSF and
government ministries. As of June 16, 2010, the school is 20% complete; ISAF
reported that it is expected to open in March 2011.80

FIGURE 3.20


ANA TRAINING GRADUATES BY UNIT ASSIGNMENT

       Total Graduates: 14,359                                                             Other Graduates: 2,911
 201st         209th          215th
 Corps         Corps          Corps
 1,853         1,507          1,568
                                                              Commando Brigade                                                         674
                                                            Military Police Brigade                                              568
                                                           111th Capital Division                                              542
                          Other
    203rd                 Graduates       Acquisition, Technology, and Logistics                           252
    Corps                 2,911
    2,361                                                                 Air Corps                      230
                 205th
                 Corps                                                207th Corps                     219
                 4,159
                                     Other Specialized Support or Training Units                                         426

                                                                                      0            200             400         600

Source: NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.



FIGURE 3.21


ANA TRAINING GRADUATES BY SCHOOL

         Total Graduates: 27,392                                                                   Other Training Programs: 499

                                           Consolidated
                                           Fielding Center a               Combat Service                                               221
           Regional Military                                               Support School
                                           3,144
           Training Centers                                                Engineer School                               110
           9,738
                                               Other Training                                                        97
                                                                           Logistics School
                                               Programs
            Kabul Military                                             Counter-Insurgency
                                               499                                                            53
            Training Center                                               Training Center
            12,020                                              b
                                           Bridmal Academy                Command and
                                                                                                      18
                                           1,991                             Staff College

                                                                                               0         50        100     150    200

a. At the Consolidated Fielding Center, units form, equip, and conduct initial collective training.
b. Bridmal Academy is for NCOs.
Source: NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.




                      REPORT TO THE UNITED STATES CONGRESS                            I   JULY 30, 2010                                59
                                                           SECURITY




                                                           Women in the ANA
                                                           This quarter, NTM-A/CSTC-A reported that 301 women serve in the ANA (0.2%
  Tashkil: Lists of personnel and equipment                of all personnel)—166 officers, 104 NCOs, and 31 officer candidates. Women are
  requirements used by the MoD and the                     assigned to duties in information technology, health care, investigations, educa-
  MoI that detail authorized staff positions               tion and training, administration, family support, security, logistics, engineering,
  and equipment items, in this case for the                aviation, and communications. NTM-A/CSTC-A reported that many women serv-
  ANA and the ANP.                                         ing in the ANA had prior experience with military service. On May 1, 2010, the
                                                           first ANA training course for female officers was initiated. The rank structure
                                                           for women ranges from sergeant to brigadier general; however, many women
Source: GAO, GAO-08-661, “Afghanistan Security,” 6/2008,
p. 18.                                                     serve in positions beneath their pay grade, and no woman serves in a tashkil
                                                           position higher than colonel.81

                                                           ANA Infrastructure
                                                           This quarter, DoD reported that 3 new infrastructure projects were awarded
                                                           (worth $48.2 million), 50 were ongoing ($840.8 million), and 3 were completed
                                                           ($70.5 million). These projects are designed to contribute to the long-term
                                                           viability of the ANA. They include construction projects and the procurement
                                                           of permanent equipment necessary for support, redeployment, and operations
                                                           of army forces. Construction projects included barracks, headquarters, training
                                                           buildings or ranges, administrative spaces, warehouses and storage buildings,
                                                           and maintenance facilities. Once completed, facilities are sustained through a
                                                           national operation and maintenance (O&M) contract, which includes training in
                                                           preparation for the eventual turnover of O&M responsibility to the MoD. DoD
                                                           noted that increasing the involvement of local governments and workforces is
                                                           key to addressing the central challenge of establishing and maintaining security.82

                                                           ANA Equipment
                                                           This quarter, NTM-A/CSTC-A reported that DoD conducted the first training for
                                                           Afghan officers in the U.S. government’s Foreign Military Sales (FMS) program.
                                                           Thirty officers participated in the training, which prepared them to use the
                                                           government-to-government method for purchasing U.S. defense equipment,
                                                           services, and training.83
                                                              This quarter, NTM-A/CSTC‐A worked with the Defense Security Cooperation
                                                           Agency and the U.S. Army Security Assistance Command to speed up the deliv-
                                                           ery of weapons and communication equipment to meet fielding plans. Figure
                                                           3.22 shows that the ANA fielded 5,025 U.S.-made M16A4 rifles and 1,452 other
                                                           weapons from April 1 to June 23, 2010. Table 3.2 shows that 647 vehicles and
                                                           902 radios were fielded. All this equipment supplemented existing equipment; no
                                                           replacement equipment was issued. In addition, the ANA Air Corps added two
                                                           C-27 transport aircraft to its inventory, bringing its fleet to the following totals:84
                                                           • 25 Mi-17 and 9 Mi-35 helicopters
                                                           • 1 An-26, 5 An-32, and 5 C-27 transports
                                                           • 3 L-39 jets




                                                             60                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                            SECURITY




FIGURE 3.22                                                                                                           TABLE 3.2


ANA WEAPONS FIELDED                                                                                                   ANA RADIOS AND VEHICLES FIELDED
                                                                                                                      Vehicles
       Weapons Fielded: 6,477                                                     Other Weapon Systems: 1,452         Light and medium tactical vehicles                    484
                                                                                                                      Up-armored HMMWVsa                                    163
                                                                                                                      Radios
                                                          M249 Machine Gun                                      531
                                                                                                                      VHF radiosb                                           661
                                                               M203A2 Grenade
                                                                                                      342             HF radiosc                                            241
                                                                     Launcher
                                        Other Weapon
      M16A4 Rifle
                                        Systems           M240 Machine Gun                      267                    a. Up-armored HMMWVs include M1151, M1152, and
      5,025                                                                                                            M1152 ambulance models.
                                        1,452                                                                          b. Very High Frequency (VHF) radios include various con-
                                                               M24 Sniper Rifle                236                     figurations of the PRC-1077 and HH7700 radio systems.
                                                                                                                       c. High Frequency (HF) radios include various configura-
                                                                                                                       tions of the RT-7000 and PRC-1099 radio systems.
                                                               M2 Machine Gun          76
                                                                                                                       Source: NTM-A/CSTC-A, response to SIGAR data call,
                                                                                                                       7/6/2010.
                                                                                  0   100 200 300 400 500

Note: These weapons were transferred to ANA forces from 4/1/2010 to 6/23/2010.
Source: NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.




AFGHAN NATIONAL POLICE
As of June 20, 2010, ANP personnel strength was 105,873—an increase of more
than 6,000 personnel.85 According to ISAF, the ANP’s goal is to reach 109,000
personnel by October 2010 and 134,000 by October 2011.86
   The ANP includes the Afghan Uniform Police (AUP), the Afghan Border Police
(ABP), and the Afghan National Civil Order Police (ANCOP); all but the ANCOP
had surpassed their targeted end-strength goals as of late June. To encourage
recruitment and retention, ISAF is giving hazardous duty incentive pay and
signing bonuses to ANCOP personnel. Moreover, ISAF is looking at providing
coalition mentoring and other measures to reduce ANCOP attrition.87
   On June 25, 2010, SIGAR informed officials from DoD and the Department of
State (DoS) that it will conduct an audit of personnel management in the ANP. This
audit was originally designed to review the ANSF; the scope was changed to avoid
duplicating an audit of the ANA being done by the Government Accountability
Office. Fieldwork for SIGAR’s audit is scheduled to begin in August 2010.88




                    REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2010                61
SECURITY




ANP Training
This quarter, NTM-A/CSTC-A reported that 11,981 ANP students registered for
training programs and that 10,974 students graduated from them, as shown in
Figure 3.23. The programs cover a range of topics, including basic and advanced
patrolling, counter-narcotics, driving, investigations, trauma assistance, border
security, and leadership.89
   DoD leads the U.S. effort to staff, train, and equip the ANP, and several separate
contracts support this effort. For example, DoS manages a contract to provide
civilian police trainers to the ANP. However, DoD reported that DoS is in the pro-
cess of transferring management of this contract to DoD. In preparation for taking
over contract management, DoD is conducting an open competition. Although
the process of awarding a contract of this size (estimated at $1 billion over three
years) usually takes 12 months to complete, DoD reported that it has accelerated
the milestones associated with this procurement. On May 25, 2010, DoD issued a
draft request for proposals; more than 80 companies attended the related industry
days on June 9 and 10. DoD reported that it posted the final request for proposals
on July 16 and expects to award the contract by the end of the year.90
   On June 21, 2010, more than 1,100 cadets graduated from a six-month train-
ing program at the ANP Academy in Kabul. The new officers will be the first to
be deployed through the Ministry of Interior’s (MoI) new process for assigning
officers on the basis of unit requirements and operational priorities. According to
NTM-A, two additional six-month training cycles are planned for 2011.91

FIGURE 3.23


ANP TRAINING GRADUATES BY PROGRAM

                                                               Graduates: 10,974


            Basic 8                                                                                   2,825

          KSA Cycle                                                          1,635

           ANCOP
                                                                     1,445
    Basic and NCO
    Officer’s Course                                       1,104
          (6-month)
   Focused Border
                                                     932
Development Basic
    Focused District                      687
      Development
      Border Police                      614
     Basic and NCO
  Other Specialized                                                           1,732
           Training
                       0           500            1,000             1,500            2,000   2,500    3,000

Source: NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.




   62                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




   U.S. Marines and Italian Carabinieri continued to work together to train
members of the AUP and the ANCOP—more than 1,000 recruits, NCOs, and
officers this quarter. Training took place at the Afghan National Training Center
in Adraskan, Herat.92
   The European Union Police Mission (EUPOL) in Afghanistan reported that
265 international and 163 local staff members were providing police training and
rule-of-law expertise to the MoI and ANP, as of June 6, 2010. From March 2009
through June 2010, EUPOL trained approximately 675 Afghan police trainers, 300
MoI inspectors (in anti-corruption investigation techniques), and more than 1,000
Afghan police officers (in basic investigations and crime scene investigation tech-
niques). EUPOL has a budget of €54.6 million for the period from May 31, 2010,
to May 31, 2011.93 On May 18, 2010, the Council of the European Union extended
EUPOL’s mission to May 31, 2013.94

ANP Literacy
Since March 2009, the ANP literacy program has been using the Ministry of
Education’s adult literacy curriculum to address low literacy rates among its per-    ANP members participate in a three-
                                                                                      day training course at the Rokha Police
sonnel. NTM-A/CSTC-A reported that 2,889 ANP members (including 36 officers
                                                                                      Headquarters in Panjshir. The students
and 231 NCOs) have graduated from the program as of June 30, 2010. This figure        enhanced their ability to work with maps,
includes 2,497 members of the AUP, 184 members of the ABP, 169 Special Police,        give and find coordinates, identify terrain
and 39 members of the ANCOP. According to NTM-A/CSTC-A, 12,806 personnel              features, and measure the distances
enrolled in the literacy program in April 2010, and 12,753 enrolled in May 2010;      between points. (U.S. Air Force photo, 2nd
                                                                                      Lt. Jason Smith)
however, most do not continue beyond the mandatory 64 hours of instruction
required during basic training. In April and May 2010, NTM-A/CSTC-A randomly
tested ANCOP personnel and found that about 6% of them were literate. To
address the need for literacy training, NTM-A/CSTC-A fielded literacy program
instructors to ANCOP Battalion and Brigade Headquarters.95

Women in the ANP
As of late June 2010, approximately 1,100 women were serving in the ANP,
according to DoD. Because only women can interact freely with other women in
Afghanistan, those who serve in the ANP fill an important cultural role in search-
ing women and gathering intelligence from them. The MoI’s goal is to have 5,000
women in the ANP and MoI by 2014. This quarter, the MoI implemented a recruit-
ing campaign aimed at attracting more female candidates for the ANP, according
to DoD.96

ANP Infrastructure
This quarter, DoD reported that 15 new infrastructure projects were awarded
(valued at $39.6 million), 250 were ongoing ($796 million), 9 were completed
($7.72 million), and 4 were de-scoped ($2.38 million).97
   The MoI and NTM-A are working with the U.S. Army Corps of Engineers and
local contractors to construct new living facilities and temporary holding cells in




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        63
                                                               SECURITY




                                                               police districts throughout Afghanistan. Some ANP personnel live in substandard
                                                               facilities that lack ventilation, refrigerators, or toilet facilities, according to an
                                                               NTM-A/CSTC-A press report.98
                                                                  On June 12, 2010, an Afghan construction company began laying the founda-
                                                               tion for a new facility at Police District 12 in Kabul, according to NTM-A. The
                                                               two-story complex will include living and dining areas, a break room, and bath-
                                                               room facilities.99

                                                               ANP Equipment
                                                               The strategy for equipping the ANP focuses on providing weapons, transport,
  Cross-leveling: At the strategic and                         and communications equipment that will help the ANP field more units and
  operational levels in a theater, the process                 meet the October 2011 goal, according to NTM-A/CSTC-A. This quarter, NTM-A/
  of diverting materiel from one military                      CSTC-A reported an increase in the number of weapons distributed by the ANP
  element to meet the higher priority of                       to personnel in the field; this change follows the MoI’s short-term moratorium on
  another. Cross-leveling plans must include                   issuing new weapons. NTM-A/CSTC-A has been working with the MoI to imple-
  specific reimbursement procedures.                           ment and enforce greater accountability and cross-leveling of excess weapons.100
                                                               The ANP fielded 6,821 weapons, including former Warsaw Pact weapons such as
                                                               the AK-47, as shown in Figure 3.24.
Source: DoD, “Dictionary of Military Terms,” accessed online
7/12/2010.                                                        This quarter, the continued training of ANP drivers resulted in the fielding of
                                                               818 up-armored High-Mobility Multipurpose Wheeled Vehicles (HMMWVs); 91
                                                               of these vehicles were ambulances. NTM-A/CSTC-A reported that it is procuring
                                                               additional up-armored HMMWVs for the ANP and expects to receive an average
                                                               of 250 vehicles per month over the next 7 months.101 Table 3.3 shows that the
                                                               ANP also procured communication equipment to support its training, equipping,
                                                               and sustainment mission.
TABLE 3.3                                                      FIGURE 3.24


ANP RADIOS AND VEHICLES FIELDED
                                                               ANP WEAPONS FIELDED
Vehicles
Light and medium tactical vehicles                      988             Total Weapons: 6,821                                                        Other Weapon Systems: 990
Up-armored HMMWVa                                       818
Radios                                                                                                                   GP-25/30 Grenade                                       402
                                                                           9MM Handgun                                           Launcher
             b                                       1,531
VHF radios                                                                 2,323                                       RPK Machine Gun                           203
HF radiosc                                              119                                            Other Weapon
a. Up-armored HMMWVs include M1151, M1152, and M1152
                                                                                                       Systems         PKM Machine Gun                           196
ambulance models.                                                         AK-47                        990
b. Very High Frequency (VHF) radios include various                       Assault Rifle                          RPG-7 Grenade Launcher                        172
configurations of Motorola or ICOM radio systems.
c. High Frequency (HF) radios include various configurations              3,508
of CODAN radio systems.                                                                                           DShK Heavy Machine Gun            17
Source: NTM-A/CSTC-A, response to SIGAR data call,
7/6/2010.
                                                                                                                                                0        100   200     300   400

                                                               Note: These weapons were transferred to ANP forces from 4/1/2010 to 6/23/2010.
                                                               Source: NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.




                                                                   64                       SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




REMOVING UNEXPLODED ORDNANCE
Since 1993, DoS has provided $165 million for the destruction of conventional
weapons and for assistance with humanitarian mine actions in Afghanistan,
according to the DoS Office of Weapons Removal and Abatement within the
Bureau of Political-Military Affairs (PM/WRA). DoS funds Afghan nongovern-
mental organizations (NGOs), international NGOs, and commercial companies
to carry out sustained clearance operations, remove and mitigate abandoned
and at-risk conventional weapons, and develop Afghan technical and managerial
capacity.102
   The PM/WRA reported continued progress through its Community-Based
De-Mining (CBD) initiative. The PM/WRA reported that the overarching objec-
tive of CBD projects is the collaborative coordination of de-mining programs.
According to DoS, the PM/WRA is funding CBD programs in Helmand, Kandahar,
and Kunar and is looking to align future projects with the needs of Regional
Commands and Provincial Reconstruction Teams. It is also working with
USAID’s Office of Infrastructure and with the Mine Action Coordination Center
of Afghanistan, an NGO, to fund the construction of a headquarters for the
GIRoA’s Department of Mine Clearance.103

COALITION FORCES
As of March 31, 2010, DoD reported approximately 87,000 U.S. forces and
approximately 46,500 international forces in Afghanistan; it expected U.S. forces
to approach 98,000 by August.104 Of those numbers, ISAF reported that it had
78,430 U.S. troops and 41,315 international troops from 45 nations in Afghanistan
as of June 30, 2010.105 However, as of April 2010 at least 21 coalition partner
nations still have “national caveats” on their forces, according to DoD. These
caveats limit or restrict the forces’ conduct and may affect the ISAF commander’s
utilization of forces.106
   As of July 20, 2010, DoD reported 1,100 U.S. military fatalities in and around
Afghanistan since the beginning of Operation Enduring Freedom. Of that num-
ber, 878 were killed in action; an additional 222 died as a result of non-hostile
incidents. In addition, 3,811 were wounded in action; and an additional 3,199
were wounded but able to return to duty within 72 hours.107




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010       65
                                QUARTERLY HIGHLIGHT




INSURGENT THREATS                                            report noted that several key Taliban figures have
                                                             been captured or killed this year, including the
                                                             February arrests of Omar’s top deputy and two Taliban
In its Section 1230 report to the Congress in April          “shadow governors” and the March arrests of Omar’s
2010, DoD noted that insurgents perceived 2009               son-in-law and another notable QST member.117
as their most successful year.108 DoD recorded more
than 21,000 enemy-initiated attacks that year—a              HAQQANI NETWORK
75% increase over the number recorded in 2008.               Jalaludin Haqqani, the Minister of Tribal Affairs in the
Moreover, from September 2009 to March 2010,                 pre-2001 Taliban government, founded the Haqqani ter-
attacks against coalition forces were up 83%, attacks        rorist network. Sirajuddin (“Siraj”) Haqqani, Jalaludin’s
against civilians were up 72%, and attacks against           son and a senior leader of the Haqqani Network, main-
the ANSF were up 17%, compared with the same time            tains close ties to al-Qaeda. According to DoS, Haqqani
period one year earlier.109                                  admitted to planning a 2008 attack against a Kabul
   According to DoD, Afghanistan’s insurgency includes       hotel that killed six people, including an American, as
three major groups: the Quetta Shura Taliban, the            well as an attempted assassination of President Karzai
Hezb-e Islami Gulbuddin (HIG), and the Haqqani               in April that year.118 More recently, the Haqqani Network
Network (HQN). These groups cooperate and coordi-            may have been responsible for a January 2010 attack
nate to undermine the central government and to expel        near the presidential palace in Kabul, according to the
foreign forces from Afghanistan. They tend to operate in     CRS.119 Believed to be residing in Pakistan, Haqqani
geographically and demographically determined areas,         has coordinated and participated in cross-border
mainly in the Pashtun-majority regions and in small          attacks against coalition forces, according to DoS.120
Pashtun areas of the north, as shown in Figure 3.25.110          According to a DoD press report, the younger
                                                             Haqqani represents a style of leadership that is more
THE QUETTA SHURA TALIBAN                                     aggressive than past leadership and often uses
Mullah Mohammad Omar’s Taliban regime in                     brutality as a means to secure power. He has been
Afghanistan sheltered Osama Bin Laden and his                responsible for training, influencing, commanding,
al-Qaeda network following the September 11, 2001            and leading the Haqqani Network, using kidnappings,
attacks.111 Omar’s group relocated to Quetta, Pakistan,      assassinations, beheadings of women, indiscriminate
in 2002, according to the Institute for the Study of War     killings, and suicide bombings.121 In March 2010, DoS
(ISW) and is now called the “Quetta Shura Taliban”
(QST). The QST, however, refers to itself as the
Islamic Emirates of Afghanistan and considers itself
Afghanistan’s legitimate government.112 According to
the ISAF commander, the QST’s aim is to capture the
city of Kandahar, their philosophical home.113
   The ISW noted that almost all Afghan insurgent
groups have sworn allegiance to Omar.114 By U.S.
military and Afghan estimates, the number of Taliban
fighters in Afghanistan is more than 20,000, as
reported in June 2010 by the Congressional Research
Service (CRS).115 Figure 3.25 identifies areas in which
Taliban fighters loyal to the QST are operating.
                                                             Automatic weapons, rocket-propelled grenades, and communi-
   On June 10, 2010, the ISAF commander reported             cation equipment are part of a large cache of materiel captured
that coalition forces killed or captured 121 Taliban         from Haqqani and Taliban insurgents by a joint Afghan-
leaders during the preceding 90 days.116 The CRS             international security force in June. (ISAF Photo)




                                     66               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   QUARTERLY HIGHLIGHT



FIGURE 3.25

INSURGENT AREAS OF OPERATION




                                                                                               Kabul




                                                                                                       Khowst

                                                                                                                         Hezb-e Islami Gulbuddin

                                                                                                                         Haqqani Network
                           Now Zad
                          Lashkar Gah                                                                                    Taliban

                                                              Kandahar




                                                                                                 HEZB-E ISLAMI GULBUDDIN
                                                                                                 Hezb-e Islami Gulbuddin (HIG) is led by Gulbuddin
                                                                                                 Hekmatyar, one of the main mujahedeen leaders
                                                                                                 supported by the United States during the Soviet
Source: DoD, “Report on Progress Toward Security and Stability in Afghanistan,”
4/2010, p. 23.
                                                                                                 occupation of Afghanistan. Active in Kapisa, Kunar,
                                                                                                 Nangarhar, and Nuristan, the HIG is allied with
                                                                                                 al-Qaeda and Taliban insurgents, according to the
offered a reward of up to $5 million—through a pro-                                              CRS.125 It reported that U.S. military and Afghan esti-
gram administered by the DoS Bureau of Diplomatic                                                mates set the number of HIG fighters in Afghanistan
Security—for information leading to the location and                                             at approximately 1,000.126
arrest of Siraj Haqqani.122 U.S. military and Afghan                                                On March 22, 2010, representatives of the GIRoA
estimates set the number of Haqqani Network fighters                                             and the HIG confirmed that they were holding talks,
in Afghanistan at approximately 1,000, according to                                              including meetings with President Hamid Karzai.
the CRS. These fighters are mainly active in provinces                                           Since 2007, Hekmatyar has expressed a willing-
around Khowst, as shown in Figure 3.25.123                                                       ness to discuss a cease-fire with the GIRoA; some of
   This quarter, ISAF reported that joint ANP and                                                President Karzai’s allies in the National Assembly are
coalition forces captured a Haqqani Network IED cell                                             former members of Hekmatyar’s mujahedeen party.
leader and several other insurgents in a compound in                                             In January 2010, Hekmatyar outlined conditions for
Khowst. The cell leader was responsible for emplacing                                            reconciliation with President Karzai that included elec-
IEDs, acquiring and distributing weapons, and coordi-                                            tions under a neutral caretaker government following
nating suicide bombings against coalition convoys.124                                            a U.S. withdrawal.127



                    REPORT TO THE UNITED STATES CONGRESS                          I   JULY 30, 2010             67
TITLE OF THE SECTION




 68    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




GOVERNANCE
Since 2002, the United States has appropriated more than $14.74 billion for
governance and development activities in Afghanistan. The U.S. Department of
Defense (DoD), U.S. Department of State (DoS), U.S. Agency for International
Development (USAID), and U.S. Department of Agriculture use this funding in
part to support programs for governance, rule of law, and human rights. For
details on funding amounts, see Appendix B of this report.
   In a joint statement issued on May 12, 2010, U.S. President Barack Obama and
Afghan President Hamid Karzai emphasized the importance of improving Afghan
institutions to help the Government of the Islamic Republic of Afghanistan
(GIRoA) meet the needs of its people. In the past, almost no U.S. funding was
directed through the GIRoA; however, over the next two years, the United States
intends to channel up to 50% of its reconstruction funding through Afghan insti-
tutions that are certified as transparent and accountable.128

OVERVIEW OF RECENT EVENTS
This quarter, the GIRoA launched the Afghan Peace and Reintegration program.
Led by the High Peace Council, the program is designed to promote peace
through regional and international cooperation, to create political and judi-
cial conditions for peace and reconciliation, and to encourage combatants to
renounce violence and join in reintegration and peace-building. The program
aims to reintegrate thousands of former insurgents and stabilize 4,000 com-
munities in 220 districts across Afghanistan over the next five years.129 The new
reintegration program will offer incentives to insurgents who are willing to
disarm and accept the Afghan Constitution. Generally, reintegration is offered to
lower-level insurgents, not extremist leaders.130
    According to Ambassador Richard C. Holbrooke, DoD plans to spend up to
$100 million from Commander’s Emergency Response Program funds to sup-
port initial reintegration efforts.131 The director of the International Security
Assistance Force (ISAF) reintegration effort emphasized that Afghans expect
the GIRoA to carry out significant government reforms. Doing so will demon-
strate that the GIRoA is working to improve the lives of Afghan citizens, thereby
encouraging Afghans to support their government.132
    As of July 2010, the GIRoA is focusing reintegration programming at the dis-
trict and local levels, with assistance from the United States and the international
community. At those levels, reintegration programs address grievances while



             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010          69
                                                              GOVERNANCE




     “Today, I invite us to
  elevate our vision above
  the din of the battle with
 our common enemies and
 to focus on our noble goal:
   a peaceful, prosperous,
  and stable Afghanistan.”
                            —Afghan President
                                Hamid Karzai

Source: GIRoA, Office of the President, “Kabul Conference,”
7/20/2010.




                                                              Afghan President Hamid Karzai and UN Secretary-General Ban Ki-moon unveil the GIRoA’s
                                                              new action plan to improve governance, economic and social development, and security at the
                                                              Kabul Conference in July. (UNAMA photo)

                                                              maintaining the dignity of all parties. In the future, reintegration is expected to take
                                                              place at provincial and national levels, while still continuing at the local level.133
                                                                 This quarter, the GIRoA hosted two events to discuss reconstruction and the
                                                              reintegration of insurgents: the Kabul Conference and the National Peace Jirga.134

                                                              Kabul Conference
                                                              At the July 20 Kabul Conference, the GIRoA unveiled its Prioritization and
                                                              Implementation Plan—an action plan aimed at improving governance, economic
                                                              and social development, and security. Building on the 2008 Afghanistan National
                                                              Development Strategy, the new plan aims to strengthen government institutions
                                                              and improve opportunities for Afghan citizens. The GIRoA used its new develop-
                                                              ment goals to establish national priorities and align international assistance with
                                                              those priorities.135
                                                                 National priorities for governance and rule of law focus on strengthening
                                                              government accountability, democratic processes and institutions, human rights,
                                                              the rule of law, and the delivery of public services. Based on these priorities, the
                                                              GIRoA has established national programs with a range of overarching themes,
                                                              including transparency, accountability and efficiency in government, financial
                                                              and economic reform, human rights and equality, and local governance.136

                                                              Peace Jirga
                                                              From June 2 to June 4, 2010, the GIRoA hosted a National Consultative Peace
                                                              Jirga to discuss ways to end violence and achieve lasting peace. The 1,600
                                                              delegates represented religious scholars, tribal leaders, civil society organiza-
                                                              tions, and Afghan refugees residing in Iran and Pakistan, as well as government
                                                              representatives from provincial councils and the two houses of the National



                                                                 70                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                     GOVERNANCE




Assembly.137 Although reintegration was discussed at the Jirga, extremist
elements and terrorist networks were not involved in these discussions.138
   At the Peace Jirga, the GIRoA presented a reintegration plan for encourag-
ing insurgents to disarm voluntarily. The plan proposed such incentives as
jobs, amnesty and protection, and the opportunity to take part in securing
communities.139
   At the conclusion of the Peace Jirga, the delegates released a 16-point resolu-
tion in which they supported the proposed incentives and made requests of the
GIRoA and the international community.140 Article 8 of the resolution called on
the GIRoA and the international troops in Afghanistan to take major actions,             Women attend the Kabul Peace Jirga
including the following:141                                                              in June. The 3-day Jirga gathered 1,600
 • Review information about detainees in Afghan prisons, and free those who              participants, including 300 women, who
                                                                                         prepared and presented recommendations
   have been detained on the basis of inaccurate information or unsubstanti-
                                                                                         on how to move forward in the peace pro-
   ated allegations.                                                                     cess. (UNAMA photo)
 • Strike from the UN terrorist blacklist all insurgency members who are not
   associated with al-Qaeda or other terrorist networks.
   On June 6, President Karzai designated a committee, headed by the Minister
of Justice, to review the cases of detainees connected with insurgent groups.
The head of the Presidential Legal Advisory Board is part of the committee,
along with representatives from the Supreme Court, the Independent Peace and
Reconciliation Commission, and the Attorney General’s Office.142 On July 12,
the committee announced the release of 28 detainees who were being held
with no clear evidence of wrongdoing on their part. The Minister of Justice also
announced that the committee is freeing an additional 45 detainees.143
   On June 22, the UN Security Council agreed to begin removing members from
the terrorist blacklist on a case-by-case basis. According to the Security Council,
the terrorist blacklist includes only individuals who currently represent a threat.144
To be removed, individuals must break all ties with al-Qaeda and other insurgency
groups, lay down their arms, and fully accept the Afghan Constitution. They must
also prove to the UN Security Council that they have met these criteria. All 15
members of the Security Council must agree to the removal.145

ANTI-CORRUPTION
Corruption undermines the authority and accountability of the GIRoA by
weakening public trust in government, security, and human rights development,
according to the GIRoA’s High Office of Oversight (HOO). The HOO has attrib-
uted corruption in Afghanistan to several factors:
• the legacy of a quarter-century of conflict
• the erosion of state institutions
• irregular financing of the conflict from various sources
• worsening tensions among ethnic and tribal groups
• the growth of informal and illicit economic activities
The HOO also has noted that the growth of the drug trade and the influx of inter-
national aid have created more opportunities for corruption within the country.146




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010          71
GOVERNANCE




   This quarter, Integrity Watch Afghanistan (IWA) released the results of a corrup-
tion survey, which found that Afghans consider corruption to be the third-largest
problem in the country, following security and unemployment. Approximately 75%
of respondents believed that the problem of corruption became more significant
over the course of 2009: 28% of adults paid a bribe to obtain a public service. The
IWA also revealed that 70% of Afghans perceived corruption as a common way of
doing business with their government; however, 90% of respondents stated that
they felt guilty for taking part in corrupt activities.147
   The average bribe that respondents paid in 2009 was Af 7,769 ($156), accord-
ing to the survey; this amount represents 31% of the average annual income
in Afghanistan ($502). Afghans who earned less than Af 3,000 ($60) a year
reported the highest exposure to bribery; they listed corruption as the largest
problem in Afghanistan.148
   The IWA survey showed that the highest levels of corruption occur in connec-
tion with the following government services:
 • registration and issuance of ID cards and passports
 • police services
 • justice in the court system
Respondents also reported increasingly high levels of corruption in the health
and education sectors, where bribes tend to entail larger sums of money.149

Anti-Corruption Initiatives
As part of the Afghanistan and Pakistan Regional Stabilization Strategy, the
United States pledged to partner with the GIRoA to reach two overarching anti-
corruption goals:150
• to reduce corruption by strengthening institutions that can provide checks
    on government power
• to communicate the progress made by the GIRoA in reducing the level of
    corruption
In May 2010, President Obama and President Karzai re-emphasized in a joint
statement that the fight against corruption is a top priority. President Obama
pledged to improve oversight of U.S. government contracting procedures and
to provide technical and financial support to bolster the powers of the HOO.
President Karzai restated his inauguration pledge to bring to justice those who
are involved in corrupt activities. He also underscored the necessity of reforming
the formal justice sector by strengthening capacity and reducing corruption in
government justice institutions.151
   The IWA survey showed that anti-corruption efforts by the international
community have yet to earn the Afghans’ trust. According to the survey, 43% of
respondents did not know if the international community was supporting honest
officials, and 18% believed that it was not.152




  72                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




High Office of Oversight
Since its creation in 2008 by presidential decree, the HOO has been responsible
for inter-agency coordination in the fight against corruption in Afghanistan. The
HOO is also responsible for coordinating and monitoring the implementation of
the GIRoA’s anti-corruption strategy and for implementing administrative proce-
dural reforms in Afghanistan. The Afghan president appoints the director general
of the HOO; office responsibilities are split between Policy and Oversight and
Administrative Affairs.153
   Although the HOO recognizes the importance of enforcement in anti-corruption
efforts, it focuses on fighting the problem through coordination, prevention, and
awareness-raising. According to the HOO, the number of corruption cases does
not reflect the extent of corruption.154
   The HOO’s Asset Registration Department is charged with creating an asset
registry based on declarations of government officials’ personal assets, as
mandated by Article 154 of the Afghan Constitution. According to the Asset
Registration Department, verification is the most complicated component of
asset declaration because many transactions, including the purchase of land
and homes, take place through informal channels. The U.S. Federal Bureau of
Investigation, the UN Office on Drugs and Crime, and the U.S. Embassy Kabul
provide international assistance for these efforts.155
   SIGAR’s audit of the HOO, released in December 2009, found that the office
had limited organizational capacity to meet its hefty mandate. The audit also
determined that the GIRoA had not passed legislation necessary to give the
HOO appropriate authority or enforcement power.156 For more information, see
SIGAR Audit 10-2, “Afghanistan’s High Office of Oversight Needs Significantly
Strengthened Authority, Independence, and Donor Support to Become an
Effective Anti-Corruption Institution.”

Control and Audit Office
As Afghanistan’s Supreme Audit Institution, the Control and Audit Office (CAO)
is responsible for auditing the GIRoA’s financial matters. The CAO has audit
authority over all GIRoA institutions in the central and provincial governments,
as well as public enterprises. It also conducts audits of the funds provided to
Afghanistan by external donors.157
    SIGAR’s audit of the CAO, released in April 2010, found that Afghan legislation
did not provide the CAO with sufficient independence or authority to serve as an
independent supreme audit institution. One result of this lack of independence
was conflicting responsibilities, particularly between the CAO and the Ministry
of Finance. In addition, SIGAR determined that the CAO suffered from limited
capacity, including a lack of qualified auditors.158 For more information, see
SIGAR Audit 10-8, “Afghanistan’s Control and Audit Office Requires Operational
and Budgetary Independence, Enhanced Authority, and Focused International
Assistance to Effectively Prevent and Detect Corruption.”




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        73
                                                                   GOVERNANCE




                                                                   SEPTEMBER 2010 ELECTIONS
USAID’s Support to the Electoral                                   The elections for the Wolesi Jirga (the lower house of the National Assembly),
Process program provides support to                                scheduled for September 18, 2010, will be the second such elections since the fall
build the capacity of the IEC to ensure                            of the Taliban regime; the first elections were held in 2005.159 DoS identified secu-
the legitimacy of voter registration and                           rity as its primary concern during these elections; security issues include voter
the electoral process.
                                                                   intimidation. ISAF is working closely with the GIRoA on the security issue.160 In
    The International Foundation for
                                                                   April 2010, in preparation for the elections, the Afghanistan Independent Election
Electoral Systems program aims to build
on the momentum in Afghan society                                  Commission (IEC) released a timeline of events. Figure 3.26 highlights events
to advance political and electoral                                 completed during this quarter.
processes, however incrementally, and
to channel desires for change into                                 Elections Support
organized, peaceful, and legitimate                                As of June 30, 2010, according to DoS, the IEC estimated that the 2010 elections
action.                                                            will cost approximately $120 million.161 This quarter, DoS reported that the UN
Sources: USAID, “Support to the Electoral Process,”
                                                                   Development Programme (UNDP) retained $27 million from last year’s election
accessed online 7/19/2010; IFES, “Afghanistan in Brief,”           fund for the 2010 elections.162 The Special Representative of the UN Secretary-
accessed online 7/19/2010.
                                                                   General in Afghanistan has reported that the UNDP plans to use its election
                                                                   assistance to provide core support for Afghan electoral authorities.163
                                                                      The United States has provided USAID with $80 million to support elections.164
                                                                   DoS reported that USAID elections funding is divided between two programs: the
                                                                   Support to the Electoral Process program and the International Foundation for

FIGURE 3.26


WOLESI JIRGA ELECTION EVENTS, 2010

                                                                                                         Mar         Apr         May           Jun       Jul         Aug       Sep          Oct
  Publication of election calendar                                                   Mar 25
  Launch of candidate registration process                                           Apr 13–19
  Nomination of candidates                                                           Apr 20–May 4
  Display of preliminary candidate list; challenges, corrections, and appeals        May 12–18
  ECC hearings and decisions                                                         May 12–Jun 10
  ECC informs IEC of decisions on nominations                                        Jun 11
  IEC prepares final list of candidates                                              Jun 12–21
  Voter registration                                                                 Jun 12–Aug 12
  Publication of final list of candidates                                            Jun 22
  Political campaign period                                                          Jun 23–Sep 16
  Election Day                                                                       Sep 18
  Start and finish date for counting                                                 Sep 18
  Transfer of results from Counting Center to National Tally Center                  Sep 19–25
  Data entry and announcement of preliminary results                                 Sep 21–Oct 8
  Announcement of partial results                                                    Oct 9
  ECC hearings on complaints after partial results                                   Oct 10–23
  ECC sends final decisions on complaints to IEC                                     Oct 24
  Announcement of final results of election                                          Oct 30


                                                                                                              Completed          In Progress         Not Completed

Sources: IEC, “Key Dates,” accessed online 6/20/2010; IEC, “IEC Press Release on Launch of Candidate Nomination for Wolesi Jirga Election,” 4/12/2010; IEC, “Candidate Nomination,”
5/17/2010; UNAMA, “Parliamentary Poll Voter Registration in Full Swing in Afghanistan’s East,” 6/30/2010; IEC, “Candidate Nomination: Verification of Supporters’ Lists,” 5/22/2010; IEC,
“IEC Press Release on Announcement of Final Figures and Candidate List for Wolesi Jirga Elections,” 7/12/2010.




                                                                       74                         SPECIAL INSPECTOR GENERAL                I    AFGHANISTAN RECONSTRUCTION
                                                                                    GOVERNANCE




Electoral Systems (IFES).165 In 2010, IFES is assisting the Electoral Complaints                                              Eligible candidates for the National
Commission (ECC) with capacity development.166                                                                                Assembly must meet the following
   In preparing for the coming elections, the IEC has demonstrated that it has                                                requirements, as established by the Afghan
learned from USAID and international groups, according to DoS. This knowledge                                                 Constitution and Electoral Law
will enable the IEC to carry out its operations more independently; however,                                                  of Afghanistan:
DoS noted that it is difficult to measure the capacity of the IEC because there is                                            •  must be a citizen of the Islamic Republic
                                                                                                                                 of Afghanistan
no way to know how the new IEC will respond to the political pressures of the
elections.167                                                                                                                 •  must not be convicted of any crime,
                                                                                                                                 including crimes against humanity
                                                                                                                              •  must be at least 25 years old on the day
IEC Preparations for Elections                                                                                                   of candidacy
On July 12, 2010, after accounting for duplicate applications, withdrawals,                                                   •  must be registered to vote
exclusions, and ECC disqualifications, the IEC released its final list of candidates
                                                                                                                              Source: IEC, “Candidate Nomination,” 5/17/2010.
for the 249 seats in the Wolesi Jirga. The 2,556 candidates included 2,150 men
and 406 women.168 The nomination of candidates was the first significant opera-
tion in the September 2010 election process, according to the IEC.169
   The IEC is responsible for all nomination procedures except challenges to
candidate nominations, which are the responsibility of the ECC. Following the
nomination period, the IEC launched a three-part verification process, outlined in
Table 3.4. The IEC notified candidates who did not pass the verification procedures of
the reasons for their exclusion; these candidates can submit challenges to the ECC.170
   The IEC included many of the initially excluded nominees in the final can-
didate list. The Special Representative of the UN Secretary-General expressed
disappointment with the vetting committee’s decision to allow many of these
candidates to participate, stating that “the process of vetting has not produced
a satisfactory result so far.”171



TABLE 3.4


IEC VERIFICATION PROCEDURES, 2010 ELECTIONS
Step                              Action Taken
Manual Verification               Teams at IEC headquarters in Kabul checked the number of pages (67 minimum), the
                                  number of signatures (1,000 minimum), and the completeness of each record. Teams
                                  also checked for signs of fraud, including more than 10 registration numbers listed in
                                  sequence on a single page or identical‐looking signatures or thumbprints.
Database Verification             More than 3 million signatures and more than 200,000 pages were submitted in
                                  nominations for these elections. The IEC verified 10% of each applicant’s supporters.
                                  Supporters were checked against the records in the IEC’s voter registration database;
                                  this was the first time the database was used on such a large scale.
Final Verification                The IEC reviewed each application to verify that the first two steps in checking were
                                  carried out correctly. At this stage, the IEC either approved the applicant for candidacy
                                  or referred the application to the IEC Board of Commissioners.
Source: IEC, “Candidate Nomination: Verification of Supporters Lists,” 5/22/2010.




                     REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2010                   75
                                   GOVERNANCE




                                   ENHANCING LOCAL GOVERNANCE
    “In order to enhance           As of May 10, 2010, according to U.S. Ambassador Karl Eikenberry, the
  security and stability, our      U.S. civilian presence in Afghanistan had grown to more than 1,000 people—
                                   more than triple the number present last year. These civilian personnel include
 civil-military teams on the       diplomats, development specialists, and agricultural experts. Ambassador
  ground employ Cash-for-          Eikenberry reported that the U.S. Embassy Kabul has been restructured to
 Work programs to provide          enhance coordination between U.S. civilian organizations and U.S. law
employment opportunities,          enforcement agents in Afghanistan.172
                                      In 2010, both the U.S. government and the GIRoA are focusing their efforts on
jump-start a rural economy,        local governance programs, according to U.S. Ambassador Karl Eikenberry. The
    and demonstrate an             United States provides local assistance through programs managed by Provincial
attractive alternative to that     Reconstruction Teams (PRTs) and District Support Teams (DSTs), both of which
 offered by the enemy. But         are joint civilian-military efforts.173
 stability must be balanced
 against the imperatives of        Provincial Reconstruction Teams
                                   PRTs work to improve security, extend the authority of the GIRoA, and
 sustainable development.”         coordinate reconstruction efforts in provinces. In its program overview, USAID
              —U.S. Ambassador     describes PRTs as the primary means of delivering U.S. and international foreign
              Karl W. Eikenberry   aid outside Kabul, especially in unstable provinces.174
                                      According to ISAF, 27 PRTs operate in Afghanistan. Thirteen are now under
                                   U.S. authority, including the Uruzgan PRT, which previously was managed by
                                   the Netherlands.175 To compensate for the withdrawal of Dutch personnel, U.S.
                                   personnel from the Parwan PRT were transferred to Uruzgan.176 In the past,
                                   Australia provided military support for the Uruzgan PRT; however, when the
                                   Netherlands announced that it would withdraw all troops by the end of 2010,
                                   Australia announced that it would not send additional troops for assignment
                                   to the PRT.177
                                      On July 1, 2010, control of the Parwan PRT was officially transferred from the
                                   United States to the Republic of Korea.178 Other nations responsible for PRTs are
                                   Canada, the Czech Republic, Germany, Hungary, Italy, Lithuania, New Zealand,
                                   Norway, Spain, Sweden, and the United Kingdom.179

                                   District Support Teams
                                   According to ISAF, one of the primary purposes of the DST program is to provide
                                   district-level support for PRT efforts; DST programs aim to build the capacity
                                   of the GIRoA at the district level.180 ISAF’s ideal DST consists of one military
                                   company and three civilians, one each from USAID, DoS, and the Department of
                                   Agriculture. Civilians are stationed with DSTs for 12 to 18 months, establishing
                                   relationships with district-level officials.181
                                       DSTs operate alongside the Afghan Independent Directorate of Local Governance
                                   to implement the District Delivery Program, which aims to improve government ser-
                                   vices in 80 of the country’s 364 districts. Concentrated in southern Afghanistan, these
                                   80 districts have been the focus of the 2010 counter-insurgency campaign.182




                                     76                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




PUBLIC ADMINISTRATION REFORM
The United States has committed support to assist the GIRoA in building its
institutions and resources.183 This section provides information on those institu-
tions and the GIRoA’s progress in increasing their capacity.
   This quarter, the Afghan Civil Service Commission worked to more clearly
define positions in the government. Government positions now have specific
descriptions, performance criteria, and pay and bonus criteria; other formal
procedures have also been established.184

Presidential Cabinet
Since his reelection, President Karzai has faced difficulty in obtaining confirma-
tion of his cabinet nominees from the National Assembly.185 This quarter, the
National Assembly confirmed appointments for an additional seven cabinet posi-
tions.186 As of June 30, 2010, according to DoS, permanent appointments had still
not been made for the following ministries:187
• Communications and Technology
• Higher Education
• Public Health
• Transportation
• Urban Development
• Water and Energy
• Women’s Affairs
   Following the attacks on the Peace Jirga in June, President Karzai accepted
the resignations of the Minister of Interior and the director for National
Security.188 A new Minister of Interior was appointed in time to organize security
for the Kabul Conference on July 20, 2010.189

National Assembly
The members of the Wolesi Jirga are chosen by popular election. Two-thirds of        The Afghan National Assembly has two houses:
the Meshrano Jirga members are chosen by provincial councils, and one-third          •  the Meshrano Jirga, also known as the
                                                                                        House of Elders or Upper House
are chosen by the Afghan president. Therefore, the Meshrano Jirga is often
more likely to support the president’s legislative goals, according to a June        •  the Wolesi Jirga, also known as the House
                                                                                        of the People or Lower House
Congressional Research Service report.190
   This quarter, DoS reported that the strength of the National Assembly has         Source: CRS, “Afghanistan: Post-Taliban Governance, Security,
grown in relation to the power of the Afghan president.191 For example, the          and U.S. Policy,” 6/7/2010, p. 13.

Wolesi Jirga rejected the president’s change to the Electoral Law last quarter,
highlighting its separation from the president’s office. (The Meshrano Jirga
upheld the altered law when it did not schedule a vote on the issue.)192
   Despite its increased strength, DoS reported that the National Assembly contin-
ues to suffer from weak capacity. Both houses have difficulty maintaining a quorum
and are slow to pass legislation. DoS also reported that because the National
Assembly lacks organized political parties, it struggles to organize agendas.193




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        77
GOVERNANCE




Afghanistan Parliamentary Assistance Program
The United States supports the National Assembly through the Afghanistan
Parliamentary Assistance Program (APAP), implemented by the State University
of New York Research Foundation under a contract with USAID.194 According to
USAID, the program’s goal is to improve the National Assembly’s institutional,
technical, and political capacity.195 The program assists the National Assembly in
creating policy documents to enhance capacity. For instance, the APAP is helping
National Assembly staff amend the Parliamentary Code of Conduct, with several
objectives:196
• to create standard measures of behavior to assess the attitudes and
   behaviors of National Assembly members
• to present National Assembly members with materials that provide
   guidelines for the assessment of the performance of assigned duties
• to establish standard reactions to unacceptable behavior
• to assure the public that their representatives are acting in a professional
   manner
   The APAP also is assisting the National Assembly in developing a Parliamentary
Oversight Strategy, which is intended to guide Assembly staff in conducting over-
sight. In addition, the program provides the National Assembly with budgetary
guidance, technical assistance, and public information support, including radio
broadcasts, Web site development, and support on gender-related issues.197

U.S. Support for GIRoA Capacity Development
In 2010, the United States has increased coordination with Afghan institutions
and resources, in order to build the GIRoA’s capacity to meet the needs of the
Afghan people.198 Programs such as the Performance-Based Governors’ Fund and
the Afghanistan Municipal Strengthening Program work to build that capacity.199

Performance-Based Governors’ Fund
As described in SIGAR’s April quarterly report, the Performance-Based
Governors’ Fund works to enhance the power of provincial governments by
providing participating governors with funding for their operating budgets.
According to USAID, the funds are not transferred directly to governors. Instead,
the governors provide budgets to direct where the money should go, and
USAID’s implementing partner distributes the funds to the appropriate party.200
   With this funding, governors can provide needed public services, which will
strengthen their relationships with residents of the provinces.201 This quarter,
USAID reported that all 34 provincial governors received funding from the
Performance-Based Governors’ Fund. Since the first disbursement in March
2010, provincial governors have spent approximately $1.71 million of the avail-
able funds of $2.55 million—about 67%.202




  78               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                     GOVERNANCE




Afghanistan Municipal Strengthening Program
The Afghanistan Municipal Strengthening Program aims to build the capacity of
municipalities throughout the country, according to USAID. Within these cities,
the program focuses on developing services, including water and power manage-
ment, sanitation, safe roads, and youth activities.203
    USAID reported that on June 10, 2010, new contracts for the program were
signed in ISAF Regional Command (RC) South and RC East. As of June 30, USAID
reported that the RCs are working with the Afghan Independent Directorate of
Local Governance to determine which municipalities to target and when to begin
the program.204
    As of June 30, 2010, municipality programming in RC North and RC West was in
procurement. According to USAID, the new Municipal Strengthening Program is
committed to work in 33 provincial capitals. Kabul is the only exception: it will have
its own municipal program, which was also in procurement as of June 30.205
    The original contract for the Municipal Strengthening Program has expired.206
USAID reported that all programming for the 12 municipalities in that program
will cease on August 31, 2010. The original program was active only in cities in
RC South and RC East.207

JUDICIAL REFORM AND RULE OF LAW
The Afghan justice system includes the Afghan corrections system and the                 As a result of illiteracy and isolation, many
court system, both of which receive support from international donors, includ-           Afghans do not understand the legal rights
ing the United States. In his joint statement with President Obama, President            afforded to them under their Constitution.
Karzai underscored the importance of improving formal justice in Afghanistan.            Source: INL, response to SIGAR vetting, 7/20/2010.

He pledged to increase the accessibility and capacity of the justice system, as a
means of combating corruption and strengthening the GIRoA.208
   In a report issued this quarter, DoS noted that the United States has also
increased support for the informal justice sector in 2010.209 The IWA survey
                                                                                           Shura: consultative council of elders
report released this quarter showed that Afghans have limited trust in the formal
                                                                                           in a community
justice system. According to the survey report, corruption prevented 50% of
                                                                                           Mullah: religious leader educated in
Afghan households from resolving legal issues within the formal justice system.
                                                                                           theology and Islamic law
As a consequence, these households turned to informal channels, including local
shuras and mullahs.210
                                                                                         Source: IWA, “Afghan Perceptions and Experiences of
                                                                                         Corruption: A National Survey 2010,” 7/7/2010, p. 12.
Court System
The Afghan court system differs greatly from the U.S. system, according to INL,
in that it is based on civil law instead of common law. The Afghan Constitution,
which is based on religious doctrine, mandates that no secular law can contra-
dict Islamic law. INL reported that the Afghan justice system generally prioritizes
compensating victims rather than punishing offenders.211
   Unlike the United States which has state and federal courts, Afghanistan has
only a national court system. It has three levels: primary courts, appellate courts,




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010          79
                                                            GOVERNANCE




                                                            Members of the Supreme Court gather in June at the Jalalabad Court House for continuing
                                                            legal education. Such education helps judges and lawyers keep up to date on the latest
                                                            changes to Afghan law. (U.S. Army photo, SPC Richard Daniels, Jr.)


      “Fighting corruption                                  and the Supreme Court. According to INL, the Supreme Court is the head of the
                                                            court system; however, the term “Supreme Court” can have multiple meanings
    and supporting the rule                                 in Afghanistan:212
      of law in Afghanistan                                  • Because Afghanistan has only a national system, all judges within the Afghan
   are top priorities for this                                 court system work for the Chief Justice and can therefore be considered
    Administration, and we                                     members of the Supreme Court. By this definition, which DoS used in its
                                                               “2008 Country Report on Human Rights Practices,” there are 1,531 Supreme
     will continue to assist                                   Court judges, as of June 30, 2010.
    the Afghan government                                    • Because either party involved in a court case can appeal, the Supreme Court
    in creating and sustain-                                   employs enough judges to process the high volume of appeals within the
   ing the effective criminal                                  system. By this definition, which DoS used in its 2009 edition of the human
                                                               rights report, there are 77 Supreme Court judges, including 7 women.
    justice system to which
                                                             • Afghanistan’s high-level Supreme Court hears cases and acts as an adminis-
     the Afghan people are                                     trative authority for all the judges in the country. By this definition, there are
            entitled.”                                         9 Supreme Court judges.
                     —U.S. Attorney General                    Compared with other countries that have systems based in civil law,
                                Eric Holder                 Afghanistan is unique in that it has no investigative judges. Instead, it has investi-
Source: U.S. Embassy Kabul, “Attorney General Travels
                                                            gative prosecutors who have strong subpoena power, without court oversight. As
to Afghanistan for Meetings with U.S., Afghan Officials,”
6/30/2010.
                                                            of June 30, 2010, there were 2,421 prosecutors in the court system, an increase
                                                            of approximately 336 prosecutors from 2009. There were also approximately 970
                                                            defense attorneys in Afghanistan, an increase of about one-third from 2009.213




                                                              80                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                     GOVERNANCE




Criminal Procedure Code
According to INL, no policies have been instituted to improve the criminal
procedure code (CPC) in 2010. Although it was scheduled for revision in 2009,
the release of the updated CPC has been delayed so that international commu-
nity experts can review and comment on the draft. INL reported that the release
was also delayed because anti-corruption laws became a higher priority. There
is no indication of when the Ministry of Justice (MoJ) will update the revision
schedule; however, the minister is currently reviewing the CPC draft.214

U.S. Justice Sector Support Program
Established in 2005, the JSSP has focused on developing and strengthening the            The U.S. Corrections System Support
capacity of the institutions in Afghanistan’s criminal justice system. The program       Program (CSSP) is the primary U.S. program
also supports coordination between defense lawyers and others in the criminal            supporting the Afghan corrections system.
justice system.215                                                                       Managed by INL, the CSSP works directly
   As of June 30, 2010, the JSSP had 77 lawyers working in Afghanistan—38 Afghans        with the Afghan Central Prison Directorate
                                                                                         (CPD) to improve living and working stan-
and 39 Americans. According to INL, which funds the program, the JSSP received a
                                                                                         dards in the prison system.
new task order this quarter. With the funding from the task order, INL plans to add
an additional 81 lawyers—55 Afghans and 26 Americans—by fall 2010.216                    Source: INL, “Afghanistan Program Overview: CSSP,” accessed
                                                                                         online 7/7/2010.
   In June 2010, the JSSP hosted a provincial justice conference in Logar, one in a
series of conferences at which high-level figures from the Kabul justice system work
with provincial justice leaders to identify and prioritize the needs of the province’s
justice system.217 Approximately 75 members of the justice system attended the
Logar conference.218 INL reported that it conducts provincial justice conferences in
those provinces where it does not have a permanent presence.219

Corrections System and Prison Reform
In his joint statement with President Karzai, President Obama reaffirmed the
U.S. commitment to begin transitioning U.S.-managed Afghan detention centers
to GIRoA control. The first transfer, in Parwan, is set for January 2011. According
to the joint statement, successful transition to Afghan control would be an impor-
tant milestone in meeting President Karzai’s inaugural commitment to assume
complete responsibility for detention centers.220
    As of June 30, 2010, there were a total of 17,169 prisoners in Afghanistan,
including 15,902 individuals in provincial prisons (12,263 convicted prisoners and
3,639 detainees), and 1,267 detainees in district detention centers.221 According to
INL, the Afghan court system has no parole provisions; as a result, prison popula-
tions have increased exponentially.222
    The corrections system in Afghanistan consists of two types of facilities:
detention centers and prisons. Ministry of Interior (MoI) detention centers are
managed by the Afghan National Police. After their arrest, alleged criminals are
first imprisoned in MoI detention centers. The detainees are then transferred to
MoJ detention centers while awaiting trial. If convicted, detainees are then trans-
ferred to a provincial prison for long-term incarceration; prison facilities are also
managed by the MoJ.223




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010           81
                                                       GOVERNANCE




                                                          Some buildings being used to detain or imprison Afghans were not designed
                                                       as prisons, according to the Afghanistan Independent Human Rights Commission
                                                       (AIHRC). It found that in seven provinces, no prisons or detention centers had
                                                       been constructed at all; instead, provincial governments had rented buildings to
                                                       use in this capacity. The General Department of Prisons and Detention Centers
                                                       plans to build several new prisons and centers every year, in an attempt to reduce
                                                       the number of ordinary buildings being used for this purpose.224

                                                       Support for the Corrections System
                                                       In addition to U.S. support through the U.S. Corrections System Support
                                                       Program (CSSP), international support for the Afghan corrections system is
                                                       provided by the United Kingdom, Canada, Italy, the European Union, the UN, and
                                                       the International Committee of the Red Cross.225 Specific international support
                                                       efforts are highlighted in this section.
                                                          According to INL, the United Kingdom trains detention center officers at the
                                                       facilities of the National Directorate of Security.226 In 2008, it worked with the
                                                       CPD in Helmand to regain control of Lashkar Gah prison from insurgent pris-
                                                       oners. The United Kingdom also funded the renovation of Lashkar Gah prison,
Afghan women play volleyball in a Herat
correctional facility, which has the capac-
                                                       which was completed in October 2009.227
ity to hold up to 110 detainees and their                 Canada provided assistance by renovating Kandahar’s Sarposa prison and
children. (UNAMA photo)                                providing training and mentoring opportunities for the prison staff. In addition,
                                                       Canada refurbished the CPD Kabul Headquarters.228
                                                          Italy provided support for the Afghan corrections system by funding the
                                                       construction of the new women’s prison in Herat and cell blocks in the Gardez
                                                       prison. Italy also funded the construction of the Juvenile Rehabilitation Center
                                                       and Female Prison and Detention Center in Kabul.229
FIGURE 3.27

 CONVICTS IN PROVINCIAL PRISONS,                       Provincial Prisons
 AS OF JUNE 30, 2010                                   Of the 12,263 convicts in provincial prisons, 11,846 are men, and 417 are women.
                                                       As of July 10, 2010, the provincial prisons in Kabul and Herat housed the highest
                                                       populations of convicts, as indicated in Figure 3.27.230
                                                          This quarter, the CSSP instructed and assisted Afghan records staff in reor-
                                                       ganizing Pol-i-Charkhi and Kabul Female Detention Facility prisoner files. Prior
                                                       to the reorganization, prisoner files were stored at sites throughout the facili-
                                                       ties, with no standard file maintenance protocol. Now all files at Pol-i-Charkhi
                                                       are centrally located, which makes it possible for trained staff to maintain files
                                             0–20
                                             30–99
                                                       properly. This ensures that the prison has current commitment orders, confirms
                                             100–399   release dates, and enables prisons to transfer files to other facilities when they
                                             400–999
                                                       transfer prisoners.231 For information about the treatment of prisoners in Afghan
                                             1,000+
                                                       prisons and detention centers, see the “Human Rights” discussion in this section
                                                       of the report.
Source: INL, response to SIGAR data call, 7/10/2010.




                                                         82               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE



                                                                                        FIGURE 3.28


District Detention Centers                                                              DETAINEES IN DISTRICT DETENTION
Each Afghan district is required by law to have a police detention center, managed      CENTERS, AS OF JUNE 30, 2010
by the Afghan National Police under the MoI. According to INL, detainees are to
remain in police detention centers for no longer than 72 hours while the police
investigate the alleged crimes. If the allegation is sustained, detainee cases are
turned over to the Attorney General’s Office for prosecution, and the detainees are
transferred to a MoJ district detention center.232
   By Afghan law, detainees are to remain in MoJ district detention centers for
only 15 days, though 15 additional days can be requested. During that period, the
Attorney General’s Office investigates the case, according to INL.233                                                                  0
   U.S. support for improving the prison system has focused on MoJ facilities                                                          1–20
                                                                                                                                       21–60
because they house most of the prisoners and hold people longer than the MoI’s
                                                                                                                                       61–260
police detention centers. This quarter, INL reported that before June 2010, no                                                         No Detention
single organization had worked with the police to improve detention centers. Over                                                      Centers

the next year, INL plans to assess the conditions of police detention centers.234
                                                                                        Notes: Kabul does not have district detention centers; it has
   Figure 3.28 shows the distribution of detainees in district detention centers        gender-specific provincial detention centers. As of 7/10/2010,
                                                                                        the Kabul Female Prison and Detention Center held 143
throughout the country. If no detention centers are available (as is the case in 7 of   women—104 convicts and 39 detainees. The Kabul
                                                                                        Detention Center held 409 men, all detainees. An additional
the 34 provinces), detainees are typically held in provincial prisons with convicted    55 male detainees were being held at the Counter-Narcotics
criminals.235 Figure 3.29 shows the proportions of detainees relative to convicts in    Justice Center.
                                                                                        Source: INL, response to SIGAR data call, 7/10/2010.
the provinces that hold the highest numbers of detainees in prisons.

                                                                                        FIGURE 3.29
HUMAN RIGHTS
Afghanistan continues to face human rights challenges. In addition to dealing           INMATES IN SELECT PROVINCIAL PRISONS,
with issues related to displacement, Afghans struggle with issues of gender             AS OF JUNE 30, 2010 (PERCENT)
equity and religious freedom.236 The GIRoA also continues to have difficulty
meeting international standards in the treatment of prisoners.237 This section
provides an overview of the status of human rights issues in Afghanistan.                    Herat        23% 77%

                                                                                             Kabul 9% 91%
Treatment of Prisoners in the Corrections System
                                                                                         Kandahar                 40% 60%
This quarter, INL reported that conditions in Afghan prisons were improv-
ing; however, there were still many reports of poor conditions. For instance,               Ghazni                                75% 25%
in a May 2010 report, DoS stated that the Afghan corrections system was still
                                                                                        Nangarhar        18% 82%
holding prisoners past the expiration of their sentences. The United States is
working with the AIHRC to identify and release these prisoners.238                        Uruzgan                                      84% 16%
   In a June 2010 report, the AIHRC noted that Afghan prison and deten-
                                                                                            Takhar           31% 69%
tion center buildings do not meet the standards required by the European
Committee for the Prevention of Torture and Inhuman or Degrading Treatment                   Farah           31% 69%
or Punishment, which sets international standards for prison conditions. The             Helmand         19% 81%
Committee stated that a cell measuring 5.5 m2 is barely acceptable for short-
term detention of one person—and inadequate for long-term incarceration.239              Laghman                   42% 58%

   The Afghan Law of Prisons and Detention Centers does not mandate a                                0       20        40       60        80       100
specific amount of space for each person, despite the suggestions of the
Committee. The law stipulates only that the MoJ take measures to ensure that                                      Detainees          Convicts
detainees and convicts have “enough” space.240 The AIHRC found that the                 Source: INL, response to SIGAR data call, 7/10/2010.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010          83
                                                               GOVERNANCE




                                                               space available was insufficient for the number of detainees and convicts in
                                                               the system.241 As shown in Figure 3.30, many provincial prisons fail to meet this
                                                               minimal standard. In fact, seven of the provincial prisons depicted have five or
                                                               more people crowded into the recommended space for one inmate.
                                                                  As a result of the overcrowding, many facilities cannot segregate convicted
                                                               criminals from detainees. In 24 of the 34 provinces, younger detainees and
                                                               prisoners (ages 18 to 25) are not separated from older convicts.242 Segregation of
                                                               men from women is fairly consistent throughout the provinces, according to the
                                                               AIHRC. Where women do not have separate facilities, they are held separately
                                                               from men. In Kabul prisons, however, the AIHRC reported that male guards are
                                                               sometimes used to monitor female inmates.243
                                                                  As of May 2010, the United States was in the planning stages of implementing
                                                               a program of small grants to support women and children in prisons. The grants
                                                               are expected to be used to implement a comprehensive support plan for these
                                                               inmates. The plan will include training and support for corrections officers (male
                                                               and female) who deal with female inmates and their children.244
                                                                  The AIHRC was unable to conduct a systematic review of all Afghan prisons
                                                               and detention centers because of technical and logistic difficulties, and problems
                                                               accessing the centers. In each review, the AIHRC found that information was
                                                               missing, particularly in district detention centers.245


FIGURE 3.31                                                    Refugees and Returnees
                                                               At the July 20 Kabul Conference, President Karzai urged the GIRoA and the
AFGHAN RETURNEES, 2010                                         international community to assist Afghan refugees in their “voluntary, safe, and
                                                               gradual return.” This quarter, the UN High Commissioner for Refugees (UNHCR)
                         UZBEKISTAN                            noted that since the start of 2010, it had helped approximately 85,040 Afghans
                                              TAJIKISTAN       return home.246 Figure 3.31 shows the number of returnees from neighbor-
          TURKMENISTAN
                                                               ing countries. Interviews with returnees revealed that many were harassed by
   IRAN
                                                               authorities in Iran and Pakistan, and economic conditions in both countries had
                     81,044                                    worsened.247
                     from Pakistan
                                                                  Although many Afghan refugees have returned, the UNHCR estimated that
                   3,964                  PAKISTAN             approximately 1.7 million still resided in Pakistan, and more than 1.0 million in
                   from Iran                                   Iran, as of July 20, 2010. Approximately 97% of refugees in Iran reside in urban
                                                               or semi-urban settlements. The number of refugees strains local infrastructure,
                                                               including health care and education systems.248 According to DoS, UNHCR
                                                               programs for 2010 will work to improve water and shelter services for returnees.
Note: The UNHCR reported an additional 32 returnees from
the Russian Federation and India.
                                                               Repatriation plans focus on community-based initiatives that promote coop-
Source: UNHCR, “Voluntary Return to Afghanistan,” 7/14/2010.   eration between communities and new returnees, and mitigate conflict over
                                                               resources.249
                                                                  For FY 2010, the United States has pledged $37.5 million to support UNHCR
                                                               repatriation programming and other nongovernmental organization aid for
                                                               returnees. The United States provides additional support for Afghan refugees
                                                               and returnees through other international organizations, such as the World Food
                                                               Program. The United States also provides support for Afghan returnees through
                                                               programs in Afghanistan.250



                                                                 84               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                GOVERNANCE



FIGURE 3.30


OVERCROWDING IN SELECTED PROVINCIAL PRISONS, 2010:
Number of Inmates per 5.5m2 of Space

     FARYAB 4.6               JOWZJAN 3.4              BALKH 11.0            SAMANGAN 3.4              KUNDUZ 5.5            BAGHLAN 5.5              TAKHAR 7.7           BADAKHSHAN 8.3




                                                                     JOWZJAN                          KUNDUZ              BADAKHSHAN
                                                                                     BALKH                       TAKHAR


                                                                                           SAMANGAN                                                            INTERNATIONAL
                                                      FARYAB                                             BAGHLAN                                                 STANDARD
                                                                      SAR-E PUL                                                                                5.5 m2
                                                                                                      PANJSHIR NURISTAN
                                         BADGHIS
                                                                                                PARWAN KAPISA      KUNAR
                                                                                     BAMYAN              LAGHMAN
                                                                                                     KABUL
                                                                                            WARDAK
                                                                                                             NANGARHAR                                        Minimum acceptable
                      HERAT
                                                     GHOR                                                 LOGAR                                                one-person space
                                                                       DAYKUNDI                              PAKTIYA
                                                                                            GHAZNI                  KHOWST


                                                                  URUZGAN
                          FARAH
                                                                                                       PAKTIKA
                                                                                   ZABUL




                        NIMROZ
                                          HELMAND
                                                             KANDAHAR




     NIMROZ 4.6                GHOR 5.5              KANDAHAR 2.1             DAYKUNDI 4.6             BAMYAN 5.5             KHOWST 4.6            NANGARHAR 4.8

Notes: Numbers are averages. Minimum acceptable one-person space (5.5 m2) determined by the European Committee for the Prevention of Torture and Inhuman or Degrading Treatment or Punishment.
Source: AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, pp. 7–8.




                    REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2010                      85
                                  QUARTERLY HIGHLIGHT




MINORITY VOICES IN                                              must accept the entire Constitution, particularly
                                                                protections for human rights and women’s equality.
AFGHANISTAN                                                     As Holbrooke stated, “Our position on this last point
                                                                is unambiguous. Afghan-led peace efforts must not be
                                                                a vehicle for reversing the progress of Afghan women
                                                                and girls since 2001.”254
Many minorities in Afghanistan continue to experience
                                                                   From 2003 to 2010, the Congress earmarked
persecution within their own country. This highlight
                                                                $627 million for USAID and DoS programs to sup-
presents a glimpse of the state of gender equity and
                                                                port Afghan women and girls. According to DoS,
religious freedom in Afghanistan for this quarter. It also
                                                                these funds were set aside in recognition of the
examines political representation of these groups.
                                                                concern that without greater attention to gender
                                                                issues, Afghanistan’s ability to achieve broad eco-
GENDER EQUITY                                                   nomic growth and democratic development would be
According to DoS, the lives of Afghan women are
                                                                “sharply reduced.” In 2010, the Congress provided an
improving in some areas: girls have more educational
                                                                additional $175 million for women and girls.255
opportunities, and more health care facilities employ
                                                                   This quarter, SIGAR released an audit on the
female health care workers to interact with women.
                                                                earmarked funds which found that DoS and USAID
DoS nonetheless emphasized that much work
                                                                did not coordinate their reports on their use of
remains to be done to help women attain political,
                                                                funds. SIGAR determined that DoS and USAID took
economic, and social empowerment.251 U.S. pro-
                                                                action to coordinate gender-related programming in
gramming empowers women across sectors, which
                                                                Afghanistan; however, DoS did not develop guidelines
includes expanding their access in key areas:252
                                                                or rationales for determining and reporting earmark
  economic opportunities (particularly in the
                                                                attributions. In addition, DoS and USAID did not
   agriculture sector)
                                                                connect U.S.-funded programs with Afghan goals
  justice services
                                                                and benchmarks in the National Action Plan for the
  health services and education
                                                                Women of Afghanistan—a crucial linkage in deter-
  political participation opportunities
                                                                mining how U.S. funding addresses the documented
   The United States also manages a program of                  needs of Afghan women and girls.256
small grants aimed at strengthening women’s roles
in civil society. As of May 2010, these grants were             RELIGIOUS FREEDOM
supporting women’s groups that advocate passing                 Approximately 99% of Afghans consider themselves
and enforcing women’s rights legislation, including             Muslim—80% Sunni and 19% Shiite. The remaining
the Elimination of Violence Against Women Act. The              1% includes 500 to 8,000 Christians, approximately
grants will also focus on empowering women within               3,000 Sikhs and Hindus, some 400 Baha’is, and
the justice system by providing local defense attor-            1 who identifies himself as Jewish. Afghanistan
neys, prosecutors, and law enforcement officers with            has no Christian or Jewish schools.257 According to
specialized training about violence against women.              DoS, religious freedom remains a struggle for non-
The United States is also funding women’s shelters in           Muslims, who continue to face discrimination and
Kabul, Faryab, and Badghis.253                                  persecution.258
   As discussed at the beginning of this section, the              This quarter, DoS reported that two Afghan citizens
GIRoA and the international community are empha-                were arrested on charges of proselytizing even though
sizing reintegration in 2010. To meet reintegration             the Afghan Criminal Code does not define religious
requirements, former insurgents must accept the                 conversion as a crime, and the Afghan Constitution
Afghan Constitution. In a statement this quarter,               forbids the punishment of a citizen for crimes that are
Ambassador Holbrooke emphasized that insurgents                 not defined in the criminal code. However, Article One



                                       86                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         QUARTERLY HIGHLIGHT




TABLE 3.5


IEC ACTIONS TO ENCOURAGE MINORITY AND FEMALE NOMINEES, 2010
Assisting Organization                Activity
Ministry of Women’s Affairs           The IEC held several high‐level meetings and phone conferences with the ministry to address the low numbers
                                      of female candidates. The ministry also drew on its provincial networks to identify and reach out to potential
                                      women applicants.
Supreme Council of Ulema, Shuras,     The IEC met with representatives of these organizations, who sent out nomination messages to their local
and the Ministry of Hajj              branches in provinces with low numbers of candidates.
Ministry of Culture and Information   The IEC communicated daily with ministry officials and members in provincial offices. The IEC also contacted the
                                      Afghan Women’s Network and civil society groups to reach potential women applicants through their local networks.
Kuchi Shura                           The IEC had several meetings with Kuchi Shura representatives to address the low numbers of Kuchi candidates.
                                      The representatives used provincial Shuras to reach out to Kuchi applicants and to motivate the Shuras to nominate
                                      candidates. In addition, the IEC liaised with current Kuchi members of the National Assembly to facilitate higher
                                      female participation within the Kuchi constituency.
Youth Association of Afghanistan      The IEC coordinated closely with this association, which is believed to have one of the strongest grassroots
                                      support bases in the country. Its support resulted in several women applicants in provinces where women were
                                      poorly represented.
Media Organizations                   Two radio and two television announcements were produced and broadcast daily through four television and
                                      six radio channels from April 13 to May 4, 2010.
Source: IEC, “Candidate Nomination: Female Candidates,” 5/17/2010.



of the Penal Code states that Hudud crimes—serious                                 were particularly under-represented in the central
crimes against Islamic penal codes—are to be pun-                                  highlands, as well as in the south and southeast. In
ished in accordance with religious law. DoS reported                               response, the IEC launched a campaign to encourage
that under some interpretations of this religious law,                             participation. Four factsheets with general informa-
apostasy is punishable by death.259                                                tion about the Wolesi Jirga were delivered to all IEC
    In addition, the Ministry of the Economy (which reg-                           provincial offices for distribution in provincial capitals
ulates nongovernmental organizations in Afghanistan)                               and nearby districts.262 Additional programming devel-
suspended two Christian organizations after an                                     oped in association with other Afghan organizations is
Afghan media outlet accused them of proselytizing.                                 listed in Table 3.5.
If the ongoing investigation finds these organizations                                 According to DoS, U.S. support for the National
guilty, they will be referred to law enforcement agen-                             Assembly includes specific programming for minor-
cies. The organizations have denied any wrongdoing,                                ity and underprivileged representatives, particularly
and DoS reported that the organizations are cooperat-                              women and the Kuchi minority group. U.S. program-
ing with the GIRoA.260                                                             ming aims to include these groups in all development
    In the past year, the GIRoA has done little to                                 events organized by the National Assembly. In May
improve religious freedom, according to DoS. DoS                                   2010, a DoS report stated that women are consis-
attributed the government’s inaction to the residual                               tently demonstrating increased participation in the
effects of Soviet occupation, civil strife, Taliban rule,                          National Assembly.263
suspicion of outsiders and foreigners, and weak                                        According to the IWA survey released this quarter,
democratic institutions.261                                                        31% of Afghans relied on a shared ethnic heritage to
                                                                                   build relationships with corrupt government officials
POLITICAL REPRESENTATION                                                           in 2009—an increase from the 14% of Afghans who
At the start of the nomination process for the 2010                                used this tactic in 2007. According to the survey, 46%
elections, minority and female participation was                                   of civil servant respondents believed that ethnic favor-
lower than the IEC had anticipated. These groups                                   itism was prevalent in corruption exchanges.264




                  REPORT TO THE UNITED STATES CONGRESS             I   JULY 30, 2010                     87
TITLE OF THE SECTION




 88    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  This quarter, Afghanistan continued to enjoy mostly favorable macroeconomic
  conditions, including solid growth in gross domestic product (GDP) and a mild
  rate of inflation.265 These conditions follow a record-setting year (2009/10) in
  which the economy (excluding opium) grew by an estimated 22.5%, according
  to the most recently updated statistics from the International Monetary Fund
  (IMF).266 The World Bank noted that this is the highest annual rate of growth
  since reconstruction began; last year’s record agricultural production was a
  major driver of this growth.267
     Growth in the overall economy, however, remains unbalanced. World Bank                     Unbalanced growth: The World Bank reported
  analyses show that legal exports remain low compared with imports and                         that donor assistance currently accounts for
  assistance from international donors.268 In fact, data from the Afghan Central                approximately 45% of Afghanistan’s GDP, and
  Statistics Office for the first three quarters of 2009/10 suggests that the value of          legal exports account for 5%.
  total exports (including dried fruit and carpets) may have fallen by as much as
                                                                                                Source: World Bank, “World Bank South Asia Economic Update
  40% from the previous year.269 Cash inflows from international donors increased               2010,” 6/6/2010, p. 57.

  three times as much as the decline in exports.270




  An Afghan salesman displays his inventory of Afghan carpets. Connecting domestic industries
  with international markets is a key goal of the U.S. stabilization strategy in Afghanistan.
  (ISAF “Why Afghanistan Matters” photo contest, submitted by Alida Bata)



                REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2010            89
ECONOMIC AND SOCIAL DEVELOPMENT




   At the July 20 Kabul Conference, the GIRoA provided a detailed plan of its
priorities for accelerating economic growth and development over the next three
years. The plan recognized the crucial role that Afghanistan’s mineral and hydro-
carbon resources could play as an engine of growth and revenue generation.
As part of the Kabul Process, the GIRoA also acknowledged the importance of
removing constraints to private-sector investment in order to stimulate growth.
The GIRoA’s plan emphasized a number of priorities, including the following:271
• large-scale environmentally friendly infrastructure projects to develop
   Afghanistan’s mineral resources
• a national energy supply program to meet increasing demand for domestic
   and imported energy
• large-scale irrigation projects, as well as water management, land manage-
   ment, and rural energy development projects
• a nationwide road-construction and maintenance program to better connect
   farmers with markets
• a program to enhance the employability of Afghan youth and young adults
   by identifying skills in demand in the market and partnering with the private
   sector to offer literacy, technical, and vocational education

LEADING INDICATORS
This section provides details on the growth, inflation, and exchange rate trends
in Afghanistan this quarter.

GDP/Economic Growth
The World Bank has estimated that Afghanistan’s GDP growth will continue to be
positive for the current solar year (March 20, 2010–March 21, 2011); it is averag-
ing about 8% annually.272 On a note of concern, however, the World Bank estimated
that Afghanistan’s industrial growth last year lagged behind previous years. This
was due primarily to relatively lower growth rates in Afghanistan’s manufacturing
and construction sectors.273 The decline in manufacturing and construction growth
rates coincided with the government’s low rate of spending of its core develop-
ment budget, which reached only 40% in 2009/10.274 It also coincided with last year’s
decline in foreign direct investment in Afghanistan. Foreign direct investment in
Afghanistan fell by 40% last year after several years of modest growth, according to
the Economist Intelligence Unit.275 On a positive note, Afghanistan’s mining sector
grew by 30% in the last two years and is expected to continue to grow this year.276
   In a reform-related development this quarter, the IMF and the GIRoA reached
an agreement on a three-month extension (until September 25, 2010) of the
Three-Year Arrangement under the Extended Credit Facility.277 This IMF pro-
gram provides a $120 million low-cost loan to Afghanistan on the condition that
key economic and structural reforms are implemented.278 A major long-term
objective of this loan program is to help Afghanistan develop the capacity to
collect higher domestic revenues so it can reduce its dependence on foreign aid,
according to the IMF.279




  90                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    In the letter requesting the loan extension, the officials stated that the GIRoA   On July 22, 2010, the U.S. government
 expected to complete most of the structural reforms required under the IMF            signed an agreement cancelling 100% of
 program by mid-July 2010, with two exceptions:                                        Afghanistan’s existing debt ($180 million)
  • the comprehensive financial review of the state-owned fuel company                 with the United States. The U.S. Ambassador
  • the implementation of a new business model for border controls                     to Afghanistan noted that debt relief is
                                                                                       critical because it allows the GIRoA to
 The officials noted that implementation of these reforms has been delayed by
                                                                                       spend more of its resources on programs
 the lag in appointments, technical difficulties, and the complexity of the issues
                                                                                       to help the Afghan people.
 involved. The letter committed the GIRoA to include these two key reforms in
 the arrangement negotiated with the IMF.280                                           Source: DoS/U.S. Embassy Kabul, press release, “United
                                                                                       States, Afghanistan Sign Debt Relief Agreement,” 7/22/2010.


 Inflation
 In April 2010, the World Bank reported that when final data is available, it will
 likely show that Afghanistan experienced disinflation of approximately -12% last
 year.281 This disinflation was due primarily to falling food prices, which account
 for 28% of the goods and services that constitute the Consumer Price Index.282
 The World Bank reported that disinflation appeared to have ended in December
 2009 and that food prices were rebounding.283 World Bank analysts predicted that
 inflation will average a relatively modest 5% in 2010/11.284

 Exchange Rate
 According to data provided to the World Bank by the Da Afghanistan Bank, the
 Afghani appreciated about 3% (in nominal terms) against the U.S. dollar in 2009
 before leveling off late in the year.285 The World Bank reported that the Afghani
 also appreciated last year against the currencies of other major trading part-
 ners and appears to be valued fairly.286 That development is significant because
 an overvalued currency can negatively impact domestic industries by making
                                                                                         Hawala: Afghanistan has an extensive,
 exports more expensive and encouraging higher levels of imports, according to
                                                                                         informal financial system known as
 the Economist Intelligence Unit.287
                                                                                         Hawala, which is based on a network
                                                                                         of money brokers called Hawaladars.
 BANKING                                                                                 For centuries, Hawala practitioners have
 The Afghan banking sector is growing and deposits continue to outpace loans,            provided a wide range of financial services
 according to the World Bank. Official GIRoA statistics indicate low vulnerability       including sending remittances abroad,
 in the sector as non-performing loans continued to decline from March 2006 to           money exchanges, and micro-finance.
 December 2009. In April 2010, however, World Bank analysts urged caution in             Whereas banking transactions leave a
 using official statistics to evaluate the health of Afghan banks because of con-        paper trail, Hawala transactions can be
                                                                                         placed anonymously without revealing
 cerns about loan-classification standards, the lack of supervisory capacity, and a
                                                                                         the identity of the remitter or the source
 general lack of transparency.288
                                                                                         of the funds, according to a 2003 World
    This quarter, in response to concerns about large amounts of cash being              Bank study.
 moved out of the country, the Minister of Finance publicly called for an inter-
 national investigation into the Hawala banking system.289 Previously, in April
 2010, DoD reported to the Congress that a joint U.S.-Afghan team raided seven         Sources: World Bank, “The Money Exchange Dealers of Kabul:
 Hawalas that were actively involved in transferring money to insurgents.290 As        A Study of the Hawala System in Afghanistan,” 6/2003, pp.
                                                                                       1–8; DoD, “Report on Progress Toward Security and Stability in
 a result of these raids, the report noted that the United States identified several   Afghanistan,” 4/2010, p. 21.




              REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010         91
ECONOMIC AND SOCIAL DEVELOPMENT




money laundering networks with direct links to insurgent groups, narcotics traf-
fickers, and corrupt government officials. In a related effort, three branches of a
Kabul-based money exchange were searched in January 2010.291

FISCAL SUSTAINABILITY
Improving the fiscal sustainability of the GIRoA is a key economic development
goal of the Afghanistan and Pakistan Regional Stabilization Strategy and the
Kabul Conference participants.292

Revenue Collection
Since 2006, the GIRoA has made progress in increasing the amount of revenue it
collects domestically. Figure 3.32 provides a preliminary, unofficial estimate of
GIRoA revenue collection from 2006/07 to 2009/10, in Afghanis and dollars.
   This quarter, the World Bank and the U.K. Department for International
Development released a 2010 public expenditure review of the GIRoA. They
found that although the GIRoA has increased revenue collection, progress
toward fiscal sustainability remains a challenge.293
   The GIRoA’s revenue collection in 2009/10 surged by 53% over the previous
year, according to the World Bank’s most recent Southeast Asia economic
update.294 At the same time, however, the World Bank’s public expenditure review
found that public expenditures—especially for the security forces—continued


FIGURE 3.32

ESTIMATED DOMESTIC REVENUE COLLECTION, 2006/07–2009/10 (Af BILLIONS, $ BILLIONS)

                                                                                    Af 63.3a
                                                                                    ($1.41)

 60


 50                                                             Af 41.4
                                                                ($0.91)
 40                                           Af 33.4
            Af 28.8                           ($0.73)
            ($0.62)
 30


 20


 10

  0
           2006/07                           2007/08            2008/09            2009/10

Notes: Figures are preliminary estimates. Af 45 = $1.
a. Projected figure, as of 4/10/2010.
Sources: Ministry of Finance; Da Afghanistan Bank.




   92                          SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 TABLE 3.6


 PROJECTED ANSF EXPENDITURES, 2008/09–2023/24
                                                          2008/09a             2013/14             2018/19            2023/24
 Expenditures by Security Force ($ BILLIONS)
 ANAb                                                           $3.2                 $3.8                $5.0              $6.5
       c                                                        $1.5                 $1.7                $2.1              $2.7
 ANP
 Total                                                         $4.7                 $5.5                $7.1               $9.2

 Expenditures Relative to Revenues (PERCENT)
 ANSF Expenditures as a Share of Projected
 GIRoA Domestic Revenues                                       449%                 270%                195%              154%
 Notes: Numbers affected by rounding. Includes operating and investment expenditures.
 a. Estimated actual.
 b. World Bank Manpower Level Assumptions: ANA strength increases to 240,000 by 2012/13; ANP strength increases to 160,000
 by 2013/14. These differ from the troop levels agreed to at the January 2010 London Conference, which were 171,600 for the ANA
 and 134,000 for the ANP by October 2011.
 c. Macroeconomic assumptions: Afghanistan’s long-term GDP growth rate averages 6% annually; inflation decreases to 3% in 2012/13
 and beyond; GIRoA domestic revenue rises to 13% of GDP by 2028/29.
 Sources: World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Security Sector,” pp. 23–24; DoD, “Report on Progress
 Toward Security and Stability in Afghanistan,” 4/2010, pp. 104, 115.




 to rise and outpace revenues.295 Table 3.6 shows World Bank projections of ANA                                                     The World Bank defines fiscal sustainability
 and ANP expenditures (in billions of dollars and as a percentage of domestic                                                       in Afghanistan as the point at which the
 revenues) for 2008/09 through 2023/24. According to these projections, annual                                                      GIRoA collects enough revenue to cover its
 spending on security forces alone will likely exceed total domestic revenue col-                                                   operating expenses. From 2003/04 through
 lection for the foreseeable future.296 The World Bank concluded that Afghanistan                                                   2008/09, wages and salaries of govern-
                                                                                                                                    ment employees consumed 66% of the
 will require sustained external support for some time if it is to maintain the ANA
                                                                                                                                    GIRoA’s operating expenses. According to
 and ANP force levels specified in the public expenditure review.297
                                                                                                                                    the World Bank, more than 500,000 people
    Salaries for teachers and other education personnel are the second major                                                        work for the GIRoA; more than 80% are
 component of the GIRoA operating budget, according to the World Bank public                                                        either security force members or teachers.
 expenditure review.298 The review concluded that spending on education must
 increase 180% in constant terms in order to achieve the Millennium Development                                                     Source: World Bank/DfID, “Afghanistan Public Expenditure
                                                                                                                                    Review 2010: Public Expenditure Trends and Fiscal
 Goal of full primary school participation by 2020.299                                                                              Sustainability,” pp. 2, 9.



 Capacity Building
 At the London and Kabul conferences, international donors welcomed the
 GIRoA’s commitment to assume greater financial responsibility for its affairs.300
 Donors acknowledged, in principle, the GIRoA’s request to channel more devel-
 opment funds through the Afghan central government if reforms were made
 and corruption reduced.301 This quarter the GIRoA presented proposals for
 an Afghan-led development agenda to the Joint Coordination and Monitoring
 Board and at the Kabul Conference and requested that donors align funding
 with these initiatives.302
    The World Bank noted that although the GIRoA has made progress on
 public financial management reforms, it faces a significant gap in its capacity
 to administer public expenditures.303 For example, the World Bank’s public
 expenditure review reported that the GIRoA was able to disburse




                    REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2010                        93
                                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                                           only about 40% of its core development budget in 2009/10.304 This is the lowest
  Budget execution rate: Defined by                        budget execution rate for the core development budget since 2005/06.305
  the World Bank as the ratio of actual                       Figure 3.33 shows trends in expenditures for the core development budget,
  disbursements to the mid-year                            which improved between 2005/06 and 2007/08, and then began to worsen in
  approved budget.                                         2008/09. The World Bank attributes declines in the GIRoA’s budget execution
                                                           rate to a variety of factors, including the lack of absorption capacity of line
                                                           ministries, technical difficulties related to bridge financing, and confusion over
Source: World Bank/DfID, “Afghanistan Public Expenditure
Review 2010: Public Expenditure Trends and Fiscal          program budgeting.306
Sustainability,” p. 11.


                                                           ESSENTIAL SERVICES
                                                           The World Bank’s public expenditure review focused on Afghanistan’s reli-
                                                           ance on international donors for education funding and the need to continue
                                                           to strengthen the capacity of the Ministry of Education (MoE). In June,
                                                           the U.S. Geological Survey (USGS) released a report on water in the Kabul
                                                           Basin, highlighting the need to improve the management and conservation of
                                                           Afghanistan’s water resources. The Asian Development Bank announced that
                                                           to support essential reconstruction work and economic development, it would
                                                           increase grant funds (from $386 million to $548 million in 2011/12). In addition
                                                           to supporting irrigation and energy projects, the extra funds are intended to
                                                           help Afghanistan address cost overruns linked to building the Ring Road.307

                                                           Energy
                                                           This quarter, the Minister of Energy and Water told the press that an estimated
                                                           70% of Afghans still do not have access to a reliable source of electricity, and that
                                                           the country continues to rely on imported electricity to meet its needs, as shown

                                                           FIGURE 3.33


                                                           CORE DEVELOPMENT BUDGET: EXECUTION RATES, 2005/06–2009/10 (PERCENT)


                                                           2009/10                                           40%

                                                           2008/09                                               43%

                                                           2007/08                                                              54%

                                                           2006/07                                                              54%

                                                           2005/06                                             41%

                                                                      0                        20                  40                        60                  80                    100


                                                                                                                    Disbursed             Not Disbursed

                                                           Note: Related to Mid-Year Review.
                                                           Source: World Bank/DfID, “Public Expenditure Trends and Fiscal Sustainability,” Working Paper 2 for Afghanistan Public Expenditure
                                                           Review 2010, 3/31/2010.




                                                               94                         SPECIAL INSPECTOR GENERAL                   I    AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 in Figure 3.34.308 The ANDS goals of providing electricity to 65% of urban house-
 holds and 25% of rural households by the end of 2010 will clearly not be met.309
     As reported in SIGAR’s audit of the energy sector, the U.S. government had
 spent more than $732 million refurbishing Afghanistan’s energy sector as of
 January 2010.310 Despite this progress, many challenges remain. Among other
 findings, the audit concluded that Afghanistan’s lack of capacity to collect suf-
 ficient revenue is a major factor limiting its ability to operate independently, to
 expand its power system, and to recruit and retain qualified staff.311
     The security environment is another factor that limits the supply of domes-
 tically produced energy. As noted in SIGAR’s January 2010 quarterly report,
 transporting a new turbine to the Kajaki Dam in Helmand in September 2008
 required a combined force of 4,000 ISAF and ANSF troops because of insurgent
 and IED activity in the area.312 Last quarter, work on installing the third Kajaki
 turbine was suspended indefinitely because of continuing security challenges.313
 Two older, refurbished turbines at the dam are operational and supplying
 power.314 This quarter, however, NATO reported that the Taliban blew up a struc-
 ture that supported some Kajaki Dam supply lines, cutting off electricity to parts
 of Helmand; the Taliban initially refused to allow government engineers access to
 the area to repair the damage.315 Later negotiations made it possible for govern-
 ment engineers to repair the supply lines.316
     This quarter, the U.S. government officially handed over the 105-MW
 Tarakhil Power Plant in Kabul to the GIRoA.317 The first six blocks of the power
 plant were brought on line in August 2009, and the plant became completely
 operational on May 31, 2010, according to the U.S. Agency for International



 FIGURE 3.34


 DOMESTICALLY PRODUCED AND IMPORTED ELECTRICITY, 2006–MAY 2010 (PERCENT)



  2010a                      35.9                    4.8                                      59.2

   2009                        39.0                       4.5                                  56.5

   2008                        39.4                             12.6                                 48.0

   2007                                48.0                                 13.4                            38.6

   2006                                49.9                                   16.5                            33.5

           0          10         20           30          40           50          60         70            80       90   100


                                         Domestic Hydro           Domestic Thermal            Imported

 Note: Numbers affected by rounding.
 a. Figures for January through May.
 Source: USAID, Afghanistan Energy Information Center (AEIC), “Power Production and Supply Statistics,” accessed online 7/10/2010.




                      REPORT TO THE UNITED STATES CONGRESS                              I   JULY 30, 2010                   95
ECONOMIC AND SOCIAL DEVELOPMENT




Development (USAID).318 The agency reported that the Tarakhil plant has the
installed capacity to provide electricity for up to 600,000 residents in Kabul who
are connected to the North East Power System.319 The United States contributed
$300 million to support this project and will continue to support capacity-
building programs to maintain this facility, according to U.S. Ambassador Karl
Eikenberry.320

Education
The recent World Bank public expenditure review noted that the GIRoA is heav-
ily dependent on international donors for education resources. According to the
review, about 60% of Afghanistan’s current education expenditures are funded by
the external budget; the majority of these expenditures, therefore, are financed
by international donors.321
    The World Bank review noted that wages and salaries (primarily for teachers)
account for more than 90% of the operating expenses of the MoE.322 Salaries are
generally paid in cash in front of witnesses, and recipients are required to sign
a receipt.323 The review noted, however, that relying on cash to pay teachers’
salaries makes the system vulnerable to abuses such as skimming and “ghost”
employees. This is especially true in remote areas, where one person may be
designated to receive the total cash disbursement to pay all teacher salaries. The
review noted that in 2008/09, the MoE identified 5,000 potential ghost employ-
ees during its teacher registration process and deleted them from the official
payroll.324 As a result, the MoE is moving toward paying teacher salaries through
banks to reduce potential corruption, according to the review.325




Afghan girls attend a class. Increasing access to education for girls and young women is a
priority of the GIRoA and the international community. (ISAF photo)




   96                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    The public expenditure review also reported that capacity challenges pre-
 vented the MoE from spending more than 38% of its core development budget
 in 2008/09.326 One reason is that the MoE and the Ministry of Finance (MoF) are
 unprepared to disburse education funds to the provinces on a timely basis. The
 delays arise because most of the budget funds work is done manually.327 Another
 example is an increase in the number of forms that the MoE’s budget department
 must fill out to disburse education funds to the provinces.328 The review noted
 that since 2007/08, the number of required forms has risen from 185 to approxi-
 mately 1,480. This increase is significant because 78% of the operating budget is
 allocated to the provinces, according to the review.329
    This quarter, the USAID Office of Inspector General (USAID OIG) released
 an audit of a $105 million, four-year USAID construction program through
 which approximately 776 health clinics and schools were built throughout
 Afghanistan.330 Because of the precarious security conditions where many of
 the structures are located, auditors were given a representative sample of 30
 schools to visit on site.331 The auditors concluded that those schools were being
 used for their intended purposes, with the exception of one school building
 being used by the MoE.332 The schools were staffed with 1,385 teachers, who
 taught 57,744 students.333 Nevertheless, auditors observed many challenging
 conditions in the schools:334
  • 21 school buildings with no electricity (17 of them in areas where electricity
     was not available)
  • 14 schools with no water or insufficient water
  • 12 schools without toilets
  • 18 schools without adequate furniture
 The audit identified two major factors that contributed to these challenges—lack
 of compliance with the International Building Code and lack of operating funds.335
    This quarter, the UN Secretary-General reported that attacks against schools
 continued to increase throughout Afghanistan. He noted that the overwhelm-
 ing majority of these attacks were made by anti-government groups; attacks
 included intimidation of pupils and teachers; abductions, beatings, and killings of
 school staff; arson; and improvised explosive devices placed in schools.336

 Health Services
 The USAID OIG audit on schools also covered health clinics.337 Auditors visited
 a representative sample of 20 health clinics. They concluded that most of the
 structures were being used for their intended purposes.338 The 20 health clin-
 ics employed 109 clinical staff and provided treatment to approximately 39,500
 patients.339 But auditors found many unsatisfactory conditions, including insuf-
 ficient plumbing, equipment, or water as well as a lack of personnel. The auditors
 could not determine whether some of the deficiencies were related to poor
 construction or to the lack of maintenance and support from the GIRoA.340




              REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        97
                                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                                           Water and Sanitation
                                                           This quarter, the USGS released a report on water resources in the Kabul
                                                           Basin.341 According to the Afghan Ambassador to the United States, the water
                                                           flowing into the city of Kabul traditionally originated from pristine sources.342
                                                           The USGS noted that population growth and drought have created new stresses
                                                           on Kabul’s water supply, resulting in many contaminated, dry, unusable wells.343
                                                           According to the USGS report, Kabul had no municipal waste or wastewater
                                                           treatment plant. In less populated areas, however, the water quality was
                                                           relatively good.344
                                                              To meet the need for clean water resources in Afghanistan, the United States
                                                           has provided funding for 912 small and medium-size water and sanitation proj-
                                                           ects between June 2004 and June 2011. According to U.S. Central Command
                                                           (CENTCOM), the estimated total cost of these projects was $28 million, and the
                                                           median project cost was an estimated $14,490. Examples of these clean water
                                                           and sanitation projects include water wells, water tanks, septic systems, small-
                                                           scale irrigation projects, and restroom facilities.345

                                                           INDUSTRY AND NATURAL RESOURCE DEVELOPMENT
A local elder demonstrates that a village                  This quarter, Afghanistan was on track to produce another bountiful cereal
well is dry. Of the 50 wells in the returnee               crop harvest, and the GIRoA presented proposals for more water development
village of Barikop in Parwan, only 4 still
                                                           projects at the Kabul Conference. The potential value of Afghanistan’s mineral
work. (U.S. Air Force photo, MSgt Kelley
J. Stewart)
                                                           resources received renewed attention when the U.S. Department of Defense
                                                           (DoD) released a new report estimating the potential value of these resources.
                                                           The Center for International Private Enterprise (CIPE) released a new survey of
                                                           small business owners in Afghanistan that focused on their plans for the future,
                                                           including the hope that the GIRoA’s contracting processes would become more
                                                           transparent and accessible.

                                                           Agriculture
Since 2004, the USGS has been working                      Accelerating progress in agriculture is a top priority of the U.S. stabilization strat-
with the Afghan Geological Survey and the                  egy in Afghanistan and Kabul Conference participants.346 The U.S. government has
Ministry of Energy and Water to address                    awarded approximately $1.4 billion toward agricultural programs in Afghanistan
future water availability in the Kabul Basin.              since 2002, according to the GAO.347
To provide a scientific basis for managing                    According to the U.S. Foreign Agricultural Service (FAS), Afghanistan is on
this important resource, the USGS has
                                                           track for its second consecutive successful growing season. The FAS reported
developed a database of information on
                                                           that rain was plentiful during autumn 2009, enabling wheat crops to become well
ground and surface water in the area.
                                                           established before the harshest winter months. Somewhat less favorable weather
USAID funds this effort.
                                                           conditions prevailed during the winter and spring. These less favorable condi-
Source: USGS, “Availability of Water in the Kabul Basin,
Afghanistan,” Fact Sheet 2010-3037, 5/2010, p. 1.          tions included substantially lower snow accumulation, which is the principal
                                                           source of moisture for irrigated crops, and higher-than-normal temperatures in
                                                           major lowland wheat-growing regions. Nevertheless, in May the FAS forecasted
                                                           that Afghanistan will produce approximately 3.7 million tons of wheat in 2010,
                                                           which is 18% above average.348




                                                             98                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    Despite the recently improved harvests, the World Bank reported in April 2010       This quarter, USAID announced a new $100
 that Afghanistan continues to import about one-sixth of its cereals annually to        million Agricultural Development Fund,
 meet domestic consumption needs.349                                                    which will provide Afghan farmers with
    USAID OIG recently completed an audit of USAID’s Afghanistan Vouchers for           credit to buy the equipment, seed, and other
 Increased Productive Agriculture (AVIPA) program, which provides vouchers for          materials necessary to expand agricultural
                                                                                        production.
 modern seeds and fertilizers to help improve Afghanistan’s wheat harvest. In addi-
 tion, the program funded agriculture-related stabilization activities in Helmand and   Source: DoS/U.S. Embassy Kabul, press release, “Afghan
                                                                                        Farmers Gain More Access to Credit through new $100 million
 Kandahar, including cash-for-work programs, such as cleaning irrigation canals;        Agricultural Development Fund,” 7/21/2010.
 offering small farming equipment grants; and providing saplings and seeds for high-
 value alternative crops.350
    As of December 31, 2009, total funding for the program was approximately
 $185.2 million. USAID OIG concluded that the program had achieved its planned
 goals of distributing seeds or fertilizer to 296,920 Afghan farmers and had con-
 tributed to the increased wheat harvests. The audit also concluded, however,
 that it was impossible to measure the program’s exact contribution because
 some of the reported results were not reliable. It also noted that the stabilization
 program in Helmand and Kandahar could not be fully implemented because of
 security challenges.351




 Afghan farmers prepare pesticides to be sprayed on crops. (USAID photo)




               REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2010      99
                                                          ECONOMIC AND SOCIAL DEVELOPMENT




TABLE 3.7                                                 Capacity Building
                                                          As of June 30, 2010, the United States had nine agribusiness development teams
AGRIBUSINESS DEVELOPMENT TEAMS                            (ADTs) in Afghanistan to provide technical assistance to help strengthen the
IN PLACE, AS OF JUNE 30, 2010
                                                          country’s agricultural sector, as shown in Table 3.7. These teams are National
Unit               State              Location
                                                          Guard units consisting of farmers and experts in animal husbandry, horticulture,
TX ADT #3          Texas              Ghazni
                                                          irrigation, food storage, and distribution. They provide advice and training to
IN ADT #2          Indiana            Khowst
                                                          Afghan farmers, provincial ministries, and universities, and they train Afghan
CA ADT #1          California         Kunar
                                                          extension agents to teach modern farming methods.352
SC ADT #1          South Carolina     Logar
                                                              According to CENTCOM, the teams have identified a number of obstacles
MO ADT #3          Missouri           Nangarhar
OK ADT #1          Oklahoma           Paktiya
                                                          to agricultural progress:353
KY ADT #2          Kentucky           Parwan
                                                           • interpreters’ lack of sufficient agricultural vocabulary
KS ADT#2           Kansas             Laghman
                                                           • farmers’ dependence on wheat, although other crops may be more
AR ADT #1          Arkansas           Zabul                   compatible with the rocky terrain
                                                           • the lack of sufficient irrigation projects
Source: CENTCOM, response to SIGAR data call, 7/6/2010.
                                                           • the lack of businesses to support the agriculture industry, such as
                                                              equipment leasing
                                                           • Afghan government corruption




                                                          A technical advisor for the Ministry of Agriculture visits a greenhouse at the Department of
                                                          Agriculture compound in Farah in April, where farmers are given the opportunity to view new and
                                                          different agricultural techniques. (U.S. Air Force photo, SrA Rylan K. Albright)




                                                            100                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Irrigation
 Better management of water resources is key to the future of agricultural                   From 1950 to 1980, approximately 165
 development in Afghanistan, according to the Afghan Ambassador to the United                stream gauges operated in Afghanistan,
 States. If enough water were available all year, farmers would be more likely to            measuring stream levels and flow, accord-
 plant pomegranates and other valuable crops that require more intensive irriga-             ing to USGS officials. During the years of
 tion. According to USGS officials, some areas of Afghanistan are relatively rich in         war, the gauges fell into disuse. The USGS
                                                                                             analyzed and made available online the his-
 underground water resources; however, these resources may be ancient aquifers
                                                                                             torical data gathered by these gauges, and
 located deep underground, and their sustainability needs further evaluation.
                                                                                             the Ministry of Energy and Water recently
 Officials noted that the most significant challenge to developing Afghanistan’s             reactivated the gauges as a resource for
 water resources is the lack of skills and technical capacity to manage these                water management planning.
 resources effectively. The USGS, therefore, is working with the Afghan Geological
 Survey (AGS) and the Ministry of Energy and Water to develop that capacity. In              Source: USGS, response to SIGAR data call, 6/24/2010.

 recognition of the importance of water resources, plans for large-scale water
 development projects were presented at the Kabul Conference.354
    According to the Afghan Ambassador, the GIRoA is working to define
 water rights and obligations to lay the groundwork for developing its river
 water resources. He noted that most of Afghanistan’s rivers flow into neighboring
 countries that also use the water; therefore, it is important to develop a frame-
 work for regional cooperation before building new dams and other water-related
 infrastructure near the borders of other countries. USGS officials noted that
 Afghanistan’s neighbors use approximately twice as much water per person
 as Afghanistan.355

 Mining
 This quarter, the DoD Task Force on Business and Stability Operations in Afghanistan
 (TFBSO) released an updated report on Afghanistan’s mineral wealth. It included
 new estimates of the potential economic value of these resources, based on recently
 collected data. The goal was to provide high-quality, verifiable data that meets private-
 sector investment standards. The Ministry of Mines presented the new information at
 the first International Symposium on Mineral Sector Opportunities in Afghanistan, in
 London on June 25, 2010.356
    As SIGAR noted in its January 2010 quarterly report, the USGS first released an
 assessment of Afghanistan’s mineral resources in 2007.357 This data was presented at
 the third annual U.S.-Afghan Business Matchmaking Conference, organized by the
 Afghan-American Chamber of Commerce, in Washington, D.C., in November 2007.358
 This preliminary report was based on surveys carried out between 1950 and 1985,
 according to the USGS. The data was hidden from Afghan authorities during the 1990s
 and returned to the GIRoA in 2001. Subsequently, it was used as the basis for further
 research by the USGS, in partnership with the AGS and the Ministry of Mines.359 From
 2005 to March 31, 2009, the USGS produced approximately 189 reports of geologi-
 cal surveys in Afghanistan, including assessments of coal, oil, natural gas, water, and
 other resources.360 USAID provided the funding for these surveys.
    In the fall of 2009, the TFBSO partnered with the USGS to further explore
 Afghanistan’s mineral resources; after extensive field visits, the team created a list




               REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2010           101
                                                            ECONOMIC AND SOCIAL DEVELOPMENT



TABLE 3.8


MINERAL RESOURCES (NON-FUEL):                               of priority areas of interest. Table 3.8 lists Afghanistan’s potential mineral resources
ESTIMATED POTENTIAL GROSS                                   and their potential value, as calculated by the TFBSO. As SIGAR has noted in previous
IN-PLACE VALUE, DECEMBER 2009                               quarterly reports, experts from the World Bank and other organizations agree that
Mineral                         Amount        Value         development of Afghanistan’s mineral resources provides the best opportunity to
(non-fuel)                     (Tonnes) ($ Billions)
                                                            generate sustainable, long-term revenue growth for the GIRoA.361
Iron                    1,490,944,000           420.85
                                                               The TFBSO has expanded its sampling effort to include not only U.S. government
Copper                     40,895,800           274.00
                                                            experts, but staff from the AGS and industry geologists. As of July 14, 2010, more than
Niobium                      3,500,000              81.20
                                                            700 samples have been collected and submitted to the USGS laboratory for analysis.
Cobalt                         600,000              50.82
                                                            Geochemical assay work has been completed on more than 500 of the submitted
Gold                                685             25.00
                                                            samples, and the results are being reviewed and analyzed to better understand the
Molybdenum                     724,010              23.89
                                                            size, type, and value of the deposits.362 Figure 3.35 shows the 11 provinces that the
Rare earth elements          1,400,000               7.41
                                                            TFBSO visited to collect samples and make field observations.
Asbestos                   13,365,563                6.32
Silver                            9,067              5.34
Potash                     27,513,690                5.09   FIGURE 3.35
Aluminum                     2,290,175               4.43
Graphite                     1,055,223               0.67
                                                            POTENTIAL RESOURCES IN 11 PROVINCES
Lapis lazuli                      1,300              0.65
Fluorite/fluorspar           8,791,000               0.64
Phosphorus                   6,200,000               0.58
Lead and zinc                  243,900               0.55
Mercury                         32,234               0.50
                                                                                                              JOWZJAN                     KUNDUZ              BADAKHSHAN
Strontium                      329,100               0.41                                                                 BALKH                      TAKHAR
Sulfur                       6,450,000               0.23
                                                                                                                                SAMANGAN
Talc                         1,250,000               0.16                                         FARYAB                                       BAGHLAN
                                                                                                                                                   PANJSHIR
Magnetite                       31,200               0.16                                                     SAR-E PUL                                       NURISTAN
                                                                                        BADGHIS
Kaolin                                —              0.05                                                                                  PARWAN      KAPISA    KUNAR
                                                                                                                          BAMYAN
                                                                                                                                                            LAGHMAN
Total Estimated Value                         908.95                                                                                               KABUL
                                                                                                                                    WARDAK
                                                                                                                                                           NANGARHAR
                                                                        HERAT
Note: — = not available.                                                                          GHOR                                          LOGAR
Source: DoD, TFBSO, “Afghan Economic Sovereignty:                                                              DAYKUNDI
Establishing a Viable Nation,” 6/14/2010, p. 5.                                                                                                    PAKTIYA
                                                                                                                                 GHAZNI                  KHOWST


                                                                                                           URUZGAN
                                                                            FARAH
                                                                                                                                           PAKTIKA
                                                                                                                        ZABUL




                                                                          NIMROZ                                                                                           Cement
                                                                                        HELMAND
                                                                                                         KANDAHAR                                                          Copper
                                                                                                                                                                           Gold
                                                                                                                                                                           Industrial Minerals
                                                                                                                                                                           Iron
                                                                                                                                                                           Lithium
                                                                                                                                                                           Rare Earth Elements
                                                                                                                                                                           Silver
                                                                                                                                                                           Travertine
                                                                                                                                                                           Uranium


                                                            Note: Potential resources identified during TFBSO visits.
                                                            Source: DOD/TFBSO, response to SIGAR data call, 7/14/2010.




                                                               102                          SPECIAL INSPECTOR GENERAL                      I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     According to the TFBSO and the USGS, Afghan engineers or geologists have been
 included in these efforts whenever possible, to build domestic capacity for assessment
 work. In addition, the TFBSO and USGS have assessed the information technology
 and data storage and analysis capabilities of the AGS, and submitted a proposal to that
 agency to strengthen its technical systems.363
     The TFBSO is working with industry experts, the AGS, and the USGS to compile
 all data into packages for presentation to potential investors. This includes archiving
 and translating Soviet-era field reports and maps that provide valuable geochemical
 and geologic information on many of these areas. This information is being adapted
 for use with modern geospatial programs and tools that are required for current-day
 exploration and development activities. In addition, the TFBSO has begun to identify
 and engage with international firms interested in the development of Afghanistan’s
 mining sector.364

 Other Energy Resources Development
 To assess the current state of oil and gas infrastructure, the TFBSO and the
 USGS have sent field expeditions to Sheberghan (Jowzjan province), Mazar-e
 Sharif (Balkh province), Kunduz (Kunduz province), and Herat (Herat prov-
 ince). The TFBSO/USGS team also conducted a seismic feasibility study to
 determine whether two-dimensional seismic surveys could be run from the city
 of Sheberghan to Kunduz. Such surveys would identify subsurface structures
 that trap oil and gas, as well as the best places to drill sample wells. Table 3.9
 provides USGS estimates of potential quantities of oil and gas resources and the
 TFBSO’s calculations of the potential value of these resources.365
     The TFBSO has signed a Memorandum of Understanding with the Ministry of
 Mines to support a proof-of-concept project to lay the groundwork for restarting
 production from existing oil wells in Afghanistan. Among other benefits, restarting
 oil production wells would demonstrate the country’s capacity for oil and gas pro-
 duction and distribution, strengthen investor interest, and expand the Afghan First
 Program to include petroleum-derived products such as asphalt and fuel.366
     To help build capacity for other energy-producing infrastructure, the TFBSO
 has also partnered with the Ministry of Rural Rehabilitation and Development to
 assess potential micro-hydropower sites in Afghanistan. As of July 14, 2010, visits
 had been made to 2 of the estimated 15 to 30 sites, according to the TFBSO.367

 TABLE 3.9


 MINERAL RESOURCES (FUEL): ESTIMATES OF POTENTIAL CURRENT VALUE
 Resource                 Primary Location             Quantity                           Potential Value (Billions)
 Crude oil                Afghan-Tajik Basin           1,596 billion barrels              $123.2 (at $77.19/barrel)
 Natural gas              Amu Darya Basin              15,687 billion cubic feet          $56.3 (at $3.59/MMbtu)
 Natural gas liquids      Amu Darya Basin              562 million barrels                $43.4 (at $77.19/barrel)
 Total                                                                                    $222.9
 Source: DoD, TFBSO, “Afghan Economic Sovereignty: Establishing a Viable Nation,” 6/14/2010, p. 6.




                     REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2010                      103
                                                          ECONOMIC AND SOCIAL DEVELOPMENT




The CIPE survey found that businesses                     Private-Sector Development
perceived a lack of transparency and fair-                On May 6, 2010, the National Endowment for Democracy, the Center for Private
ness in the awarding of GIRoA contracts,
                                                          Enterprise (CIPE), and Charney Research released a survey of small and medium-
but 6 in 10 hoped the government would
                                                          size Afghan businesses in the country’s six largest cities. Of the businesses
be more transparent in the coming year.
                                                          surveyed, 92% grossed less than $10,000 annually. Most were either sole proprietor-
Source: National Endowment for Democracy, CIPE, Charney   ships or family-owned businesses.368
Research, “Afghan Business Attitudes on the Economy,
Government, and Business Organizations,” p. 7.               The survey found that, in general, the businesses surveyed were positive about
                                                          economic conditions in their local communities. Most of these businesses served
                                                          Afghan consumers directly, rather than other businesses, foreign markets, or
                                                          foreign companies. Three-fourths of those polled expected their sales, number of
                                                          employees, and net profits to increase during the next six months. Six in 10 busi-
                                                          nesses surveyed planned to hire more people during that period; 4 in 10 planned to
                                                          purchase general office equipment.369
                                                             The survey showed that businesses continue to rely primarily on profits and
                                                          private savings for financing, rather than loans. Only 7% of respondents reported
                                                          obtaining loans from private individuals; 6% reported obtaining loans from banks.
                                                          Survey results pointed to opportunities for growth in the financial system. Three-
                                                          quarters of surveyed businesses relied on cash to purchase goods and services; only
                                                          one in six relied on bank transfers to make purchases.370
                                                             Consistent with surveys described in previous SIGAR quarterly reports, the CIPE
                                                          found that corruption is a significant burden on the private sector. More than half
                                                          of the businesses polled reported paying bribes, unofficial fees, or gifts to operate:
                                                          41% reported paying local government officials, 28% paid customs officials, and 26%
                                                          paid national government officials; others paid the road police and tax collectors.
                                                          Businesses also identified the perceived lack of fairness in the awarding of GIRoA
                                                          contracts as a significant concern. Specifically, many businesses reported that gov-
                                                          ernment officials favored relatives and friends in awarding contracts and that the
                                                          process was not transparent.371
                                                             In an important trade-related development, DoS announced that the govern-
                                                          ments of Afghanistan and Pakistan reached a transit trade agreement on July 18,
                                                          2010. The agreement will make it easier for Afghan trucks to transport products
                                                          through Pakistan to the Indian border.372




                                                           104                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                  QUARTERLY HIGHLIGHT




THE RAPID GROWTH
OF COMMUNICATIONS
MEDIA IN AFGHANISTAN
Since 2002, the broadcast media have expanded
rapidly in Afghanistan. In 2002, there was one national,
state-owned radio broadcasting system with an esti-
mated two to three local FM radio stations. As of July
2010, according to the Department of State (DoS),
approximately 300 radio stations and re-broadcasters
cover virtually all provinces. Similarly, in 2002 only one
television station operated in Afghanistan, but as of              Telecommunication towers rise from the top of “TV Mountain”
July 2010, about a dozen privately owned networks and              over Kabul. (UNAMA photo)
one state-owned television network were broadcasting
to all the major cities, according to DoS.373
    Ownership of radio and television sets in                      of phone subscribers in Afghanistan as of March 2010.
Afghanistan has skyrocketed. According to a 2009                   The table shows that cell phones predominate. In fact,
survey by the Broadcasting Board of Governors, 83% of              the MCIT estimates that approximately 80% of the
Afghans have a radio in their household, and 39% have              Afghan population has access to a cell phone.377 The
a television. The Asia Foundation reported that about              MCIT further notes that the four GSM providers and
80% of Afghans living in urban areas own a television              one CDMA/fixed-network provider in Afghanistan have
set, compared with 30% of Afghans living in more rural             invested more than $1.5 billion cumulatively in the tele-
areas. According to USAID, the average estimated cost              communications sector.378 In 2002/03, the U.S. Trade
of a radio in Afghanistan is less than $8; the average             and Development Agency (USTDA) provided funding for
estimated cost of a television set in Afghanistan is               a consultant who advised the GIRoA to issue addi-
approximately $100.374                                             tional cellular operator licenses, which helped attract
    The major national radio stations broadcast 2 to               private-sector investment.379 The USTDA also funded
18 hours of programming daily; most of the smaller,                a technical assistance program to help the Afghan
local stations are on the air for a few hours each day.            Telecommunications Regulatory Authority improve
Similarly, major television stations broadcast for 8 to            access to telecommunications technology in rural and
18 hours a day while local stations broadcast only a               underserved areas.380 Competition among providers
few hours a day, according to DoS.375 Recently, how-               has resulted in a decrease in monthly phone bills from
ever, Afghanistan’s Tolo TV network launched the coun-             approximately $54 in 2002 to approximately $5.60 in
try’s first 24-hour satellite news channel. According              2008, according to the MCIT.381
to USAID, most radio and television programming
                                                                   TABLE 3.10
originates locally, except for movies and serials, which
are imported primarily from India, Dubai, Turkey, and              TELECOMMUNICATIONS STATISTICS, AS OF MARCH 2010
Pakistan.376                                                       GSM subscribers (Wireless)                                               13,304,533
    Afghanistan’s telecommunications sector has also               CDMA subscribers (Wireless)                                                    83,809
grown rapidly since 2002, according to the Ministry of             Landlines                                                                      56,357
Communications and Information Technology (MCIT).
                                                                   Source: GIRoA, MCIT, Telecommunication statistics, www.mcit.goc.af, accessed online
Table 3.10 shows the MCIT’s estimates of the number                7/8/2010.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010                    105
TITLE OF THE SECTION




106    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                COUNTER-NARCOTICS




COUNTER-NARCOTICS
Since 2002, the U.S. government has appropriated nearly $4.24 billion for
counter-narcotics efforts in Afghanistan.382 Prior to February 2010, U.S.
counter-narcotics efforts focused primarily on eradication. However,
eradication proved to have a minimal impact on the size of the regional
drug trade and it targeted farmers instead of narco-traffickers.383 To address
the shortcomings of the old strategy, the United States announced a new
counter-narcotics strategy last quarter, which centered on interdicting drugs
and precursor chemicals, stopping drug trafficking, building capacity, and
arresting drug lords.384
   This quarter, the U.S. Department of State (DoS) began to implement the
new strategy, which sets out two specific goals and the objectives that must
be met to achieve them. The first goal is to weaken the link between narcotics
and the insurgency by significantly reducing the support the insurgency
receives from the narcotics trade. To meet this goal, the strategy identifies
eight objectives:385
• Disrupt and dismantle targets in the narcotics-insurgency-corruption
   nexus.
• Develop more capable, accountable, effective, and self-reliant Afghan
   counter-narcotics security forces.
• Fully integrate counter-narcotics activities into civil-military campaign
   planning.
• Enhance and increase agricultural development and licit alternatives to
   poppy, in line with the objectives set forth in national and provincial
   development strategies.
• Increase support for the demand reduction and treatment programs of the
   Government of the Islamic Republic of Afghanistan (GIRoA).
• Support subnational supply reduction efforts.
• Improve counter-narcotics strategic communications.
• Work with international organizations and Afghanistan’s regional neigh-
   bors to further disrupt the insurgency-narcotics network and eliminate
   their safe havens.
  The second goal is to reduce corruption fueled by narcotics, which reduces
Afghans’ support for their government. This goal has three objectives:386
• Develop institutional capacity in support of the overall governance strategy.
• Designate and prosecute major traffickers.



            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010    107
COUNTER-NARCOTICS




• Align law enforcement, justice, and targeted financial measures and
   corrections development programs.
This section highlights the advances made this quarter in support of the
counter-narcotics strategy.

POPPY CULTIVATION AND OPIUM PRODUCTION
In February 2010, the United Nations Office on Drugs and Crime (UNODC)
reported that poppy cultivation in Afghanistan was expected to remain stable.
However, reports this quarter indicate that an apparent blight has adversely
affected the productivity of the poppy crop—effectively reducing the volume
of opium production.387 Although a decrease in opium production would be
welcome, stocks of opium are sufficient to supply users for at least two years,
according to the UNODC’s 2010 World Drug Report.388
    According to the June 2010 report of the Secretary-General of the United
Nations (UN), decreased production could lead to increases in opium prices.389
Higher prices could create a perverse incentive to cultivate poppy, as noted
in May 2010 by the UNODC spokesman in Kabul.390 The Ministry of Counter-
Narcotics (MCN), the UNODC, and their partners are conducting a survey to
assess the situation according to the UN Secretary-General.391
    From May 2009 to May 2010, the prices of dry and fresh opium increased
significantly, according to the MCN and the UNODC. Specifically, the farm-gate
value of dry opium increased by 71% and that of fresh opium by 104%. The trader
price of dry opium increased by 72% and that of fresh opium by 92%.392 However,
it is premature to ascribe the increase in opium prices to the disease affecting the
poppy crop.

COMBATING THE DRUG TRADE
In support of the objectives outlined in the new counter-narcotics strategy,
efforts over the reporting period focused primarily on interdiction operations,
drug demand reduction, international cooperation, and capacity and alternative
development. The following subsections provide details on these efforts.

Interdiction Operations
As noted in SIGAR’s April 2010 quarterly report, interdiction has become a
central focus of the new U.S. counter-narcotics strategy. In support of this shift
in strategy, the Department of Defense (DoD) reported that the Afghanistan
National Security Forces (ANSF) and the International Security Assistance
Forces (ISAF) conducted a series of interdiction operations during this quarter.
The operations included partnered patrols, cordon and search procedures, and
monitoring activities. As a result of these operations, 70 suspects were arrested,
and large caches of drugs and drug-related materials were seized.393 Figure 3.36
displays drug seizures in four provinces by type, amount, and location.




 108                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                     COUNTER-NARCOTICS




   To support these joint operations, the United States provided transportation,
intelligence, airlift, and quick reaction forces. According to DoD, the U.S. Drug
Enforcement Agency (DEA) mentored specialized units of the Counter-Narcotics
Police of Afghanistan (CNPA), and the intelligence community provided target-
ing and analysis support to law enforcement and the military at the strategic,
operational, and tactical levels.394
   In another effort, the DEA, the U.S. Marines, and the CNPA conducted an
interdiction operation on May 18, 2010 that resulted in the capture of high-
value targets and a large cache of drugs.395 The search-and-seizure portion of
the operation was conducted entirely by CNPA officers, according to the U.S.
Marine Corps.396

FIGURE 3.36

DRUGS SEIZED BY AFGHAN AND COALITION FORCES
Results of 33 Counter-Narcotics Operations, April–June 2010


 24 Operations:                                                                                                          1 Operation:
 Marijuana seeds: 1,134 kg                                                                                               Opium gum: 60 lb
 Marijuana seeds: 200 lb
 Marijuana seeds: 136 kg
 Marijuana: 900 kg
 Opium, raw: 926 kg
 Opium, raw: 40 kg
 Opium, raw: 2,090 kg                                                                                JOWZJAN                 KUNDUZ
                                                                                                                 BALKH
 Opium, processed: 851 kg         1 Operation:                                                                                                     BADAKHSHAN
                                                                                                                                          TAKHAR
 Opium, wet: 4.5 kg               Opium, wet: 70 kg
 Opium, wet: 150 kg
 Opium, wet: 30 kg                                                                                                 SAMANGAN
                                                                                        FARYAB                               BAGHLAN
 Opium, wet: 30 kg
 Opium, resin: 2,250 kg                                                                              SAR-E PUL                     PANJSHIR
 Opium, liquid: 75 kg                                                                                                                     NURISTAN
                                                                            BADGHIS
 Opium: 30 kg
                                                                                                                 BAMYAN    PARWAN  KAPISA      KUNAR
 Opium: 30 kg                                                                                                                         LAGHMAN
 Opium: 18 kg                                                                                                                   KABUL
 Opium: Four 6-kg to 9-kg bags                              HERAT                                                       WARDAK
                                                                                                                                        NANGARHAR
 Opium: 11 kg                                                                           GHOR                                   LOGAR
 Opium: 120 kg                                                                                        DAYKUNDI
 Opium: 450 kg                                                                                                                     PAKTIYA
 Opium: Two 15-lb bags                                                                                                 GHAZNI           KHOWST
 Opium: 655 kg
 Heroin: 11 kg                                                                                   URUZGAN
 Heroin: 90 kg                                                 FARAH
 Heroin: 90 kg                                                                                                                  PAKTIKA
 Heroin: 20 kg                                                                                                 ZABUL
 Heroin: 39 large stamped, packaged bags                                                                                                           7 Operations:
 Heroin: 15 kg                                                                                                                                     Opium, wet: 30 bags
 Hashish: 279 kg                                                                                                                                   Opium, wet: 45-lb bag
 Hashish: 4.5 kg                                             NIMROZ          HELMAND         KANDAHAR                                              Opium: 3 kg
 Morphine: 60 kg                                                                                                                                   Opium: 70 kg
 Powdered charcoal: 60 kg                                                                                                                          Heroin: 1,300 kg
 Poppy seeds: 6 kg                                                                                                                                 Hashish: 300 lb
 Narcotics processing equipment                                                                                                                    Hashish and heroin: 226 kg




Note: Data reflects separate drug seizures as reported in ISAF press releases.
Sources: ISAF, press releases, 4/9–6/27/2010, accessed online 7/7/2010.




                     REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2010                     109
COUNTER-NARCOTICS




ISAF forces prepare to burn more than 7,700 kilograms of illicit drugs seized in a single raid
in Helmand in June. Interdiction is a central focus of the new U.S. counter-narcotics strategy.
(ISAF photo)


   This quarter, the CNPA also coordinated—for the first time—an international law
enforcement meeting on interdiction, according to a UN Secretary-General report.
The purpose of the meeting was to enhance regional coordination and support for
future interdiction operations. These efforts promote the “Afghanization” process, a
central theme of the Afghanistan and Pakistan Regional Stabilization Strategy.397
   To improve interdiction efforts, DoD continued to provide training, infra-
structure, and equipment support to U.S. and Afghan counter-narcotics law
enforcement agencies. At the request of the DEA, DoD trained an additional 280
personnel for the National Interdiction Unit of the CNPA, which now comprises
500 officers. According to DoD, implementation plans in support of interdiction
will help create unity of effort at the inter-agency level.398

Demand Reduction
Approximately one million Afghans are drug users, according to the most recent
drug use survey by the UNODC in June 2010. On a national scale, drug treatment
is still viewed as inadequate—only 40 treatment centers operate throughout the
country. These centers have the cumulative capacity to treat only 10,216 drug
users, according to the UNODC and INL.399
    Recent reports have highlighted the growing issue of drug use in the Afghan
National Police (ANP). To assess the extent of such drug use, the Ministry of
Interior (MoI) and the Combined Security Transition Command - Afghanistan
conducted drug testing on 136,000 police officers from January 1, 2009 to May
31, 2010, according to the NATO Training Mission - Afghanistan (NTM-A). Of those
tested, 10,880 tested positive for some form of illicit substances; tetrahydro-
cannabinol (THC), the active substance in marijuana, was the most prevalent.
Prompted by the results of the drug tests, MoI staff drafted a new drug and




  110                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                COUNTER-NARCOTICS




alcohol policy that outlines annual drug testing requirements for all police forces.
According to NTM-A, the MoI legal department is reviewing the draft policy.400
   The MoI also offers drug rehabilitation services for officers who suffer from
drug dependency, according to NTM-A. In December 2009, the MoI transformed a
building in West Kabul into a drug treatment center with the capacity to treat 126
inpatients. To tackle drug dependency, the Combined Training Advisory Group -
Police is revising anti-drug programming; that programming will be implemented
through basic training, according to NTM-A.401
   The international community and the GIRoA are tackling the problem of
demand for drugs in a number of ways, including training programs and regional
and global projects. For example, the UN is supporting a series of training pro-
grams that will educate the local community on the harmful effects of narcotics,
including the risk of HIV infection. The training programs will include informa-
tion on outreach, the needle syringe program, and overdose management, among
other topics.402
   In April 2010, the UNODC released a document outlining the 20 active projects
that support counter-narcotics efforts in Afghanistan; they are valued at approxi-
mately $82 million. Funding is provided by more than 10 countries, including the
United States, as well as by international organizations. Eight of the 20 projects
support initiatives to reduce drug demand.403 Table 3.11 identifies the eight drug
demand reduction projects and their budgets.

TABLE 3.11


REGIONAL AND INTERNATIONAL DRUG DEMAND REDUCTION PROJECTS
                                                                                                          Budget
Regional Projects                                                                                     ($ Millions)
Capacity Building for Drug Demand Reduction in Afghanistan                                                   $2.9
Drug Demand Reduction Information, Advice and Training Communities Living in Refugee Camps in                $0.9
Baluchistan Service for Afghan and NWFP, Pakistan
HIV/AIDS Prevention, Treatment and Care for Female Injecting Users and Female Prisoners in                   $1.1
Afghanistan
Survey on Opiate Abuse in Afghanistan and Setting Up a Drug Abuse Information System                         $0.3
Sub-regional Project for the Provision of Comprehensive HIV Prevention and Care Services to Afghan           $1.9
Refugee Drug Users in Iran and Pakistan and Returnees in Afghanistan
International Projects
Drug Abuse and HIV/AIDS Prevention                                                                           $0.2
Partnership for Action on Comprehensive Treatment (PACT) – Treating Drug Dependence and its Health           $0.9
Consequences/OFID-UNODC Joint Program to Prevent HIV/AIDS through Treatment Phase II
The Paris Pact Initiative – A Partnership to Counter Traffic in and Consumption of Afghan Narcotics          $0.2
TOTAL                                                                                                       $8.4
Source: UNODC, “Programme in Afghanistan,” 4/2010, p. 5.




                  REPORT TO THE UNITED STATES CONGRESS                    I   JULY 30, 2010              111
COUNTER-NARCOTICS




International Cooperation
The inability of Afghanistan to control its borders has led to an international
drug trafficking problem which has affected countries around the world, accord-
ing to the president of the International Narcotics Control Board (INCB).404
Emphasizing the need for the international community to work together to
combat this issue, the 2010 World Drug Report stated that the international com-
munity needed to incorporate drug supply and demand reduction initiatives and
integrate national efforts into international strategies.405
   In June 2010, the INCB hosted an international forum called “Drug
Production in Afghanistan: A Challenge to the International Community.” At the
forum, the president of the INCB appealed to attendees to “continue to enhance
the effectiveness and sustainability of measures to curb poppy cultivation and
to ensure that farming communities involved in illicit crop cultivation are provided
with sustainable, legitimate livelihoods.”406 In addition, the INCB identified
development and law enforcement as the two most powerful tools for curtailing
drug production in Afghanistan. The INCB emphasized the importance of bilat-
eral and multilateral economic development institutions in helping Afghanistan
establish an economic power base. These efforts will help Afghan farmers who
have abandoned poppy cultivation to overcome poverty and the temptation to
perpetrate violence.407
   The INCB stressed that the international community needs to help prevent
drug traffickers from colluding with anti-government groups to cause instability.
Cooperation from the international community is a key element for success in
this effort, according to the INCB.408

Alternative Development Programming
SIGAR’s April 2010 quarterly report noted that the U.S. stabilization strategy
emphasizes agriculture as the main reconstruction priority. Agriculture is the
fastest means to create licit jobs, which in turn will slow the funding stream that
poppy cultivation provides for the insurgency, according to DoS.409 According
to Ambassador Richard C. Holbrooke, nearly 100 U.S. government agricultural
experts from the Department of Agriculture and the U.S. Agency for International
Development (USAID) have been deployed to Afghanistan. They work in close
coordination with GIRoA officials to help Afghanistan regain its former status
as a regional leader in the export of high-value crops, such as melons, grapes,
apples, and pomegranates.410
   The UNODC and the World Food Program have partnered to curb the produc-
tion of heroin in western Afghanistan, according to a UN announcement. The
program is designed to rehabilitate an irrigation canal in the Kohsan district
of Herat.411 Kohsan is considered virtually poppy-free, but trafficking in drugs
remains a significant issue. Villagers who are unable to find work in the district
travel to Farah or Helmand to harvest poppies—they are paid approximately
Af 500 (roughly $11) per day. To counter the perceived need to travel to poppy-
cultivating districts to earn income, the UN program pays villagers to clean out




 112                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                        COUNTER-NARCOTICS




An Afghan man sells a variety of melons at a local market. Nearly 100 U.S. agricultural experts
are working to help develop licit alternatives to poppy, including high-value crops, such as fruits.
(U.S. Embassy Kabul photo)


the irrigation canal, which has filled with sand over the past few years of drought
and deforestation. The canal will serve as a lifeline for planting licit crops.412

Capacity Development
This quarter, the U.S. and international community contributed to developing
the capacity of the GIRoA to combat the drug trade in a number of ways. These
contributions centered on the expansion of counter-narcotics facilities and
enhancements to CNPA units.

U.S. Efforts
This quarter, the U.S. government provided $12.9 million to support construc-
tion of the new CNPA headquarters in Kabul; this amount will be augmented
by $3.9 million annually. According to DoS, this facility enables the CNPA to
centralize all major counter-narcotics functions, which should improve coordi-
nation among all its units.413
   On May 13, 2010, a ceremony was held to recognize the work of the MoI’s
Air Interdiction Unit (AIU). The AIU is a counter-narcotics aviation unit men-
tored by the U.S. Army that supports ground units with its fleet of 16 Mi-17




               REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2010             113
COUNTER-NARCOTICS




helicopters. Manned solely by Afghans, the AIU crews conduct regular training
and operational missions in support of the MoI, the ANP, and other counter-
narcotics forces around Afghanistan, according to the U.S. Air Force.414 Over
the past 12 months, the AIU had the following accomplishments:
• implementing the 2010/11 tashkil, enabling significant growth within
   the AIU
• issuing and using new equipment, vehicles, and uniforms provided by
   the U.K. government
According to the U.S. Air Force, these advances enable the AIU to provide
stronger support to the ANP and the MoI.415

International Efforts
The European Union and France funded an extension to the Counter-
Narcotics Training Academy in Kabul, according to the International
Organization for Migration (IOM). This addition more than doubled the facil-
ity’s capacity from 200 to 440 students. The Academy trains the CNPA, which
is tasked with eliminating illicit narcotics production, trafficking, and abuse.416
    In June 2010, the UN Secretary-General reported that a train-the-trainer
program had been completed at the Academy. As a result, Afghans assumed
control of future training, and the MCN gave its first-ever briefing for the inter-
national community—an exercise set to recur on a regular basis.417

CHALLENGES
As noted in SIGAR’s April 2010 quarterly report, the new counter-narcotics
strategy seeks to eliminate the revenue stream that the narcotics industry
generates for the Taliban and its allies. The narcotics industry undermines licit
economic development, erodes government legitimacy, and threatens stability
and security in Afghanistan and across the region, according to INL.418
   To counter the narcotics-insurgency nexus, the Combined Joint Interagency
Task Force - Nexus was expanded this quarter to provide greater support to the
military and law enforcement. According to DoD, this expansion will increase
the pace of operations. In addition, DoD reported that the CNPA Development
Unit developed 24 key proposals to strengthen its capacity. Four of the propos-
als have been prioritized, and implementation plans are under way.419




 114                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                 QUARTERLY HIGHLIGHT




DRUG ADDICTION                                                                                  According to the survey, a typical male Afghan drug
                                                                                            user is a 28-year-old father of three who does not

IN AFGHANISTAN                                                                              live with his wife. He lives with his extended family, is
                                                                                            probably unemployed, has little to no education, and
                                                                                            is poor. A typical female drug user is more than likely
                                                                                            widowed or divorced, has little to no education, and is
On June 21, 2010, the UNODC, the MCN, and the
                                                                                            probably unemployed.422
Ministry of Public Health (MoPH) released the results
of Afghanistan’s seventh national drug use survey,
which was conducted with 2,614 drug users and
                                                                                            HEALTH RISKS
                                                                                            When drug users are unable to pay for drugs, they
2,614 key informants. Almost one million Afghans
                                                                                            often exchange sexual favors to support their habit.
use drugs—roughly 8% of the population ages 15
                                                                                            Because of cultural constraints related to discussing
to 64. This figure is twice the average for the global
                                                                                            this topic, only 6% of respondents admitted engag-
drug-using population, and those surveyed see drug
                                                                                            ing in sexual intercourse to pay for drugs, as noted
use as a worsening problem. In fact, the survey
                                                                                            by the UNODC. Survey respondents reported never
indicated that 50% of drug users in the northern and
                                                                                            using or seldom using a condom. Of those surveyed,
southern regions give opium to their children. This
                                                                                            3% tested positive for HIV; however, those who tested
practice effectively condemns the younger genera-
                                                                                            positive, as well as others who had heard of HIV
tion to a life of addiction, according to the survey.420
                                                                                            did not know how it spreads or how to prevent its
For more information on the growing problem of drug
                                                                                            transmission.423
addiction in Afghanistan, see SIGAR’s April 2010
                                                                                               Injecting drugs increases exposure to HIV/AIDS
quarterly report.
                                                                                            and other bloodborne illnesses. According to the
                                                                                            survey, approximately 87% of intravenous drug users
DRUG USE                                                                                    reported sharing syringes with multiple people without
The UNODC, the MCN, and the MoPH surveyed drug
                                                                                            cleaning the syringes properly or at all.424
use among Afghan men, women, and children in vari-
ous age categories. The survey showed that opium
use occurs in every age and gender category.421 The
                                                                                            DRUG TREATMENT
                                                                                            The UNODC reported that 21 of Afghanistan’s 34
substances used most commonly within each age
                                                                                            provinces have treatment centers—mainly residential
and gender category are shown in Table 3.12.
                                                                                            and home-based treatment. These forms of treat-
TABLE 3.12                                                                                  ment focus primarily on detoxification, residential
                                                                                            rehabilitation, and aftercare, which is limited, accord-
MOST COMMONLY USED SUBSTANCES, BY                                                           ing to the survey. Approximately 11% of respondents
AGE AND GENDER                                                                              reported receiving treatment; 90% expressed their
Age and Gender Category                  Substances by Order of Use                         need for treatment. The UNODC, the MCN, and the
Men (age 26 and older)                   Cannabis, opium, and heroin                        MoPH emphasized establishing a range of accessible
Women (age 26 and older)                 Opium, tranquilizers, and opioids                  services and interventions, especially those aimed
                                         (painkillers)
                                                                                            at community outreach, motivational interviewing,
Men (ages 16–25)                         Cannabis, opium, and heroin
                                                                                            and treatment readiness.425 The results of the survey
Women (ages 16–25)                       Opium, cannabis, and heroin
                                                                                            show that drug use is increasing, and current treat-
Adolescents (ages 10–15)                 Cannabis, opium, and heroin
                                                                                            ment services are inadequate.426
Children (under 10 years old)            Opium, tranquilizers, and cannabis
Source: UNODC, “Drug Use in Afghanistan: 2009 Survey, Executive Summary,”
6/21/2010, p. 6.




                   REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2010             115
                Educating girls
                Afghan schoolgirls receive school supplies from ANA
                soldiers in a tent in Dizak, Farah province. Many schools
                throughout the country continue to rely on makeshift
                structures. (U.S. Air Force photo, SSgt Nicholas Pilch)




116   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
4   OTHER AGENCY
    OVERSIGHT




       117
TITLE OF THE SECTION




118    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
Each quarter, SIGAR requests updates from other agencies on completed and
ongoing oversight activities. These agencies are performing oversight activities
in Afghanistan and providing results to SIGAR:
 • Department of Defense Office of Inspector General (DoD OIG)
 • Department of State Office of Inspector General (DoS OIG)
 • Government Accountability Office (GAO)
 • U.S. Army Audit Agency (USAAA)
 • U.S. Agency for International Development Office of Inspector General
    (USAID OIG)
The descriptions appear as they were submitted, with these changes for consis-
tency with other sections of this report: acronyms and abbreviations in place of
full names; standardized capitalization, hyphenation, and preferred spellings; and
third-person instead of first-person construction.

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the 12 oversight projects related to reconstruction or security that
the participating agencies reported were completed this quarter. This section
includes all the descriptions that the agencies provided.

Department of Defense Office of Inspector General
Reinvestigation of Combat Action at Wanat Village, Afghanistan
(Report H10L111565072, Issued June 22, 2010)
DoD OIG reviewed the reinvestigation conducted by Lieutenant General Richard
Natonski, U.S. Marine Corps, into the battle of Wanat, at the direction of General
David Petraeus, Commander, U.S. Central Command. DoD OIG concluded that
the reinvestigation sufficiently established the facts regarding the combat action
at Wanat and reasonably assigned accountability by identifying those individuals
whose acts or omissions could be characterized as dereliction in the perfor-
mance of duties. It concluded that company, battalion, and brigade commanders
were derelict in the performance of their duties through neglect or culpable
inefficiency but determined that Division staff exercised due care in the matter.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010         119
                                                                 OTHER AGENCY OVERSIGHT




TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2010
Agency         Report Number           Date Issued       Project Title
DoD OIG        H10L111565072           6/22/2010         Reinvestigation of Combat Action at Wanat Village, Afghanistan
DoD OIG        D-2010-062              5/24/2010         Controls Over Funds Appropriated for Assistance to Afghanistan and Iraq Processed Through the Foreign Military Sales Network
GAO            GAO-10-829T             6/29/2010         Warfighter Support: Cultural Change Needed To Improve How DoD Plans for and Manages Operational Contract Support
GAO            GAO-10-842T             6/25/2010         Warfighter Support: Preliminary Observations on DoD’s Progress and Challenges in Distributing Supplies and Equipment to
                                                         Afghanistan
GAO            GAO-10-655R             6/15/2010         Afghanistan Security: The Strategic Framework for U.S. Efforts in Afghanistan
GAO            GAO-10-613R             5/5/2010          Afghanistan’s Security Environment
GAO            GAO-10-465              4/16/2010         Military Training: Actions Needed To Further Improve the Consistency of Combat Skills Training Provided to Army and Marine
                                                         Corps Support Forces
GAO            GAO-10-357              4/12/2010         Contingency Contracting: Improvements Needed in Management of Contractors Supporting Contract and Grant Administration
                                                         in Iraq and Afghanistan
USAAA          A-2010-0088-ALL         4/14/2010         Agreed-Upon Procedures Attestation To Evaluate Bulk Fuel Requests for Forward Operating Base Shank, Afghanistan (FOUO)
USAID OIG      5-306-10-002-O          6/24/2010         Review of USAID/Afghanistan’s School and Health Clinic Buildings Completed Under the Schools and Clinics Construction
                                                         and Refurbishment Program
USAID OIG      5-306-10-009-P          5/21/2010         Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in Afghanistan
USAID OIG      5-306-10-008-P          4/20/2010         Audit of USAID/Afghanistan’s Vouchers for Increased Productive Agriculture (AVIPA) Program
Note: MERO = Middle East Regional Office. Sources: DoD OIG, response to SIGAR data call, 7/6/2010; DoS OIG-MERO, response to SIGAR data call, 7/6/2010; GAO, response to SIGAR data call,
7/8/2010; USAAA, response to SIGAR data call, 7/7/2010; USAID OIG, response to SIGAR data call, 7/6/2010.




                                                                 Controls Over Funds Appropriated for Assistance to Afghanistan and Iraq
                                                                 Processed Through the Foreign Military Sales Network
                                                                 (Report No. D-2010-062, Issued May 24, 2010)
                                                                 The Defense Security Cooperation Agency (DSCA) ensured that funds appropri-
                                                                 ated for assistance to Afghanistan and Iraq placed under its oversight were used
                                                                 for their intended purpose and were properly reported in the DoD Cost of War
                                                                 Report. However, improvements are necessary to ensure effective management
                                                                 of these appropriated funds. Specifically, $6 million was not returned to DoD
                                                                 or the military departments before the funds’ cancellation date and were not
                                                                 properly accounted for. In addition, $31.6 million were not returned to Multi-
                                                                 National Security Transition Command-Iraq before the funds expired. Also,
                                                                 DSCA needs to fully review and determine the proper disposition of at least an
                                                                 additional $25.7 million of expired unobligated funds held in the FMS Trust Fund.

                                                                 U.S. Army Audit Agency
                                                                 Agreed-Upon Procedures Attestation To Evaluate Bulk Fuel Requests for Forward
                                                                 Operating Base Shank, Afghanistan (FOUO)
                                                                 (Report No. A-2010-0088-ALL, Issued April 14, 2010)
                                                                 This report is protectively marked For Official Use Only (FOUO) Law Enforcement
                                                                 Sensitive. The International Contract Corruption Task Force, Bagram Airfield,
                                                                 Afghanistan requested this attestation review. Auditors reconciled initial bulk fuel



                                                                    120                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




requests with delivery records kept at the Forward Operating Base (FOB) Shank
bulk fuel farm for the period 1 December 2009 through 18 February 2010. These
reconciliations were made to determine the number of potential fraudulent bulk
fuel requests and the respective amount of fuel losses.

U.S. Agency for International Development
Office of Inspector General
Review of USAID/Afghanistan’s School and Health Clinic Buildings Completed
Under the Schools and Clinics Construction and Refurbishment Program
(Report No. 5-306-10-002-O, Issued June 24, 2010)
The final report was issued on June 24, 2010 (A.R. No. 5-306-10-002-O). The review
was performed under contract to the OIG by KPMG Kabul. Per the contract,
KPMG conducted site visits to a statistical sample of 50 buildings (30 schools and
20 clinics) of the 776 buildings completed under the program. The review had two
objectives: to (1) determine whether the schools and clinics were being used for
intended purposes and (2) to review the impact of the program on the provision
of education and health services to the people of Afghanistan.
   KPMG found only 2 cases in the sample of 50 where buildings were not being
used for intended purposes. In one case a school was being used for educational
administration as it could not accommodate the students living in the area; in
the other case a clinic was abandoned because of a precarious security situation.
With regard to program impact, KPMG found that the 30 schools were staffed
with 1,385 teachers and were educating 57,744 students. The 20 health clinics
employed 109 clinical staff and provided medical treatment to approximately
39,500 patients monthly. The report recommended that the mission consider
requesting from the concerned ministries a list of facilities not being used for their
intended purposes and make a determination if any adjustments are needed.
   At the same time, KPMG noted numerous deficiencies with regard to the
physical condition of the schools and clinics, including structural problems, poor
hardware, and deficient water service and plumbing—as well as a widespread
lack of maintenance. KPMG noted that these deficiencies in some cases created
an environment not conducive to quality education and health services and might
expose students, patients, and staff to unhealthy and even dangerous conditions.
The report recommended that the mission evaluate these deficiencies and
develop an action plan to correct those that are serious.

Audit of USAID/Afghanistan’s Oversight of Private Security Contractors
in Afghanistan
(Report No. 5-306-10-009-P, Issued May 21, 2010)
The final audit report was issued on May 21, 2010 (A.R. No. 5-306-10-009-P).
The audit determined that the mission received 149 “incident reports” between
October 2006 and June 2009, 44 of which met the definition of a serious incident.




              REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010         121
OTHER AGENCY OVERSIGHT




However, these reports do not include all of the incidents that occurred because
the mission has no standard provision in its agreements that requires reporting.
   The audit also found the mission has not ensured that only responsible private
security contractors (PSCs) are employed by its implementing partners. While
the mission took some limited actions in this regard, 2 funded PSCs were not
licensed with the Afghan government; subcontracting consent for 17 PSCs was
not given; and the mission did not include a required contract clause to require
various security measures. Also, the mission had no grant provision related to
security, so about a third of awards with subcontracted security had no standard
security requirements. However, even if the mission had properly addressed
these matters, its efforts would not have been sufficient, because statutory and
regulatory provisions intended to provide for the oversight of the qualifications
and conduct of PSCs in Afghanistan had not been implemented through formal
mission-wide instructions.
   The audit also found that PSCs charged about $167 million for security
services. On average, these services accounted for 8.3% of award disburse-
ments. However, the percentage of private security subcontracting costs to total
disbursements varied widely. Percentages for security services could run approx-
imately 8% to 10% for areas deemed relatively safe, but could rise to 20%, 30%, or
even 50% in areas considered extremely dangerous.
   The report recommended that USAID/Afghanistan’s contracting officer
request in writing that the Chief of Mission issue mission-wide instructions
for non-DoD PSCs and their personnel to either (1) implement standards set
forth by the geographic combatant commander or (2) instruct non-DoD PSCs
and their personnel to follow the guidance and procedures developed by the
geographic combatant commander and/or subordinate commander. Other
recommendations addressed the need for USAID/Afghanistan’s Director of
Acquisitions and Assistance to issue written guidance regarding various secu-
rity-related requirements.

Audit of USAID/Afghanistan’s Vouchers for Increased Productive
Agriculture (AVIPA) Program
(Report No. 5-306-10-008-P, Issued April 20, 2010)
The final report was issued on April 20, 2010 (A.R. No. 5-306-10-008-P). The
purpose of this audit was to determine if the $360 million AVIPA program
was achieving its main goals of increasing wheat production and carrying out
agriculture-related stabilization activities. The program has two components:
the distribution of wheat seed and fertilizer in Afghanistan’s northern, western,
and central provinces; and the implementation of a variety of agriculture-related
stabilization activities in Afghanistan’s southern provinces of Helmand and
Kandahar, including cash-for-work projects and a small grants program.
   The audit determined that the program, by providing thousands of small
farmers with wheat seed and fertilizer, had contributed toward the country’s
increase in domestic wheat production. However, the extent to which the




  122                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




program played a role in this increase was unclear since the audit found that
some of the reported results were not reliable and could not be fully validated in
57% of the cases reviewed due to irregularities found in the supporting records.
These possible cases of fraud were referred to IG Investigations. In addition,
while the program had initiated stabilization activities in Afghanistan’s southern
provinces (Helmand and Kandahar), the security situation there was preventing
the program from being able to implement these activities as widely as planned,
thereby limiting the program’s ability to fully achieve its goal in this region. As
a result, the audit determined that the implementing partner will not be able to
spend the funds authorized by the program’s termination date of August 31, 2010,
and will likely end up with a surplus.
   The report recommended that USAID/Afghanistan require its implementer to
establish appropriate procedures and controls to strengthen its monitoring of the
program and to detect irregularities. The implementer also needs to reassess the
impact of the wheat seed distribution using a justifiable methodology. The report
also recommended that the mission should determine the amount of surplus
funds and reprogram them appropriately.

ONGOING OVERSIGHT ACTIVITIES
As of June 30, 2010, the participating agencies reported 32 ongoing oversight
activities related to reconstruction or security in Afghanistan. The activities
reported are listed in Table 4.2. This section includes all the descriptions that the
agencies provided.

Department of Defense Office of Inspector General
DoD continues to face many challenges in executing its Overseas Contingency
Operations (OCO), formerly known as “the Global War on Terror (GWOT).” DoD
OIG has identified priorities based on those challenges and has responded by
expanding its coverage of OCO operations and its presence in Southwest Asia.
As DoD continues its OCO, to include Operation Enduring Freedom (OEF), it
will stay focused on issues important to accomplish the mission and ensure the
department makes efficient use of its resources to support the warfighter.
    During the third quarter of FY 2010, DoD OIG continued to deploy additional
auditors and investigators to Iraq and Afghanistan. The additional staff support
the increased oversight workload required by statutory requirements,
congressional requests, senior DoD and military officials requests, and the
Department’s drawdown efforts in Iraq and increased operational tempo in
Afghanistan. Field offices in Qatar, Iraq, Kuwait, and Afghanistan enhance its
ability to provide audit, inspection, and investigative support to DoD operations
in support to OCO. In addition, DoD OIG is preparing to deploy additional per-
sonnel into Southwest Asia, including Afghanistan.
    DoD OIG–led Southwest Asia Joint Planning Group coordinates and decon-
flicts federal and DoD OCO–related oversight activities. The Group held its
13th meeting in May 2010. During the May 2010 Southwest Asia Joint Planning




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010         123
                                                               OTHER AGENCY OVERSIGHT




TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2010
Agency             Project Number                 Date Initiated Project Title
DoD OIG            D2010-D000JO-0229.000          6/14/2010         Construction of the Detention Facility in Parwan, Afghanistan
DoD OIG            D2010-D000JB-0157.000          3/4/2010          Afghanistan National Army Equipment Maintenance Apprenticeship and Services Program Contract
DoD OIG            D2010-D000JA-0165.000          2/22/2010         Review of a U.S. Army Intelligence and Security Command Contract for Linguist Support
DoD OIG            D2010-D000JA-0138.000          2/18/2010         Information Operations in Afghanistan
DoD OIG            D2010-D000FL-0100.000          2/18/2010         Internal Controls Over the Disbursing Process for Commander’s Emergency Response Program Payments
                                                                    Made to Support Operations in Afghanistan
DoD OIG            D2010-D000JA-0091.000          12/9/2009         Force Protection Programs for U.S. Forces in Afghanistan
DoD OIG            D2009-D000LC-0237.000          6/11/2009         Air Cargo Transportation Contracts in Support of Operation Iraqi Freedom and Operation Enduring Freedom
DoD OIG            D2008-D000CD-0256.000 8/7/2008                   DoD Body Armor Contracts
DoS OIG-MERO       10-MERO-3004                   2/2010            Review of the Bureau of Population, Refugees, and Migration (PRM) Program Effectiveness To Reintegrate and
                                                                    Resettle Afghan Refugees
DoS OIG-MERO       10-MERO-3002                   2/2010            Review of the Department of State’s Contract with PAE To Provide Operations and Maintenance to Embassy Kabul
DoS OIG-MERO       10-MERO-3001                   2/2010            Review of the Department of State’s Contract with PAE To Provide Operations and Maintenance to Afghan
                                                                    Counter-Narcotics Units in Afghanistan
DoS OIG-MERO       10-MERO-3007                   2/2010            Kabul Embassy Security Force (KESF)
DoS OIG-MERO       10-MERO-3008                   3/2010            Limited-Scope Review of Policies and Procedures for Vetting Foreign Service Nationals at Embassy
                                                                    Kabul in Afghanistan
GAO                351492                         4/30/2010         Personnel, Equipment, and Supply Support for Operations in Afghanistan
GAO                320766                         4/1/2010          Review of U.S. Civilian Surge in Afghanistan
GAO                351463                         3/12/2010         Afghanistan ISR Capabilities
GAO                120874                         11/12/2009        Annual Mandated Review of Contracting in Afghanistan and Iraq
GAO                351388                         10/2/2009         Availability of Trained and Ready Forces To Support Military Operations in Iraq and Afghanistan
GAO                320712                         9/2/2009          U.S. Efforts To Develop Capable Afghan National Army (ANA) Forces
GAO                351395                         8/21/2009         Supply and Equipment Support for U.S. Military Operations in Afghanistan
GAO                351393                         8/21/2009         DoD Health Care Requirements for Contingency Operations
GAO                351376                         7/30/2009         Readiness of Air Force Combat and Expeditionary Combat Support Forces
GAO                351387                         7/30/2009         Army and Marine Corps Training Capacity
GAO                320680                         5/8/2009          Potable Water, Sanitation, and Crop Irrigation Projects in Afghanistan
GAO                320662                         3/16/2009         USAID’s Agricultural and Alternative Development Projects in Afghanistan
USAAA              A-2010-ALL-0480.000            Not provided      Agreed-Upon Procedures Attestation for USFOR-A LOGCAP Course of Action - Afghanistan
USAAA              A-2010-ALL-0103.000            2/22/2010         Controls Over Vendor Payments Phase II - Afghanistan
USAAA              A-2009-ALL-0531.000            5/19/2009         Commander’s Emergency Response Program (CERP) - Afghanistan
USAAA              A-2009-ALL-0106.000            2/2/2009          Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—Jalalabad (Afghanistan)
USAAA              A-2008-ALL-0401.000            9/1/2008          Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—Kandahar and Salerno (Afghanistan)
USAID OIG          Not provided                   Not provided      Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South West
USAID OIG          Not provided                   Not provided      Review of Security Costs Charged to Three USAID Projects by Edinburgh International for the Period January 1 to
                                                                    December 31, 2009
Sources: DoD OIG, response to SIGAR data call, 7/6/2010; DoS OIG-MERO, response to SIGAR data call, 7/6/2010; GAO, response to SIGAR data call, 7/8/2010; USAAA, response to SIGAR data call,
7/7/2010; USAID OIG, response to SIGAR data call, 7/6/2010.




                                                                  124                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Group, the Army Materiel Command briefed its Southwest Asia efforts, includ-
ing supporting the shifting of forces in Southwest Asia. Through the Group, the
members continue to coordinate, collaborate, and deconflict their respective
and joint oversight efforts, including working with the Commission on Wartime
Contracting and its respective mission.
   For FY 2010, the completed and remaining ongoing OEF-related oversight
addresses the safety of personnel with regard to construction efforts, force
protection programs for U.S. personnel, accountability of property, contract
administration, information operations, armoring capabilities, and acquisition
planning and controls over funding for Afghan Security Forces.

Oversight Activities
For the third quarter of FY 2010, DoD OIG had 34 ongoing oversight activities
and issued 15 reports that support OEF. Of those 34 ongoing projects, 8 directly
relate to reconstruction or security operations in Afghanistan and are incor-
porated in this quarterly report. Of the 15 issued reports, 2 directly relate to
reconstruction or security operations in Afghanistan and are incorporated in this
quarterly report.

Construction of the Detention Facility in Parwan, Afghanistan
(Project No. D2010-D000JO-0229.000, Initiated June 14, 2010)
DoD OIG is determining whether the U.S. Army Corps of Engineers and U.S.
Forces - Afghanistan procured construction services and administered the
construction contract for the Detention Facility in Parwan, Afghanistan, in accor-
dance with the Federal Acquisition Regulation and other applicable laws and
regulations. Specifically, DoD OIG will determine whether the U.S. Army Corps
of Engineers properly monitored contractor performance during construction of
the Detention Facility in Parwan and whether the U.S. Army Corps of Engineers
has taken or should take recourse against the contractor because of potential
latent defects, negligence, or fraud.

Afghanistan National Army Equipment Maintenance Apprenticeship and
Services Program Contract
(Project No. D2010-D000JB-0157.000, Initiated March 4, 2010)
DoD OIG is determining whether adequate quality assurance and quality control
procedures exist for the Afghanistan National Army Vehicle and Maintenance
Contract. Specifically, DoD OIG will determine whether government contractual
requirements have been met and adequate contract surveillance is being con-
ducted. In addition, DoD OIG will determine whether the contractor requires
additional warehouse space to effectively perform contractual tasks and whether
the contractor submitted a fair and reasonable request for equitable adjustment
for parts reimbursement.




              REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2010    125
OTHER AGENCY OVERSIGHT




Review of a U.S. Army Intelligence and Security Command Contract
for Linguist Support
(Project No. D2010-D000JA-0165.000, Initiated February 22, 2010)
DoD OIG is determining whether a U.S. Army Intelligence and Security
Command contract for linguist support in Afghanistan (W911W4-07-D-0010)
included appropriate security provisions.

Information Operations in Afghanistan
(Project No. D2010-D000JA-0138.000, Initiated February 18, 2010)
DoD OIG is evaluating the ability of U.S. Central Command and U.S. Forces -
Afghanistan to conduct information operations in Afghanistan. Additionally, DoD
OIG will assess the support provided by DoD organizations that enable those
commands to conduct Information Operations.

Internal Controls Over the Disbursing Process for Commander’s Emergency
Response Program Payments Made to Support Operations in Afghanistan
(Project No. D2010-D000FL-0100.000, Initiated February 18, 2010)
DoD OIG is determining whether the internal controls over the Commander’s
Emergency Response Program payments made to support operations in
Afghanistan, and processed through DoD disbursing systems, are adequate.
Specifically, it will determine whether the controls ensure the reliability of
computer-processed payment data and whether the payments are proper and
used for their intended purpose.

Force Protection Programs for U.S. Forces in Afghanistan
(Project No. D2010-D000JA-0091.000, Initiated December 9, 2009)
DoD OIG is reviewing the force protection programs for primary gathering
facilities and billeting areas of U.S. forces in Afghanistan. Specifically, it is
assessing the program support and resources that commanders have for facility
planning, antiterrorism, and safety programs protecting their forces. The audit
is focusing on Bagram Airfield, Kandahar Airfield, Camp Eggers, and the New
Kabul Compound.

Air Cargo Transportation Contracts in Support of Operation Iraqi Freedom and
Operation Enduring Freedom
(Project No. D2009-D000LC-0237.000, Initiated June 11, 2009)
DoD OIG is determining whether air cargo transportation contracts in support
of Operation Iraqi Freedom (OIF) and OEF are administered in accordance with
applicable federal and DoD regulations. Specifically, DoD OIG will determine
whether the decision to use air transportation was justified, whether delivery
orders were awarded in accordance with vendor selection criteria, and whether
the cargo transported by air was delivered within required time frames.




  126                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




DoD Body Armor Contracts
(Project No. D2008-D000CD-0256.000, Initiated August 7, 2008)
DoD OIG is examining the contracts and contracting process for body armor and
related test facilities. Specific objectives will include evaluating the background
and qualifications of the contractors, the criteria for awarding the contracts, the
quality assurance process, and any relationships that may exist between the con-
tractors and government officials. The review of the quality assurance process
will include reviewing the results of First Article Testing and Lot Acceptance
Testing for the body armor contracts. DoD OIG issued Report No. D-2010-029, on
December 21, 2009, discussing the contract award of DoD body armor contracts.
DoD OIG plans to issue additional reports related to this project.

Department of State Office of Inspector General –
Middle East Regional Office
Oversight Activities

Review of the Bureau of Population, Refugees, and Migration (PRM) Program
Effectiveness to Reintegrate and Resettle Afghan Refugees
(Project No. 10-MERO-3004, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine (1) the
requirements and provisions of agreements with UNHCR, ICRC, and NGOs;
(2) how assistance requirements were calculated; (3) whether assistance
reached intended targets; (4) if program performance measures were estab-
lished and achieved; and (5) the effectiveness of Embassy Kabul and Provincial
Reconstruction Teams to manage and coordinate the humanitarian response in
Afghanistan.

Review of the Department of State’s Contract with PAE to Provide Operations and
Maintenance to Embassy Kabul
(Project No. 10-MERO-3002, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine (1) the
requirements and provisions of the contract and task orders; (2) the amount of
funding the Department has obligated and expended to provide embassy facil-
ity operations and maintenance through contracts for FY 2005–2009; (3) the
effectiveness of PAE’s contract performance in providing facility operations and
maintenance to Embassy Kabul; (4) PAE’s controls for inventorying, record-
ing, and safeguarding U.S. government-furnished equipment and property in
Afghanistan, whether the equipment has been properly accounted for, and the
challenges to maintaining accountability; (5) how well the Department admin-
isters and manages the contract and task orders to provide oversight of PAE’s
performance in Afghanistan; (6) whether the contract includes FAR clause
52.222.50, which provides administrative remedies if, during the term of the




             REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2010     127
OTHER AGENCY OVERSIGHT




contract, the contractor or subcontractor engage in severe forms of trafficking in
persons; and (7) how the Department ensures that costs are properly allocated
and supported.

Review of the Department of State’s Contract with PAE to Provide Operations and
Maintenance to Afghan Counternarcotics Units in Afghanistan
(Project No. 10-MERO-3001, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine (1) the
requirements and provisions of the contract and task orders; (2) the amount of
funding the Department has obligated and expended to provide embassy facil-
ity operations and maintenance through contracts for FY 2005–2009; (3) the
effectiveness of PAE’s contract performance in providing facility operations and
maintenance to Afghan counternarcotics units in Afghanistan; (4) PAE’s controls
for inventorying, recording, and safeguarding U.S. government-furnished equip-
ment and property in Afghanistan, whether the equipment has been properly
accounted for, and the challenges to maintaining accountability; (5) how well the
Department administers and manages the contract and task orders to provide
oversight of PAE’s performance in Afghanistan; (6) whether the contract includes
FAR clause 52.222.50, which provides administrative remedies if, during the term
of the contract, the contractor or subcontractor engage in severe forms of traf-
ficking in persons; and (7) how the Department ensures that costs are properly
allocated and supported.

Kabul Embassy Security Force (KESF)
(Project No. 10-MERO-3007, Initiated February 2010)
Objectives: To provide an overall review and summary of the requirements and
provisions of the Kabul Embassy Security Force contract. Specific objectives
are (1) the requirements and provisions of the contract; (2) whether contract
performance measures have been established and are being achieved; (3) how
well the Department has administered the contract to provide proper oversight
of Armor Group of North America in Kabul; (4) whether the contract is being
effectively managed; (5) whether the contract includes FAR clause 52.222.50,
which provides administrative remedies if, during the term of the contract, the
contractor or subcontractor engage in severe forms of trafficking in persons; and
(6) whether Armor Group of North America provides for a safe and adequate
living environment for the guards and whether the Department provides proper
oversight of the contract and task orders.

Limited-Scope Review of Policies and Procedures for Vetting Foreign Service
Nationals at Embassy Kabul in Afghanistan
(Project No. 10-MERO-3008, Initiated March 2010)
Objectives: The objectives of this performance audit are to (1) review the policy
and procedures used by the Foreign Service National Investigators (FSN-I) in
pre-employment personnel security vetting of Afghan locally engaged staff;



  128               SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




(2) review foreign service national investigation files; (3) document investiga-
tion techniques used by FSN-I personnel to vet foreign service nationals prior
to employment with the Embassy; and (4) determine the degree of family and
friendship relationships of current Embassy staff.

Government Accountability Office
During the last quarter, GAO testified twice before the Congress and released
three reports pertaining to Afghanistan’s security environment, training of
U.S. forces, and contracting issues and a special publication on the Strategic
Framework for U.S. efforts in Afghanistan.
• The first testimony was before the House of Representatives Committee on
   Oversight and Government Reform’s Subcommittee on National Security
   and Foreign Affairs. It addressed changes needed to how DoD plans for
   and manages operational contract support. This testimony noted that
   while efforts have been made within the DoD and the individual services to
   improve the planning for and management of contractors, these efforts do
   not fully work toward integrating operational contract support throughout
   DoD and no systematic changes have been made. GAO recommended for
   DoD to consider how it currently uses contractors in contingency operations,
   how it will use contractors to support future operations, and the impact that
   providing management and oversight of these contractors has on the opera-
   tional effectiveness of deployed units (GAO-10-829T).
• The second testimony was before the House of Representatives Committee
   on Appropriations’ Subcommittee on Defense. It addressed DoD’s progress
   and challenges in distributing equipment to Afghanistan. This testimony
   found that terrain, weather, lack of a railway, few roads, and limited airfield
   infrastructure hinder DoD’s ability to distribute supplies. GAO identified the
   lack of full visibility over cargo movements, limited storage capacity at
   logistics hubs, difficulties in synchronizing the arrival of units and equipment,
   and poor delivery coordination with coalition partners as other challenges to
   equipment delivery and distribution (GAO-10-842T).
• GAO’s report on Afghanistan’s security environment found that DoD attack
   data as of March 2010 show that the pattern of enemy-initiated attacks in
   Afghanistan has remained seasonal in nature, generally peaking from June
   through September each year and then declining during the winter months.
   While attacks have continued to fluctuate seasonally, the annual attack peak
   (high point) and trough (low point) for each year since September 2005 have
   surpassed the peak and trough, respectively, for the preceding year. The
   lack of a secure environment has continued to challenge reconstruction and
   development efforts. Some specific effects of these security challenges are
   (1) delayed programs and increased costs, (2) hampered progress of some
   counter-narcotics operations; and (3) limited ability to conduct oversight
   of ongoing programs. The number of U.S. military personnel in Afghanistan
   is expected to increase. In addition to the ongoing expansion of the U.S.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2010        129
OTHER AGENCY OVERSIGHT




  military presence in Afghanistan, the United States has also significantly
  increased its civilian presence in Afghanistan (GAO-10-613R).
• GAO’s report on the training of U.S. forces noted that CENTCOM has issued a
  list of training tasks to be completed, in addition to the services’ training require-
  ments, before deploying to its area of operations. However, service members are
  not being trained on some required tasks prior to deploying and there is confu-
  sion over which forces the CENTCOM requirements apply to, the conditions
  under which the tasks are to be trained, and the standards for successfully com-
  pleting the training. Both CENTCOM and the services lack complete information
  on the extent to which Army and Marine Corps support forces are completing
  required combat skills training. While the services have formal and informal
  means to facilitate the sharing of lessons learned information, trainers at the
  various training sites are not consistently sharing information about the changes
  they have made to their training programs (GAO-10-465).
• GAO’s report on contracting issues noted that DoD, DoS, and USAID’s use
  of contractors to help administer contracts and grants was substantial,
  although the agencies did not know the full extent of their use of such con-
  tractors. GAO found that the agencies generally cited the lack of sufficient
  government staff, the lack of in-house expertise, or frequent rotations of
  government personnel as key factors contributing to the need to use contrac-
  tors. GAO also found that to mitigate risks associated with using contractors,
  agencies have to understand when, where, and how contractors should be
  used, but agencies’ decisions were generally not guided by agency-wide
  workforce planning efforts. Additionally, GAO found that DoD, DoS, and
  USAID took actions to mitigate conflict of interest and oversight risks
  associated with contractors helping to administer other contracts or grants,
  but did not always fully address these risks. Lastly, GAO found that DoD,
  DoS, and USAID contracting officials generally did not ensure enhanced
  oversight as required for situations in which contractors provided services
  closely supporting inherently governmental functions despite the potential
  for loss of government control and accountability for mission-related policy
  and program decisions (GAO-10-357).
• GAO’s special publication on the Strategic Framework for U.S. Efforts in
  Afghanistan describes the relevant strategies and plans that collectively
  guide U.S. activities and personnel in Afghanistan—the Afghan National
  Development Strategy, the U.S. Strategy for Afghanistan and Pakistan,
  and the Afghanistan and Pakistan Regional Stabilization Strategy. The
  framework also includes U.S. plans: the OEF Campaign plan, the National
  Security Council Strategic Implementation Plan, and the U.S. Integrated
  Civilian-Military Campaign Plan (ICMCP). The ICMCP describes three lines
  of effort—security, governance, and development—to be implemented
  by U.S. civilian and military personnel. Finally, the North Atlantic Treaty




 130                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




   Organization (NATO) plans include the NATO Comprehensive Strategic
   Political Military Plan, and the operational plans for NATO and for NATO’s
   subordinate command—the International Security Assistance Force (ISAF)
   (GAO-10-655R).
In addition, GAO began two new engagements focusing on how DoD is supplying
operations in Afghanistan within established timelines, and a review of the U.S.
civilian surge in Afghanistan.

U.S. Army Audit Agency
Oversight Activities

Agreed-Upon Procedures Attestation for USFOR-A LOGCAP Course of
Action-Afghanistan
(Project Code A-2010-ALL-0480.000, Initiated 3Q FY10)
This attestation is being performed in Afghanistan. It will determine if the correc-
tive actions presented in the USFOR-A LOGCAP course of action decision brief
were implemented and provide assurance that requirements were processed
through the appropriate review board.

Controls Over Vendor Payments Phase II – Afghanistan
(Project Code A-2010-ALL-0103.000, Initiated February 22, 2010)
This audit will determine if the Army has effective controls to ensure the
accuracy of vendor payments for contingency operations in Southwest Asia
(Afghanistan).

Commander’s Emergency Response Program (CERP)-Afghanistan
(Project Code A-2009-ALL-0531.000, Initiated May 19, 2009)
This audit will determine if the CERP in Afghanistan had sufficient internal
controls in place to ensure commanders and unit personnel implemented the
program properly.

Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—
Jalalabad (Afghanistan)
(Project Code A-2009-ALL-0106.000, Initiated February 2, 2009)
This audit will determine if goods and services acquired under the contract were
properly justified, awarded, and administered.




              REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2010    131
OTHER AGENCY OVERSIGHT




Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—
Kandahar and Salerno (Afghanistan)
(Project Code A-2008-ALL-0401.000, Initiated September 1, 2008)
This audit will determine if goods and services acquired under contract were
properly justified, awarded, and administered.

U.S. Agency for International Development
Office of Inspector General
Oversight Activities
During this quarter USAID OIG conducted a Quality Control Review (QCR) on
work done for the office by a public accounting firm in Afghanistan and issued a
report on that review. The review found that their work was generally performed
in accordance with applicable standards and OIG guidelines. Also during this
quarter, five financial audits were being planned, were in process, or were in the
draft report phase. These Afghanistan financial audits are being performed for
USAID and the USAID/OIG by DCAA and a public accounting firm.

Audit of USAID/Afghanistan’s Alternative Development Program Expansion,
South West
Objective: Determine if USAID/Afghanistan’s Alternative Development Program
Expansion, South and West, is achieving its main goal of counteracting illicit
poppy cultivation by providing alternative development programs and improved
economic opportunities in selected southern and western provinces.

Review of Security Costs Charged to Three USAID Projects by Edinburgh
International for the Period January 1 to December 31, 2009
Objective: Determine if there an indication that Edinburgh International misused
USAID funds to pay the Taliban or others in exchange for protection.

OTHER AGENCY INVESTIGATIONS
SIGAR regularly coordinates with other government agencies conducting
investigations in Afghanistan to monitor the progress of those investigations.
As of June 30, 2010, five open cases were being investigated by DoS OIG
Investigations (DoS OIG-INV). Table 4.3 lists the number of open and closed
investigations as of June 30, 2010.
TABLE 4.3


INVESTIGATIVE ACTIVITIES: OTHER AGENCY INVESTIGATIONS
Agency                                                Open Cases              Closed Cases    Total Cases
DoS OIG-INV                                                   5                         0              5
Total                                                         5                         0              5
Source: DoS OIG-INV, response to SIGAR data call, 7/6/2010.




  132                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




OTHER AGENCY INSPECTIONS
SIGAR also coordinates with other agencies that are conducting inspections in
Afghanistan. During the past quarter, DoS OIG-ISP had one ongoing inspection,
listed in Table 4.4.

TABLE 4.4


ONGOING INSPECTION ACTIVITIES: OTHER AGENCY INSPECTIONS
                 Project           Date              Project
Agency           Number            Initiated         Title           Objective
DoS OIG-ISP      09-ISP-3051       9/2009            Kabul Embassy   To evaluate the Embassy’s implementation of
                                                     Inspection      policy, management of resources, adequacy of
                                                                     management controls, and measures to protect
                                                                     people, information, and facilities.
Source: DoS OIG-ISP, response to SIGAR data call, 7/6/2010.




                   REPORT TO THE UNITED STATES CONGRESS               I   JULY 30, 2010                  133
      The Official Seal of SIGAR
      The Official Seal of SIGAR represents the coordination of efforts
      between the United States and Afghanistan to provide accountability
      and oversight of reconstruction activities. The phrase along the top
      side of the seal’s center is in Dari and, translated into English, means
      “SIGAR.” The phrase along the bottom side of the seal’s center is in
      Pashtu and, when translated into English, has the same meaning.




134   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




      135
APPENDICES




APPENDIX A –
CROSS-REFERENCE OF REPORT TO STATUTORY
REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly reporting
and related requirements under SIGAR’s enabling legislation, the National Defense
Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table A.1).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section       SIGAR Enabling Language                            SIGAR Action              Section
Supervision
Section 1229(e)(1)       The Inspector General shall report directly        Report to the             All sections
                         to, and be under the general supervision           Secretary of State
                         of, the Secretary of State and the Secretary       and the Secretary of
                         of Defense                                         Defense
Duties
Section 1229(f)(1)       OVERSIGHT OF AFGHANISTAN                           Review appropriated/      All sections
                         RECONSTRUCTION.—                                   available funds
                         It shall be the duty of the Inspector General
                         to conduct, supervise, and coordinate              Review programs,
                         audits and investigations of the treatment,        operations, contracts
                         handling, and expenditure of amounts               using appropriated/
                         appropriated or otherwise made available           available funds
                         for the reconstruction of Afghanistan, and
                         of the programs, operations, and contracts
                         carried out utilizing such funds, including—
Section 1229(f)(1)(A)   The oversight and accounting of the obligation     Review obligations and    SIGAR
                        and expenditure of such funds                      expenditures of appropri- Oversight
                                                                           ated/available funds
                                                                                                     Funding
Section 1229(f)(1)(B)   The monitoring and review of reconstruction        Review reconstruc-        SIGAR
                        activities funded by such funds                    tion activities funded    Oversight
                                                                           by appropriations and
                                                                           donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded      Review contracts using    Note 1
                        by such funds                                      appropriated and avail-
                                                                           able funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer          Review internal and       Appendix B
                        of such funds and associated information           external transfers of
                        between and among departments, agencies,           appropriated/available
                        and entities of the United States, and private     funds
                        and nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such      Maintain audit records    SIGAR
                        funds to facilitate future audits and investiga-                             Oversight
                        tions of the use of such fund[s]                                             Appendix C
                                                                                                     Appendix D




  136                     SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                                APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section        SIGAR Enabling Language                             SIGAR Action               Section
Section 1229(f)(1)(F)   The monitoring and review of the effective-          Monitoring and review      Audits
                        ness of United States coordination with              as described
                        the Governments of Afghanistan and other
                        donor countries in the implementation of the
                        Afghanistan Compact and the Afghanistan
                        National Development Strategy
Section 1229(f)(1)(G)   The investigation of overpayments such as            Conduct and reporting      Investigations
                        duplicate payments or duplicate billing and          of investigations
                        any potential unethical or illegal actions of        as described
                        Federal employees, contractors, or affiliated
                        entities, and the referral of such reports, as
                        necessary, to the Department of Justice to
                        ensure further investigations, prosecutions,
                        recovery of further funds, or other remedies.
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—0                 Establish, maintain, and   All sections
                        The Inspector General shall establish, main-         oversee systems, proce-
                        tain, and oversee such systems, procedures,          dures, and controls
                        and controls as the Inspector General consid-
                        ers appropriate to discharge the duties under
                        paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER                    Duties as specified in     All sections
                        INSPECTOR GENERAL ACT OF 1978.—                      Inspector General Act
                        In addition,. . .the Inspector General shall
                        also have the duties and responsibilities of
                        inspectors general under the Inspector General
                        Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                            Coordination with the      Other Agency
                        The Inspector General shall coordinate with,         inspectors general of DoD, Oversight
                        and receive the cooperation of, each of the          DoS, and USAID
                        following: (A) the Inspector General of the
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C)
                        the Inspector General of the United States
                        Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)   ASSISTANCE FROM FEDERAL AGENCIES.—                   Expect support as          All sections
                        Upon request of the Inspector General for            requested
                        information or assistance from any depart-
                        ment, agency, or other entity of the Federal
                        Government, the head of such entity shall,
                        insofar as is practicable and not in con-
                        travention of any existing law, furnish such
                        information or assistance to the Inspector
                        General, or an authorized designee




                  REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2010                    137
APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section       SIGAR Enabling Language                            SIGAR Action                 Section
Section 1229(h)(5)(B)   REPORTING OF REFUSED ASSISTANCE.—                  Expect support as            All sections
                        Whenever information or assistance requested       requested
                        by the Inspector General is, in the judgment of
                        the Inspector General, unreasonably refused
                        or not provided, the Inspector General shall
                        report the circumstances to the Secretary of
                        State or the Secretary of Defense, as appropri-
                        ate, and to the appropriate congressional
                        committees without delay.
Reports
Section 1229(i)(1)      QUARTERLY REPORTS.—                                Report – 30 days after       All sections
                        Not later than 30 days after the end of each       the end of each calendar     Appendix B
                        fiscal-year quarter, the Inspector General         quarter
                        shall submit to the appropriate committees of
                        Congress a report summarizing, for the period      Summarize activities of
                        of that quarter and, to the extent possible,       the inspector general
                        the period from the end of such quarter to
                        the time of the submission of the report, the      Detailed statement of all
                        activities during such period of the Inspector     obligations, expenditures,
                        General and the activities under programs and      and revenues
                        operations funded with amounts appropri-
                        ated or otherwise made available for the
                        reconstruction of Afghanistan. Each report
                        shall include, for the period covered by such
                        report, a detailed statement of all obligations,
                        expenditures, and revenues associated with
                        reconstruction and rehabilitation activities in
                        Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/      Obligations and expen-       Appendix B
                        donated funds                                      ditures of appropriated/
                                                                           donated funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program        Project-by-project and       Funding
                        accounting of the costs incurred to date for       program-by-program
                        the reconstruction of Afghanistan, together with   accounting of costs. List    Note 1
                        the estimate of the Department of Defense,         unexpended funds for
                        the Department of State, and the United            each project or program
                        States Agency for International Development,
                        as applicable, of the costs to complete each
                        project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds    Revenues, obligations,    Funding
                        provided by foreign nations or international       and expenditures of donor
                        organizations to programs and projects funded      funds
                        by any department or agency of the United
                        States Government, and any obligations or
                        expenditures of such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of          Revenues, obligations,    Funding
                        foreign assets seized or frozen that contribute    and expenditures of funds
                        to programs and projects funded by any U.S.        from seized or frozen
                        government department or agency, and any           assets
                        obligations or expenditures of such revenues




  138                     SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                                            APPENDICES




TABLE A.1 (CONTINUED)


 CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
 P.L. NO. 110-181, § 1229
Public Law Section                SIGAR Enabling Language                                SIGAR Action                    Section
Section 1229(i)(1)(E)           Operating expenses of agencies or entities              Operating expenses              Funding
                                receiving amounts appropriated or otherwise             of agencies or any
                                made available for the reconstruction of                organization receiving          Appendix B
                                Afghanistan                                             appropriated funds
Section 1229(i)(1)(F)           In the case of any contract, grant, agreement,          Describe contract               Note 1
                                or other funding mechanism described in                 details
                                paragraph (2)* —
                                (i) The amount of the contract or other funding
                                mechanism;
                                (ii) A brief discussion of the scope of the
                                contract or other funding mechanism;
                                (iii) A discussion of how the department or
                                agency of the United States Government
                                involved in the contract, grant, agreement,
                                or other funding mechanism identified and
                                solicited offers from potential contractors to
                                perform the contract, grant, agreement, or
                                other funding mechanism, together with a list
                                of the potential individuals or entities that
                                were issued solicitations for the offers; and
                                (iv) The justification and approval documents
                                on which was based the determination to use
                                procedures other than procedures that provide
                                for full and open competition
Section 1229(i)(3)              PUBLIC AVAILABILITY.—                                   Publish report                  www.sigar.mil
                                The Inspector General shall publish on a                as directed
                                publically-available Internet website each                                              Dari and
                                report under paragraph (1) of this subsec-                                              Pashtu in
                                tion in English and other languages that the                                            process
                                Inspector General determines are widely used
                                and understood in Afghanistan
Section 1229(i)(4)              FORM.—                                                  Publish report                  All sections
                                Each report required under this subsection              as directed
                                shall be submitted in unclassified form, but
                                may include a classified annex if the Inspector
                                General considers it necessary
Note 1: Although this data is normally made available on SIGAR’s Web site, (www.sigar.mil), the data SIGAR has received is in relatively
raw form and is currently being reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No.
110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States
Government that involves the use of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any
public or private sector entity for any of the following purposes:

To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




                       REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2010                          139
                                                             APPENDICES



                                                             APPENDIX B
                                                             U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                             Table B.1 lists appropriated funds by program, per year, for Afghanistan
                                                             reconstruction efforts.
                                                             TABLE B.1


                                                              U.S. FUNDING SOURCES                                                  AGENCY               TOTAL
                                                              SECURITY
                                                              Afghanistan Security Forces Fund (ASFF)                               DoD                 25,229.24
                                                              Train & Equip (DoD)                                                   DoD                    440.00
                                                              Foreign Military Financing (FMF)                                      DoS                  1,058.50
                                                              International Military Education and Training (IMET)                  DoS                      8.30
                                                              NDAA Section 1207 Transfer                                            Other                    9.90
                                                              Total: Security                                                                         26,745.94
                                                              GOVERNANCE & DEVELOPMENT
                                                              Commander's Emergency Response Program (CERP)                         DoD                 2,639.00
                                                              Economic Support Fund (ESF)                                           USAID               9,738.59
                                                              Development Assistance (DA)                                           USAID                 887.22
                                                              Afghanistan Freedom Support Act (AFSA)                                DoD                   550.00
                                                              Child Survival & Health (CSH + GHAI)                                  USAID                 486.42
                                                              Commodity Credit Corp (CCC)                                           USAID                  25.87
                                                              Freedom Support Act (FSA)                                             USAID                   5.00
                                                              USAID (other)                                                         USAID                  31.37
                                                              Non-Proliferation, Antiterrorism, Demining, & Related (NADR)          DoS                   371.60
                                                              Provincial Reconstruction Team Advisors                               USDA                    5.70
                                                              Treasury Technical Assistance                                         Treasury                3.52
                                                              Total: Governance & Development                                                         14,744.29
                                                              COUNTER-NARCOTICS
                                                              International Narcotics Control & Law Enforcement (INCLE)             DoS                  2,684.75
                                                              Drug Interdiction & Counter-Drug Activities, (DoD CN)                 DoD                  1,425.27
                                                              Drug Enforcement Administration (DEA)                                 DoJ                    127.37
                                                              Total: Counter-narcotics                                                                 4,237.39
                                                              HUMANITARIAN
                                                              P.L. 480 Title I                                                      USDA                    5.00
                                                              P.L. 480 Title II                                                     USAID                 701.21
                                                              International Disaster Assistance (IDA)                               USAID                 346.33
                                                              Transition Initiatives (TI)                                           USAID                  33.86
                                                              Migration and Refugee Assistance (MRA)                                DoS                   594.83
                                                              Voluntary Peacekeeping (PKO)                                          DoS                    69.30
                                                              Emergency Refugee & Migration Assistance (ERMA)                       DoS                    25.20
                                                              Food for Progress                                                     USDA                  109.49
Notes: Numbers affected by rounding. USAID data is as         416(b) Food Aid                                                       USDA                   95.18
of 3/31/2010, because updates were unavailable
at the time this report went to press.                        Food for Education                                                    USDA                   50.49
a. Multiple agencies include DoJ, DoS, USAID, Treasury,
and USDA.
                                                              Emerson Trust                                                         USDA                   22.40
                                                              Total: Humanitarian                                                                      2,053.29
Sources: DoD, responses to SIGAR data call 7/14/2010,
7/13/2010, 10/14/2009, and 10/1/2009; FY 2010                 INTERNATIONAL AFFAIRS OPERATIONS
Defense Explanatory Statement; DoS, responses to SIGAR
data call, 7/13/2010 and 7/12/2010; Treasury, response
                                                              Oversight                                                                                    76.20
to SIGAR data call, 7/13/2010; OMB, response to SIGAR         Other                                                                                     3,644.70
data call, 4/19/2010; USAID, responses to SIGAR data call,
1/15/2010, 1/8/2010, and 10/9/2009; DoJ, response to          Total: International Affairs Operations                                                  3,720.90
SIGAR data call, 7/7/2009; USDA, response to SIGAR data
call, 4/2009.                                                 TOTAL FUNDING                                                                           51,501.81




                                                               140                       SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                       APPENDICES




FY 2002      FY 2003       FY 2004       FY 2005               FY 2006        FY 2007      FY 2008     FY 2009       FY 2010

    0.00          0.00          0.00           995.00           1,908.13        7,406.40    2,750.00     5,606.94     6,562.77
    0.00          0.00        150.00           290.00               0.00            0.00        0.00         0.00         0.00
   57.00        191.00        413.70           396.80               0.00            0.00        0.00         0.00         0.00
    0.20          0.30          0.60             0.80               0.80            1.10        1.60         1.40         1.50
    0.00          0.00          0.00             0.00               0.00            0.00        9.90         0.00         0.00
  57.20        191.30        564.30      1,682.60              1,908.93        7,407.50    2,761.50     5,608.34     6,564.27

    0.00          0.00         40.00        136.00                   215.00       209.00      488.33       550.67     1,000.00
  117.51        239.29        893.89      1,278.97                   473.39     1,210.71    1,399.51     2,088.32     2,037.00
   18.30         42.54        153.14        169.58                   187.02       166.81      149.43         0.40         0.00
    0.00        165.00        135.00        250.00                     0.00         0.00        0.00         0.00         0.00
    7.52         49.68         33.40         38.00                    41.45       100.77       63.07        58.23        94.30
    7.30          1.33          0.00          0.00                     0.00         0.00       13.02         4.22         0.00
    0.00          0.00          5.00          0.00                     0.00         0.00        0.00         0.00         0.00
    0.00          0.50          5.00          0.00                     0.00         0.00       22.32         3.55         0.00
   44.00         34.70         66.90         38.20                    18.20        36.60       26.60        48.60        57.80
    0.00          0.00          0.00          0.00                     0.00         0.00        0.00         5.70         0.00
    0.00          1.00          0.06          0.95                     0.19         0.13        0.75         0.44         0.00
 194.63        534.04      1,332.39      1,911.70                   935.25     1,724.02    2,163.03     2,760.13     3,189.10

   60.00          0.00        220.00           709.28                232.65      251.74      307.08       484.00       420.00
    0.00          0.00         71.80           224.54                108.05      290.97      189.64       230.06       310.21
    0.58          2.87          3.72            16.77                 23.66       20.38       40.59        18.80         0.00
  60.58          2.87        295.52           950.59                364.36      563.09      537.31       732.86       730.21

    0.00          5.00          0.00                0.00               0.00         0.00       0.00          0.00         0.00
  159.50         46.10         49.20               56.60              60.00        60.00     177.00         65.41        27.40
  197.09         86.67         11.16                4.24               0.04         0.03      17.01         27.29         2.80
    8.07         11.69         11.22                1.60               0.00         0.00       0.00          0.87         0.41
  135.47         61.50         63.30               47.10              36.00        53.80      44.25         76.79        76.62
   23.90          9.90         20.00               15.50               0.00         0.00       0.00          0.00         0.00
   25.00          0.00          0.00                0.00               0.00         0.00       0.00          0.20         0.00
    0.00          4.96          9.08               30.10              23.24         9.47      20.55         12.09         0.00
   46.46         14.14         34.58                0.00               0.00         0.00       0.00          0.00         0.00
    0.00          9.27          6.12               10.02              25.08         0.00       0.00          0.00         0.00
    0.00          0.00          0.00                0.00               0.00         0.00      22.40          0.00         0.00
 595.49        249.23        204.66           165.16                144.36      123.30      281.21       182.65       107.23

    0.00          0.00          0.00             0.00                  0.00        2.50       14.30         25.90        33.50
  155.60         35.30        207.60           136.10                131.90      207.80      434.40      1,047.60     1,288.40
 155.60         35.30        207.60           136.10                131.90      210.30      448.70      1,073.50     1,321.90
1,063.50     1,012.74      2,604.47      4,846.15              3,484.80       10,028.21    6,191.75    10,357.48    11,912.71




       REPORT TO THE UNITED STATES CONGRESS    I    JULY 30, 2010              141
APPENDICES




APPENDIX C
SIGAR AUDITS

Completed Audits
SIGAR completed four audits as of July 30, 2010, as listed in Table C.1.

TABLE C.1

COMPLETED SIGAR AUDITS, APRIL 1–JULY 30, 2010
Report Identifier   Report Title                                                                   Date Issued
SIGAR-Audit-10-14   ANA Garrison at Farah Appeared Well Built Overall, but Some Construction       7/30/2010
                    Issues Should Be Addressed
SIGAR-Audit-10-13   Greater Coordination Needed in Meeting Congressional Directives To Address     7/30/2010
                    and Report on the Needs of Afghan Women and Girls
SIGAR-Audit-10-12   ANP Compound at Kandahar Generally Met Contract Terms but Has Project          7/22/2010
                    Planning, Oversight, and Sustainability Issues
SIGAR-Audit-10-11   Actions Needed To Improve the Reliability of Afghan Security Force Assessments 6/29/2010




New Audits
SIGAR initiated five new audits this quarter, as listed in Table C.2.
TABLE C.2

NEW SIGAR AUDITS, APRIL 1–JULY 30, 2010
Audit Identifier    Project Title                                                                  Date Initiated
SIGAR-030A          Review of Selected CERP Projects in Afghanistan                                7/2010
SIGAR-029A          Review of USAID’s Cooperative Agreement with CARE International for the Food   7/2010
                    Insecurity Response for Urban Populations of Kabul (FIRUP-K) Program
SIGAR-028A          Planning for ANSF Facilities                                                   7/2010
SIGAR-025A          Review of U.S. Air Force Center for Engineering and the Environment            5/2010
                    Infrastructure Projects in Herat and in Mazar-e Sharif
SIGAR-024A          Review of Construction Projects for Six ANP Facilities in Helmand and Kandahar 5/2010




  142                     SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                 APPENDICES




Ongoing Audits
SIGAR has 10 audits in progress, as listed in Table C.3.
TABLE C.3

ONGOING SIGAR AUDITS, APRIL 1–JULY 30, 2010
Audit Identifier    Project Title                                                                   Date Initiated
SIGAR-013A          Review of Afghan National Police (ANP) Personnel Management                     6/2010
SIGAR-008A          Review of U.S. Efforts To Improve the Accountability and Anti-Corruption        5/2010
                    Capabilities and Performance of the Nangarhar Provincial Government
SIGAR-023A          Review of Afghanistan’s National Solidarity Program                             4/2010
SIGAR-021A          Review of the Implementation of the Civilian Uplift in Support of the U.S.      4/2010
                    Reconstruction Effort in Afghanistan
SIGAR-020A          Review of Salary Support Provided by U.S. Government Agencies to Afghan         1/2010
                    Government Officials
SIGAR-018A          Identification of Major Vendors for Reconstruction Contracts in Afghanistan     12/2009
SIGAR-017A          Contract Audit: Reconstruction Security Support Services from Global Strategies 11/2009
                    Group, Inc.
SIGAR-009A          Review of U.S. Agencies’ Use of Contractors To Provide Security for             7/2009
                    Reconstruction Programs in Afghanistan
SIGAR-007A          U.S. and International Efforts To Build the Afghan Government’s Capacity To Fight 6/2009
                    Corruption
SIGAR-006A          Review of U.S. Assistance for the Preparation and Conduct of Presidential and   3/2009
                    Provincial Council Elections in Afghanistan




Forensic Audits
SIGAR is conducting three forensic audits, including two announced this quarter,
as listed in Table C.4.
TABLE C.4

 SIGAR FORENSIC AUDITS, APRIL 1–JULY 30, 2010
Audit Identifier     Project Title                                                                  Date Initiated
SIGAR-027A           Forensic Review of Department of State Transaction Data Related to             6/2010
                     Afghanistan Reconstruction
SIGAR-026A           Forensic Review of U.S. Agency for International Development                   6/2010
                     Transaction Data Related to Afghanistan Reconstruction
SIGAR-022A           Forensic Review of Afghanistan Security Forces Fund Transaction Data           2/2010




                   REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2010               143
                                                             APPENDICES




                                                             APPENDIX D
                                                             SIGAR INVESTIGATIONS AND HOTLINE
FIGURE D.1
                                                             SIGAR Investigations
SIGAR INVESTIGATIONS: OPEN CASES,                            This quarter, SIGAR opened 26 new investigations and closed 14. The number
APRIL 1–JUNE 30, 2010                                        of open investigations is now 55. Of those open investigations, most involved
                                                             contract fraud and corruption, as shown in Figure D.1. Of the 14 closed inves-
                                                             tigations, most lacked prosecutive merit, or the allegations were unfounded, as
                          Total: 55
                                                             shown in Figure D.2.
                                                             FIGURE D.2


                 Contract        Public                      SIGAR INVESTIGATIONS: CLOSED CASES, APRIL 1–JUNE 30, 2010
                 Fraud           Corruption
                 23              14
                                                                                                                                   Total: 14
                               Procurement
                               Fraud
                                                                    Lack of Prosecutive Merit                                                                          7
                               11
                                                                      Allegations Unfounded                                                              5
                            Other                            Merged with Other Investigation                 1
                            7
                                                                  Not Reconstruction Money                   1
Source: SIGAR Investigations Directorate, 7/19/2010.                                                                   2                          4               6             8

                                                             Source: SIGAR Investigations Directorate, 7/19/2010.


FIGURE D.3
                                                             SIGAR Hotline
SOURCE OF SIGAR HOTLINE COMPLAINTS,                          Of the 62 Hotline complaints received last quarter, most were received by email
APRIL 1–JUNE 30, 2010                                        or telephone, as shown in Figure D.3. Of these complaints, many are closed,
                                                             under coordination, or referred to other agencies, as shown in Figure D.4.
                          Total: 62
                                                             FIGURE D.4

                                                             STATUS OF SIGAR HOTLINE COMPLAINTS: APRIL 1–JUNE 30, 2010

                 E-mail                                                                                                            Total: 62
                 37
                                      Phone
                                                                         Closed                                                                                            19
                                      21
                                                                  Coordinationa                                                                               15
                                                                   Referred Out                                                                        13
                                                             Referred (Internal)                                                                  11
               Walk-in                Written (not e-mail)
                                                                  Under Review                           4
               1                      3
                                                                                                             5                               10              15             20
Source: SIGAR Investigations Directorate, 7/14/2010.
                                                             a. Case has been reviewed, and SIGAR is obtaining additional information.
                                                             Source: SIGAR Investigations Directorate, 7/14/2010.




                                                                144                         SPECIAL INSPECTOR GENERAL                    I    AFGHANISTAN RECONSTRUCTION
                                                               APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS


    ACRONYM OR
   ABBREVIATION       DEFINITION
              ABP     Afghan Border Police
               ADT    Agribusiness Development Team
              AED     Afghanistan Engineering District
              AEIC    Afghan Electricity Information Center
              AGS     Afghan Geological Survey
            AIHRC     Afghanistan Independent Human Rights Commission
                AIT   Afghan International Trucking
               AIU    Air Interdiction Unit
              ANA     Afghan National Army
           ANCOP      Afghan National Civil Order Police
            ANDS      Afghanistan National Development Strategy
              ANP     Afghan National Police
             ANSF     Afghan National Security Forces
             APAP     Afghanistan Parliamentary Assistance Program
             ARTF     Afghanistan Reconstruction Trust Fund
             ASFF     Afghanistan Security Forces Fund
               ATT    Afghan Trade Transportation
              AUP     Afghan Uniformed Police
            AVIPA     Afghanistan Vouchers for Increased Productive Agriculture
              CAO     Control and Audit Office (Afghan)
              CBD     Community-Based De-mining
        CENTCOM       Central Command (U.S.)
             CERP     Commander’s Emergency Response Program
             CIGIE    Council of the Inspectors General on Integrity and Efficiency
              CIPE    Center for International Private Enterprise
               CM     Capability Milestone
             CNPA     Counter-Narcotics Police - Afghanistan
              CPC     Criminal Procedure Code
              CPD     Central Prison Directorate (Afghan)
              CRS     Congressional Research Service
             CSSP     Correctional System Support Program
          CSTC-A      Combined Security Transition Command - Afghanistan
             CUAT     Commander’s Unit Assessment Tool
              DEA     Drug Enforcement Administration (U.S.)
              DoD     Department of Defense (U.S.)
          DoD CN      Department of Defense Counternarcotics (U.S)




        REPORT TO THE UNITED STATES CONGRESS            I   JULY 30, 2010             145
APPENDICES




      ACRONYM OR
     ABBREVIATION            DEFINITION
                     DoS     Department of State (U.S.)
                     DST     District Support Team
                     ESF     Economic Support Fund
                 EUPOL       European Union Police Mission
                     FAR     Federal Acquisition Regulation
                      FAS    Foreign Agricultural Service (U.S.)
               FIRUP-K       Food Insecurity Response for Urban Populations of Kabul
                    FMS      Foreign Military Sales
                   FPDD      Focused Police District Development
                        FY   fiscal year
 FY 2010 Consolidated        FY 2010 Departments of Transportation and Housing and Urban
     Appropriations Act      Development, and Related Agencies Appropriations Act
         FY 2010 DoD         FY 2010 Department of Defense Appropriations Act
     Appropriations Act
                    GAO      Government Accountability Office (U.S.)
                    GDP      gross domestic product
                 GIRoA       Government of the Islamic Republic of Afghanistan
                 Global      Global Strategies Group
                 HCMS        Hotline and Complaints Management System (SIGAR)
                        HF   high frequency
                      HIG    Hezb-e Islami Gulbuddin
              HMMWV          high-mobility, multi-purpose wheeled vehicle
                    HOO      High Office of Oversight for Anti-Corruption (Afghan)
                    HQN      Haqqani Network
                  ICCTF      International Contract Corruption Task Force
                       ICE   Inter-Ministerial Commission for Energy (Afghan)
                       IEC   Independent Election Commission (Afghan)
                      IED    improvised explosive device
                    IFES     International Foundation for Electoral Systems
                       IJC   ISAF Joint Command
                      IMF    International Monetary Fund
                   INCB      International Narcotics Control Board
                  INCLE      International Narcotics Control and Law Enforcement (U.S)
                       INL   Bureau of International Narcotics and Law Enforcement Affairs
                     IOM     International Organization for Migration
                    ISAF     International Security Assistance Force
                     ISW     Institute for the Study of War
                     IWA     Integrity Watch Afghanistan
                   JRAC      Joint Regional ANSF Compound
                  LOTFA      Law and Order Trust Fund for Afghanistan
                   MCIT      Ministry of Communications and Information Technology (Afghan)




146                     SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                          APPENDICES




 ACRONYM OR
ABBREVIATION     DEFINITION
         MCN     Ministry of Counter-Narcotics (Afghan)
          MoD    Ministry of Defense (Afghan)
          MoE    Ministry of Education (Afghan)
          MoF    Ministry of Finance (Afghan)
          MoI    Ministry of Interior (Afghan)
          MoJ    Ministry of Justice (Afghan)
        MoPH     Ministry of Public Health (Afghan)
          NCO    noncommissioned officer
          NGO    nongovernmental organization
          NSP    National Solidarity Program
        NTM-A    NATO Training Mission - Afghanistan
         O&M     operations and maintenance
         OMB     Office of Management and Budget (U.S.)
         OMLT    Operational Mentor and Liaison Team
          OSD    Office of the Secretary of Defense (U.S.)
         PACT    Partnership for Action on Comprehensive Treatment
      PM/WRA     Bureau of Political-Military Affairs - Office of Weapons Removal and
                 Abatement (U.S.)
          PRT    Provincial Reconstruction Team
          QST    Quetta Shura Taliban
           RC    Regional Command (ISAF)
    RC Window    Recurrent Cost Window
        SIGAR    Special Inspector General for Afghanistan Reconstruction
        TFBSO    Task Force on Business and Stability Operations in Afghanistan
          U.K.   United Kingdom (adj.)
          U.S.   United States (adj.)
           UN    United Nations
         UNDP    UN Development Programme
       UNHCR     UN High Commissioner for Refugees
       UNODC     UN Office on Drugs and Crime
        USACE    U.S. Army Corps of Engineers
        USAID    U.S. Agency for International Development
    USAID OIG    USAID Office of Inspector General
      USFOR-A    U.S. Forces - Afghanistan
         USGS    U.S. Geological Survey
        USTDA    U.S. Trade and Development Agency
          VHF    very high frequency




     REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2010                147
                                                          ENDNOTES




1.    Kabul International Conference on Afghanistan, “Communiqué,” 7/19/2010.
2.    Ambassador Richard C. Holbrooke, “Afghanistan: Governance and the Civilian Strategy: Appearance before the Senate Committee on Foreign
      Relations,” 7/14/2010.
3.    Kabul International Conference on Afghanistan, “Communiqué,” 7/19/2010.
4.    P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
5.    DoD, response to SIGAR vetting, 7/20/2010.
6.    DoD, response to SIGAR data call, 7/14/2010.
7.    DoD, response to SIGAR data call, 7/14/2010.
8.    DoD, response to SIGAR data call, 7/17/2010.
9.    DoD OIG, “Distribution of Funds and the Validity of Obligations for the Management of the Afghanistan Security Forces Fund – Phase I,”
      11/5/2007, accessed online 1/12/2010, p. 2.
10.   DoD, response to SIGAR data call, 7/14/2010.
11.   DoD, response to SIGAR data call, 7/14/2010.
12.   DoD, Financial Management Regulation, “Commander’s Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
13.   DoD, response to SIGAR vetting, 4/21/2010.
14.   DoD, “Defense Explanatory Statement,” p. 405.
15.   H.R. 3326, “Department of Defense Appropriations Act, 2010,” p. 57.
16.   DoD, response to SIGAR data call, 7/15/2010.
17.   DoD, response to SIGAR data call, 7/15/2010.
18.   DoD, response to SIGAR data call, 7/7/2010.
19.   DoD, response to SIGAR data call, 7/7/2010.
20.   DoD, response to SIGAR data call, 7/7/2010.
21.   DoD, response to SIGAR data call, 7/7/2010.
22.   DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and Counter-drug Activities,”
      accessed online 4/13/2010.
23.   DoD, response to SIGAR data call, 7/13/2010.
24.   DoD, response to SIGAR data call, 7/13/2010.
25.   DoD, response to SIGAR vetting, 7/16/2009.
26.   H.R. 111-366, “Departments of Transportation and Housing and Urban Development, and Related Agencies Appropriations Act, 2010,” p. 3.
27.   USAID, response to SIGAR data call, 4/15/2010.
28.   USAID, response to SIGAR data call, 4/15/2010.
29.   DoS, response to SIGAR data call, 10/13/2009.
30.   DoS, response to SIGAR data call, 7/13/2010.
31.   DoS, response to SIGAR data call, 7/13/2010.
32.   USAID, response to SIGAR data call, 7/19/2010.
33.   SIGAR, “Quarterly Report to the U.S. Congress,” 1/30/2010, p. 53.
34.   World Bank, “Quarterly Country Update: Afghanistan,” 7/2010, p. 16; World Bank, “ARTF: Administrator’s Report on Financial Status as of June
      21, 2010,” p. 4.
35.   World Bank, “Quarterly Country Update: Afghanistan,” 7/2010, p. 17.
36.   World Bank, “Quarterly Country Update: Afghanistan,” 7/2010, p. 16.
37.   World Bank, “Quarterly Country Update: Afghanistan,” 7/2010, p. 17.
38.   World Bank, “Quarterly Country Update: Afghanistan,” 7/2010, p. 17.
39.   World Bank, “Quarterly Country Update: Afghanistan,” 7/2010, p. 17.
40.   USAID, response to SIGAR data call, 7/19/2010.
41.   USAID, response to SIGAR data call, 7/19/2010.
42.   USAID, response to SIGAR data call, 7/19/2010.
43.   UNDP, “Law and Order Trust Fund for Afghanistan, 1st Quarter Project Progress Report [2010],” p. 20.
44.   UNDP, “Law and Order Trust Fund for Afghanistan, 1st Quarter Project Progress Report [2010],” p. 5.
45.   UNDP, “Law and Order Trust Fund for Afghanistan, 1st Quarter Project Progress Report [2010],” p. 7.
46.   UNDP, “Law and Order Trust Fund for Afghanistan, 1st Quarter Project Progress Report [2010],” p. 8.
47.   UNDP, “Law and Order Trust Fund for Afghanistan, 1st Quarter Project Progress Report [2010],” p. 9.
48.   UNDP, “Law and Order Trust Fund for Afghanistan, 1st Quarter Project Progress Report [2010],” p. 17.
49.   White House, “National Security Strategy,” 5/2010, p. 20.
50.   UNAMA, “Press Conference at the Close of the Kabul International Conference on Afghanistan,” 7/20/2010; Afghan National Development
       Strategy, “Prioritization and Implementation Plan: Volume 1,” 7/20/2010, pp. 36–37.
51.   DoD, response to SIGAR data call, 7/14/2010.
52.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 6/2009, p. 28; NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010;
      OSD, response to SIGAR data call, 7/16/2010; OSD, response to SIGAR vetting, 7/21/2010.




                                                   148                  SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




53.    CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, pp. 13–14; OSD, response to SIGAR vetting, 7/21/2010.
54.    White House, Statement by the President in the Rose Garden, 6/23/2010, accessed online 7/6/2010; OSD, response to SIGAR vetting, 7/21/2010.
55.    ISAF, “General David H. Petraeus,” 7/4/2010.
56.    DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2010, pp. 29–30; ISAF, “News Release: Operation Moshtarak,”
       2/13/2010, accessed online 7/16/2010.
57.    DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2010, pp. 29–30.
58.    DoD, “Mullen: Kandahar Vital to Success in Afghanistan,” 6/16/2010, accessed online 6/17/2010.
59.    DoD, “DoD Media Roundtable with Gen. McChrystal NATO Headquarters in Brussels,” 6/10/2010, accessed online 6/14/2010.
60.    U.K. Ministry of Defence, “British, Afghan Troops Push Back Taliban in Nad ’Ali,” 6/8/2010, accessed online 6/18/2010.
61.    White House, “National Security Strategy,” 5/2010, p. 20.
62.    SIGAR Audit-10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010, p. ii.
63.    SIGAR Audit-10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010, p. ii.
64.    SIGAR Audit-10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010, p. 4; OSD, response to
       SIGAR vetting, 7/21/2010.
65.    SIGAR Audit-10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010, p. 2; OSD, response to
       SIGAR data call, 7/21/2010.
66.    OSD, response to SIGAR data call, 7/16/2010.
67.    IJC, responses to SIGAR data call, 7/6/2010 and 4/1/2010; OSD, response to SIGAR vetting, 7/21/2010.
68.    UNAMA, “Featured News,” 6/17/2010, accessed online 6/17/2010.
69.    IJC, responses to SIGAR data call, 7/6/2010 and 4/1/2010.
70.    UN, “Report of the Secretary-General pursuant to paragraph 40 of resolution 1917 (2010),” 6/16/2010, pp. 4–5, accessed online 6/21/2010.
71.    UN, “Report of the Secretary-General pursuant to paragraph 40 of resolution 1917 (2010),” 6/16/2010, pp. 4–5, accessed online 6/21/2010;
       IJC, response to SIGAR data call, 7/6/2010.
72.    NTM-A/CSTC-A, responses to SIGAR data call, 7/6/2010 and 4/1/2010.
73.    ISAF, “Facts and Figures: Afghan National Army,” 6/2010, accessed online 6/14/2010.
74.    NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010; OSD, response to SIGAR vetting, 7/21/2010.
75.    ISAF, “Afghan National Army on ‘Glide Path’ to Meeting Quality, Growth Goals,” 6/2/2010, accessed online 6/21/2010.
76.    ISAF, “Afghan National Army on ‘Glide Path’ to Meeting Quality, Growth Goals,” 6/2/2010, accessed online 6/21/2010; OSD, response to SIGAR
       vetting, 7/21/2010.
77.    NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
78.    NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
79.    SIGAR, “Quarterly Report to the United States Congress,” 4/30/2010.
80.    ISAF, “University Offers Opportunities for Afghan Forces,” 6/16/2010, accessed online 6/17/2010.
81.    NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
82.    DoD, response to SIGAR data call, 7/6/2010.
83.    NTM-A, “Afghan Foreign Military Sales—What Took So Long?” 5/20/2010, accessed online 6/15/2010; DSCA, “Foreign Military Sales,” accessed
       online 6/15/2010.
84.    NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
85.    NTM-A/CSTC-A, responses to SIGAR data call, 7/6/2010 and 4/1/2010.
86.    ISAF, “Facts and Figures: Afghan National Police,” 6/2010, accessed online 6/14/2010;
87.    OSD, response to SIGAR data call, 7/16/2010; OSD, response to SIGAR vetting, 7/21/2010.
88.    SIGAR Audit Directorate, 6/20/2010.
89.    NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
90.    OSD, response to SIGAR data call, 7/16/2010; OSD, response to SIGAR vetting, 7/21/2010.
91.    NTM-A, “New Assignment Process for Afghan Police Cadets,” 6/20/2010, accessed online 6/21/2010.
92.    NTM-A, “Afghan Training Center Adraskan: The Carabinieri/Marine Team,” 6/21/2010, accessed online 6/21/2010; OSD, response to SIGAR
       vetting, 7/21/2010.
93.    EU, “Factsheet on the EU Police Mission in Afghanistan,” 6/2010, accessed online 6/21/2010.
94.    EU, “European Union Police Mission in Afghanistan Extended for 3 Years,” 5/18/2010, accessed online 6/21/2010.
95.    NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
96.    OSD, response to SIGAR data call, 7/16/2010.
97.    NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
98.    NTM-A, “Afghan National Police Living in Substandard Conditions,” 6/13/2010, accessed online 6/21/2010.
99.    NTM-A, “Afghan National Police Living in Substandard Conditions,” 6/13/2010, accessed online 6/21/2010.
100.   NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
101.   NTM-A/CSTC-A, response to SIGAR data call, 7/6/2010.
102.   DoS, responses to SIGAR data call, 6/30/2010 and 4/1/2010.
103.   DoS, response to SIGAR data call, 6/30/2010.




              REPORT TO THE UNITED STATES CONGRESS         I   JULY 30, 2010              149
                                                              ENDNOTES




104.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2010, p. 5.
105.   ISAF, “Key Facts and Figures,” 7/6/2010, accessed online 7/11/2010.
106.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2010, p. 17.
107.   DoD, “Operation Enduring Freedom U.S. Casualty Status,” 7/20/2010, accessed online 7/20/2010.
108.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2010, p. 21.
109.   GAO, GAO-10-613R, “Afghanistan’s Security Environment,” 5/5/2010, pp. 2–3.
110.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2010, p. 22.
111.   The National Counterterrorism Center, “Mullah Omar,” accessed online 7/16/2010.
112.   Institute for the Study of War, “The Quetta Shura Taliban in Southern Afghanistan: Organization, Operation, and Shadow Government,”
       12/21/2009, accessed online 7/16/2010.
113.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 23; American Forces Press Service, “McChrystal Reports
       on Progress in Afghanistan,” 3/17/2010, accessed online 7/15/2010.
114.   Institute for the Study of War, “The Quetta Shura Taliban in Southern Afghanistan: Organization, Operation, and Shadow Government,”
       12/21/2009, accessed online 7/16/2010.
115.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 52.
116.   DoD, “DoD Media Roundtable with Gen. McChrystal NATO Headquarters in Brussels,” 6/10/2010, accessed online 6/14/2010.
117.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, pp. 23–24.
118.   DoS, “Rewards for Justice: Sirajuddin Haqqani,” 3/25/2009, accessed online 7/16/2010.
119.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 26.
120.   DoS, “Rewards for Justice: Sirajuddin Haqqani,” 3/25/2009, accessed online 7/16/2010.
121.   American Forces Press Service, “Afghan, Coalition Forces Battle Taliban, Narcotics, Emphasize Training,” 10/19/2007.
122.   DoS, “Rewards for Justice: Sirajuddin Haqqani,” 3/25/2009, accessed online 7/16/2010.
123.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, pp. 26, 52; DoS, “Rewards for Justice,” accessed online 7/23/2010.
124.   ISAF, response to SIGAR data call, 7/6/2010.
125.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 25.
126.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 52.
127.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 25.
128.   White House, “Joint Statement from the President and President Karzai of Afghanistan,” 5/12/2010.
129.   GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, pp. 7–8.
130.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 31, pp. 36-37; Ambassador Richard C. Holbrooke,
       “Afghanistan: Governance and the Civilian Strategy: Appearance before the Senate Committee on Foreign Relations,” 7/14/2010.
131.   Ambassador Richard C. Holbrooke, “Afghanistan: Governance and the Civilian Strategy: Appearance before the Senate Committee on Foreign
       Relations,” 7/14/2010; SIGAR, “Quarterly Report to the United States Congress,” 4/30/2010, p.71.
132.   ISAF, “Transcript: British Army Maj. Gen. Phillip Jones Provides Update on Reintegration Process,” 7/1/2010.
133.   ISAF, “Transcript: British Army Maj. Gen. Phillip Jones Provides Update on Reintegration Process,” 7/1/2010.
134.   UNAMA, “Kabul Conference,” accessed online 7/9/2010; Permanent Mission of Afghanistan to the UN in New York, “The Resolution Adopted at
       the Conclusion of the National Consultative Peace Jirga,” 6/6/2010.
135.   GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 4.
136.   GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, pp. 5–6.
137.   Permanent Mission of Afghanistan to the UN in New York, “The Resolution Adopted at the Conclusion of the National Consultative Peace
       Jirga,” 6/6/2010; GIRoA, “Prioritization and Implementation Plan,” 7/20/2010, p. 7.
138.   Permanent Mission of Afghanistan to the UN in New York, “The Resolution Adopted at the Conclusion of the National Consultative Peace
       Jirga,” 6/6/2010.
139.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 36.
140.   Permanent Mission of Afghanistan to the UN in New York, “The Resolution Adopted at the Conclusion of the National Consultative Peace
       Jirga,” 6/6/2010.
141.   Permanent Mission of Afghanistan to the UN in New York, “The Resolution Adopted at the Conclusion of the National Consultative Peace
       Jirga,” 6/6/2010.
142.   GIRoA, Office of the President, “First Step Taken To Implement the Jirga Proposals,” 6/6/2010.
143.   GIRoA, Office of the President, “Twenty-Eight Detainees Released Following Case Review by Special Committee,” 7/12/2010.
144.   GIRoA, Office of the President, “UN Security Council Agrees to Gradual Removal of Taliban Names from Black List,” 6/22/2010; UNAMA, “UN
       Security Council Press Conference in Kabul,” 6/24/2010.
145.   UNAMA, “UN Security Council Press Conference in Kabul,” 6/24/2010.
146.   HOO, Web site, “Corruption in Afghanistan,” accessed online 6/15/2010.
147.   IWA, “Afghan Perceptions and Experiences of Corruption: A National Survey 2010,” 7/7/2010, pp. 10, 14, 23.
148.   IWA, “Afghan Perceptions and Experiences of Corruption: A National Survey 2010,” 7/7/2010, pp. 10, 12.
149.   IWA, “Afghan Perceptions and Experiences of Corruption: A National Survey 2010,” 7/7/2010, p. 10.
150.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/2010.




                                                      150                    SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




151.   White House, “Joint Statement from the President and President Karzai of Afghanistan,” 5/12/2010.
152.   IWA, “Afghan Perceptions and Experiences of Corruption: A National Survey 2010,” 7/7/2010, pp. 20–21.
153.   HOO, Web site, “Who We Are,” accessed online 6/15/2010.
154.   HOO, Web site, “Who We Are,” accessed online 6/15/2010.
155.   HOO, Web site, “Asset Registration Department,” accessed online 6/21/2010.
156.   SIGAR Audit 10-2, “Afghanistan’s High Office of Oversight Needs Significantly Strengthened Authority, Independence, and Donor Support to
       Become an Effective Anti-Corruption Institution,” 12/16/2009, p. ii.
157.   SIGAR Audit 10-8, “Afghanistan’s Control and Audit Office Requires Operational and Budgetary Independence, Enhanced Authority, and
       Focused International Assistance to Effectively Prevent and Detect Corruption,” 4/9/2010, p. ii.
158.   SIGAR Audit 10-8, “Afghanistan’s Control and Audit Office Requires Operational and Budgetary Independence, Enhanced Authority, and
       Focused International Assistance to Effectively Prevent and Detect Corruption,” 4/9/2010, p. ii.
159.   UNDP, “Afghanistan’s International Backers Ready To Provide Support for the Parliamentary Elections, Pledging To Fill the Funding Shortfall,”
       5/11/2010.
160.   DoS, response to SIGAR data call, 7/6/2010.
161.   DoS, response to SIGAR data call, 7/6/2010; USAID, “Support to the Electoral Process,” accessed online 7/19/2010.
162.   DoS, response to SIGAR data call, 7/6/2010.
163.   UNDP, “Afghanistan’s International Backers Ready To Provide Support for the Parliamentary Elections, Pledging To Fill the Funding Shortfall,”
       5/11/2010.
164.   DoS, response to SIGAR data call, 7/6/2010.
165.   DoS, response to SIGAR data call, 7/6/2010; USAID, “Support to the Electoral Process,” accessed online 7/19/2010.
166.   DoS, response to SIGAR data call, 7/6/2010.
167.   DoS, response to SIGAR data call, 7/6/2010.
168.   IEC, “IEC Press Release on Announcement of Final Figures and Candidate List for Wolesi Jirga Elections,” 7/12/2010; CRS, “Afghanistan: Post-
       Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 13.
169.   IEC, “Candidate Nomination,” 5/17/2010.
170.   IEC, “Candidate Nomination,” 5/17/2010.
171.   IEC, “Candidate Nomination: Verification of Supporters Lists,” 5/22/2010; UNAMA, “Special Representative’s Comments on the Electoral
       Vetting Process,” 6/23/2010.
172.   White House, “Press Briefing by Press Secretary Robert Gibbs; Ambassador Karl Eikenberry, Ambassador to Afghanistan; and General Stanley
       McChrystal, Commander of ISAF and Commander of U.S. Forces in Afghanistan,” 5/10/2010.
173.   U.S. Embassy Kabul, “Remarks as Prepared by U.S. Ambassador Karl W. Eikenberry to the Command and General Staff College Graduation
       Ceremony, Fort Leavenworth, Kansas,” 6/11/2010.
174.   USAID, “Provincial Reconstruction Teams: Program Overview,” accessed online 7/2/2010.
175.   ISAF, “Development in Eastern Afghanistan: Keys to Success,” 6/1/2010; CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,”
       6/7/2010, p. 85; Republic of Korea, Ministry of Foreign Affairs and Trade, “Korean PRT To Officially Start Operation in Afghanistan,” 6/30/2010.
176.   Republic of Korea, Ministry of Foreign Affairs and Trade, “Korean PRT To Officially Start Operation in Afghanistan,” 6/30/2010.
177.   Embassy of the Netherlands, “The Netherlands in Afghanistan,” 7/16/2009, accessed online 7/2/2010; CRS, “Afghanistan: Post-Taliban
       Governance, Security, and U.S. Policy,” 6/7/2010, pp. 40, 85.
178.   Republic of Korea, Ministry of Foreign Affairs and Trade, “Korean PRT To Officially Start Operation in Afghanistan,” 6/30/2010.
179.   ISAF, “Provincial Reconstruction Teams,” accessed online 7/2/2010.
180.   CRS, “Afghanistan: U.S. Foreign Assistance,” 3/5/2010; ISAF, “Development in Eastern Afghanistan: Keys to Success,” 6/1/2010.
181.   ISAF, “Development in Eastern Afghanistan: Keys to Success,” 6/1/2010.
182.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 18.
183.   White House, “Joint Statement from the President and President Karzai of Afghanistan,” 5/12/2010.
184.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 17.
185.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. i.
186.   SIGAR, “Quarterly Report to the United States Congress,” 4/30/2010, p. 77; DoS, response to SIGAR data call, 7/6/2010.
187.   DoS, response to SIGAR data call, 7/6/2010.
188.   NTM-A/CSTC-A, “Afghan Minister of Interior Resigns,” 6/6/2010.
189.   UNAMA, “Featured News,” 7/12/2010.
190.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 13.
191.   DoS, response to SIGAR data call, 7/6/2010.
192.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 14.
193.   DoS, response to SIGAR data call, 7/6/2010.
194.   DoS, response to SIGAR data call, 7/6/2010.
195.   USAID, “Afghanistan Parliamentary Assistance Program,” accessed online 7/7/2010.
196.   DoS, response to SIGAR data call, 7/6/2010.




              REPORT TO THE UNITED STATES CONGRESS           I   JULY 30, 2010              151
                                                         ENDNOTES




197. DoS, response to SIGAR data call, 7/6/2010.
198. White House, “Joint Statement from the President and President Karzai of Afghanistan,” 5/12/2010.
199. USAID, “Performance-Based Governors Fund,” accessed online 7/7/2010; USAID, “Afghanistan Municipal Strengthening Program,” accessed
     online 7/7/2010.
200. USAID, response to SIGAR data call, 7/15/2010.
201. USAID, “Performance-Based Governors Fund,” accessed online 7/7/2010.
202. USAID, response to SIGAR data call, 7/15/2010.
203. USAID, “Afghanistan Municipal Strengthening Program,” accessed online 7/7/2010.
204. USAID, response to SIGAR data call, 7/15/2010.
205. USAID, response to SIGAR data call, 7/15/2010.
206. USAID, “Afghanistan Municipal Strengthening Program,” accessed online 7/7/2010.
207. USAID, “Afghanistan Municipal Strengthening Program,” accessed online 7/7/2010; USAID, response to SIGAR data call, 7/15/2010.
208. White House, “Joint Statement from the President and President Karzai of Afghanistan,” 5/12/2010.
209. DoS, “Advancing Freedom and Democracy Reports,” 5/2010.
210. IWA, “Afghan Perceptions and Experiences of Corruption: A National Survey 2010,” 7/7/2010, p. 12.
211. INL, response to SIGAR vetting, 7/20/2010.
212. INL, response to SIGAR vetting, 7/20/2010.
213. INL, response to SIGAR vetting, 7/20/2010.
214. INL, response to SIGAR vetting, 7/20/2010.
215. INL, “JSSP: Welcome,” accessed online 7/7/2010.
216. INL, response to SIGAR data call, 7/10/2010.
217. JSSP, “Special Report: JSSP Provincial Justice Conferences, Follow-on Trainings and Quick Impact Projects,” 6/26/2008.
218. INL, response to SIGAR data call, 7/10/2010.
219. INL, response to SIGAR vetting, 7/20/2010.
220. White House, “Joint Statement from the President and President Karzai of Afghanistan,” 5/12/2010.
221. INL, response to SIGAR data call, 7/10/2010; INL, response to SIGAR vetting, 7/20/2010.
222. INL, response to SIGAR vetting, 7/20/2010.
223. INL, response to SIGAR data call, 7/10/2010.
224. AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, p. 5.
225. INL, response to SIGAR data call, 7/10/2010; INL, “Afghanistan Program Overview: CSSP,” accessed online 7/7/2010.
226. INL, response to SIGAR data call, 7/10/2010.
227. UK, Ministry of Defence, “Helmand PRT-led Projects,” accessed online 7/11/2010; INL, response to SIGAR data call, 7/10/2010.
228. INL, response to SIGAR data call, 7/10/2010.
229. INL, response to SIGAR data call, 7/10/2010.
230. INL, response to SIGAR data call, 7/10/2010.
231. INL, response to SIGAR vetting, 7/20/2010.
232. INL, response to SIGAR data call, 7/10/2010.
233. INL, response to SIGAR data call, 7/10/2010.
234. INL, response to SIGAR data call, 7/10/2010.
235. INL, response to SIGAR data call, 7/10/2010.
236. UNHCR, “2010 UNHCR Country Operations Profile – Afghanistan,” accessed online 6/21/2010; AIHRC, “The Situation of Detention Centers and
     Prisons in Afghanistan,” 6/27/2010, p. 3; CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 4.
237. AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, p. 6.
238. INL, response to SIGAR data call, 7/10/2010; DoS, “Advancing Freedom and Democracy Reports,” 5/2010.
239. AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, p. 6.
240. AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, pp. 3, 6.
241. AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, p. 3.
242. AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, p. 4.
243. AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, p. 5.
244. DoS, “Advancing Freedom and Democracy Reports,” 5/2010.
245. AIHRC, “The Situation of Detention Centers and Prisons in Afghanistan,” 6/27/2010, p. 2.
246. UNHCR, “Fifty Thousand Refugees Return this Year,” 5/23/2010; UNHCR, “Voluntary Return to Afghanistan,” 7/14/2010; NATO, Civil-Military
     Fusion Centre, Issue 7/10, “Afghanistan Humanitarian Assistance,” 7/23/2010, p. 3.
247. DoS, response to SIGAR vetting, 7/20/2010.
248. DoS, response to SIGAR vetting, 7/20/2010; UNHCR, “UNHCR Seeks US$18 Million To Assist Afghan Refugees in Iran,” 6/1/2010; NATO, Civil-
     Military Fusion Centre, Issue 7/10, “Afghanistan Humanitarian Assistance,” 7/23/2010, p. 3.
249. DoS, response to SIGAR vetting, 7/20/2010.
250. DoS, response to SIGAR vetting, 7/20/2010; WFP, “Afghanistan,” accessed online 7/23/2010; USAID, “One Woman Makes a Difference,” 6/13/2010.




                                                  152                  SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




251.   DoS, response to SIGAR data call, 7/7/2010.
252.   DoS, “Advancing Freedom and Democracy Reports,” 5/2010.
253.   DoS, “Advancing Freedom and Democracy Reports,” 5/2010.
254.   Ambassador Richard C. Holbrooke, “Afghanistan: Governance and the Civilian Strategy: Appearance before the Senate Committee on Foreign
       Relations,” 7/14/2010.
255.   DoS, response to SIGAR data call, 7/7/2010.
256.   SIGAR Audit 10-13, “Greater Coordination Needed in Meeting Congressional Directives to Address and Report on the Needs of Afghan Women
       and Girls,” 7/30/2010, p. iii.
257.   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 6/7/2010, p. 4.
258.   DoS, response to SIGAR data call, 7/6/2010.
259.   DoS, response to SIGAR data call, 7/6/2010.
260.   DoS, response to SIGAR data call, 7/6/2010.
261.   DoS, response to SIGAR data call, 7/6/2010.
262.   IEC, “Candidate Nomination: Female Candidates,” 5/17/2010.
263.   DoS, “Advancing Freedom and Democracy Reports,” 5/2010.
264.   IWA, “Afghan Perceptions and Experiences of Corruption: A National Survey 2010,” 7/7/2010, p. 13.
265.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 1.
266.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 3.
267.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 3.
268.   World Bank, “World Bank South Asia Economic Update 2010,” 6/6/2010, p. 57.
269.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 6.
270.   World Bank, “World Bank South Asia Economic Update 2010,” 6/6/2010, p. 57.
271.   GIRoA, “Afghanistan National Development Strategy: Prioritization and Implementation Plan, Vol. 1,” presented at the Kabul Conference,
       July 19−20, 2010, pp. 6, 7, 23, 28.
272.   World Bank, “World Bank South Asia Economic Update 2010,” 6/6/2010, p. 58.
273.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 3.
274.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Public Expenditure Trends and Fiscal Sustainability,” p. 11.
275.   EIU, “Country Report: Afghanistan,” 4/2010, p. 19.
276.   World Bank, “World Bank South Asia Economic Update 2010, 6/6/2010, p. 57.
277.   IMF, “IMF Country Report No. 10/171,” 6/2010, p. 1.
278.   IMF, “Islamic Republic of Afghanistan- Program Note,” 6/9/2010, p. 1.
279.   IMF, “Islamic Republic of Afghanistan- Program Note,” 6/9/2010, pp. 1–2.
280.   IMF, “IMF Country Report No. 10/171,” 6/2010, Appendix 1: Letter of Intent, p. 4.
281.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 4.
282.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 4.
283.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 4.
284.   World Bank, “World Bank South Asia Economic Update 2010,” 6/6/2010, p. 58.
285.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 7.
286.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 7.
287.   EIU, “Country Report: Afghanistan,” 4/2010, p. 12.
288.   World Bank, “Afghanistan Economic Update,” 4/2010, pp. 7–8.
289.   Wall Street Journal, “Finance Minister Calls for Probe of Afghan Money Network,” 7/2/2010.
290.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2010, p. 77.
291.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2010, p. 77.
292.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/2010, p. 18.
293.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Public Expenditure Trends and Fiscal Sustainability,” p. 2.
294.   World Bank, “World Bank South Asia Economic Update 2010,” p. 58.
295.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Second Generation of Public Expenditure Reforms,” pp. 3–4.
296.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Security Sector,” p. 24.
297.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Security Sector,” p. 24.
298.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Public Expenditure Trends and Fiscal Sustainability,” p. 2.
299.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 2.
300.   London Conference on Afghanistan, “Communiqué,” 1/29/2010; Kabul International Conference on Afghanistan, “Communiqué,” 7/20/2010.
301.   London Conference on Afghanistan, “Communiqué,” 1/29/2010.
302.   UNAMA, “United Nations and Afghan Officials Unveil Programme for Kabul Conference,” 7/12/2010.
303.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Second Generation of Public Expenditure Reforms,” p. i.
304.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Public Expenditure Trends and Fiscal Sustainability,” p. 11.
305.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Public Expenditure Trends and Fiscal Sustainability,” p. 11.




              REPORT TO THE UNITED STATES CONGRESS       I   JULY 30, 2010             153
                                                          ENDNOTES




306.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Public Expenditure Trends and Fiscal Sustainability,” p. 11.
307.   ADB, “ADB Allocates More Funds for Afghanistan Reconstruction,” 7/16/2010.
308.   Tolo TV, English transcript of interview with GIRoA Minister of Energy and Water, 6/3/2010.
309.   GIRoA, “Afghanistan National Development Strategy: 1387–1391,” p. 78.
310.   SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased, but an Updated Master Plan is Needed, and Delays and Sustainability Concerns
       Remain,” 1/15/2010, p. ii.
311.   SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased, but an Updated Master Plan is Needed, and Delays and Sustainability Concerns
       Remain,” 1/15/2010, p. ii.
312.   SIGAR, “Quarterly Report to the U.S. Congress,” 1/2010, pp. 100–101.
313.   SIGAR, “Quarterly Report to the U.S. Congress,” 4/2010, p. 101.
314.   SIGAR, “Quarterly Report to the U.S. Congress,” 1/2010, p. 101.
315.   NATO/Civil-Military Fusion Centre, “Afghanistan Review,” 6/9/2010, p. 3.
316.   NATO/Civil-Military Fusion Centre, “Afghanistan Review,” 6/9/2010, p. 3.
317.   USAID/Afghanistan, “Tarakhil Power Plant Handed Over to Afghan Government,” 6/27/2010.
318.   USAID/Afghanistan, “Tarakhil Power Plant Handed Over to Afghan Government,” 6/27/2010.
319.   USAID/Afghanistan, “Tarakhil Power Plant Handed Over to Afghan Government,” 6/27/2010.
320.   DoS, transcript, Remarks of U.S. Ambassador Karl W. Eikenberry, “Tarakhil Power Plant Inauguration,” 8/5/2009, p. 1.
321.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 2.
322.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 11.
323.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 11.
324.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 11.
325.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 12.
326.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 9.
327.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 10.
328.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 10.
329.   World Bank/DfID, “Afghanistan Public Expenditure Review 2010: Education Sector,” p. 10.
330.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, p. 1.
331.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, p. 2.
332.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, p. 2.
333.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, p. 3.
334.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, pp. 19, 21.
335.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, pp. 19, 21.
336.   UN Security Council, “Report of the Secretary General pursuant to paragraph 40 of resolution 1917 (2010),” p. 14.
337.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, p. 1.
338.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, p. 2.
339.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, p. 3.
340.   USAID OIG, “Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction and Refurbishment
       Program,” Report No. 5-306-10-002-0, 6/24/2010, p. 2.
341.   USGS, “Availability of Water in the Kabul Basin, Afghanistan,” Fact Sheet 2010-3037, 5/2010, pp. 1–2.
342.   USGS, response to SIGAR data call, 06/24/2010.
343.   USGS, “Availability of Water in the Kabul Basin, Afghanistan,” Fact Sheet 2010-3037, 5/2010, p. 1.
344.   USGS, “Availability of Water in the Kabul Basin, Afghanistan,” Fact Sheet 2010-3037, 5/2010, p. 3.
345.   CENTCOM, response to SIGAR data call, 7/7/2010.
346.   DoS, Afghanistan and Pakistan Stabilization Strategy, 1/2010, p. i.
347.   GAO, “Afghanistan Development: Enhancements to Performance Management and Evaluation Efforts Could Improve USAID’s Agricultural
       Programs,” GAO-10-368, 7/2010, p. 33.
348.   USDA, FAS, “Afghanistan: Above-Average Wheat Production Outlook in 2010/11,” 5/11/2010, p. 1.
349.   World Bank, “Afghanistan Economic Update,” 4/2010, p. 9.




                                                   154                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




350. USAID OIG, “Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive Agriculture (AVIPA) Program,” Audit Report No.
     5-306-10-008-P, 4/20/2010, pp. 1–2.
351. USAID OIG, “Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive Agriculture (AVIPA) Program,” Audit Report No.
     5-306-10-008-P, 4/20/2010, p. 1.
352. CENTCOM, response to SIGAR data call, 7/6/2010.
353. CENTCOM, response to SIGAR data call, 7/6/2010.
354. USGS, response to SIGAR data call, 6/24/2010; USGS, response to SIGAR data call, 6/24/2010.
355. USGS, response to SIGAR data call, 6/24/2010.
356. UK Foreign and Commonwealth Office, DfID, press release, “Afghan Mineral Deposits,” 6/27/2010.
357. USGS, press release, “Significant Potential for Undiscovered Resources in Afghanistan,” 11/13/2007.
358. USGS, press release, “Significant Potential for Undiscovered Resources in Afghanistan,” 11/13/2007, p. 1.
359. USGS, press release, “Significant Potential for Undiscovered Resources in Afghanistan,” 11/13/2007, p. 1; USGS, response to SIGAR data call,
     6/25/2010.
360. USGS, Afghanistan Project Products, 3/31/2009, V.12.0.
361. DoD/TFBSO, response to SIGAR data call, 7/14/2010.
362. DoD/TFBSO, response to SIGAR data call, 7/14/2010.
363. DoD/TFBSO, response to SIGAR data call, 7/14/2010.
364. DoD/TFBSO, response to SIGAR data call, 7/14/2010.
365. DoD/TFBSO, response to SIGAR data call, 7/14/2010.
366. DoD/TFBSO, response to SIGAR data call, 7/14/2010.
367. DoD/TFBSO, response to SIGAR data call, 7/14/2010.
368. National Endowment for Democracy, CIPE, Charney Research, “Afghan Businesses’ Attitudes on the Economy, Government, and Business
     Organizations,” pp. 4, 31, 34.
369. National Endowment for Democracy, CIPE, Charney Research, “Afghan Businesses’ Attitudes on the Economy, Government, and Business
     Organizations,” pp. 5–6.
370. National Endowment for Democracy, CIPE, Charney Research, “Afghan Businesses’ Attitudes on the Economy, Government, and Business
     Organizations,” p. 6.
371. National Endowment for Democracy, CIPE, Charney Research, “Afghan Businesses’ Attitudes on the Economy, Government, and Business
     Organizations,” p. 7.
372. DoS/U.S. Embassy Kabul, “Signing of the Afghanistan-Pakistan Transit Trade Agreement,” 7/19/2010.
373. DoS, response to SIGAR data call, 7/7/2010.
374. DoS, response to SIGAR data call, 7/7/2010.
375. DoS, response to SIGAR data call, 7/7/2010.
376. DoS, response to SIGAR data call, 7/7/2010.
377. MICT, “Minister’s Statement,” 6/12/2010, accessed online 7/8/2010.
378. MICT, “Minister’s Statement,” 6/12/2010, accessed online 7/8/2010.
379. USTDA, response to SIGAR data call, 7/15/2010.
380. USTDA, response to SIGAR data call, 7/15/2010.
381. MICT, “Minister’s Statement,” 6/12/2010, accessed online 7/8/2010.
382. Data provided in Appendix B of this report.
383. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 2/2010, p. 1.
384. INL, “U.S. Counter-narcotics Strategy for Afghanistan, March 2010,” 3/24/2010, pp. 1–2.
385. INL, “U.S. Counter-narcotics Strategy for Afghanistan, March 2010,” 3/24/2010, pp. 5–9.
386. INL, “U.S. Counter-narcotics Strategy for Afghanistan, March 2010,” 3/24/2010, pp. 9–10.
387. UNODC, “UNODC Predicts Stable Opium Crop in Afghanistan,” 2/10/2010, accessed online 7/8/2010; UN Security Council, “Report of the
     Secretary-General pursuant to paragraph 40 of resolution 1917 (2010),” 6/16/2010, p. 12.
388. UNODC, “World Drug Report 2010,” p. 12.
389. UN Security Council, “Report of the Secretary-General pursuant to paragraph 40 of resolution 1917 (2010),” 6/16/2010, p. 12.
390. Reuters, “Mysterious disease blights Afghan opium poppy crop,” 5/13/2010, accessed online 6/28/2010.
391. UN Security Council, “Report of the Secretary-General pursuant to paragraph 40 of resolution 1917 (2010),” 6/16/2010, p. 12.
392. MCN/UNODC, “Afghanistan Opium Price Monitoring Monthly Report,” 6/2010, p. 2.
393. DoD, response to SIGAR data call, 7/16/2010.
394. DoD, response to SIGAR data call, 7/16/2010.
395. USMC, “Marines, DEA, Afghan Police Nab Drug Kingpin in Early Morning Raid,” 6/1/2010, accessed online 6/14/2010.
396. USMC, “Marines, DEA, Afghan Police Nab Drug Kingpin in Early Morning Raid,” 6/1/2010, accessed online 6/14/2010.
397. UN Security Council, “Report of the Secretary-General pursuant to paragraph 40 of resolution 1917 (2010),” 6/16/2010, p. 12; DoS, “Afghanistan
     and Pakistan Regional Stabilization Strategy,” 2/2010, p. 1.
398. DoS, “Afghanization and Pakistan Regional Stabilization Strategy,” 2/2010, p. 17; DoD, response to SIGAR data call, 7/16/2010.




             REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2010              155
                                                         ENDNOTES



399. UNODC, “Drug Use in Afghanistan: 2009 Survey,” 6/21/2010, p. 19; INL, “Media Factsheet: Drug Use and Treatment in Afghanistan,” 5/2010,
     accessed online 7/17/2010.
400. NTM-A, “Afghan Ministry of Interior Drug Testing Police, Offering Drug Rehab,” 7/3/2010, accessed online 7/14/2010.
401. NTM-A, “Afghan Ministry of Interior Drug Testing Police, Offering Drug Rehab,” 7/3/2010, accessed online 7/14/2010.
402. UN News Service, “UN backs training on harmful use of narcotics in Afghanistan,” 5/24/2010, accessed online 6/18/2010.
403. UNODC, “Programme in Afghanistan,” 4/2010, pp. 12–16.
404. INCB, “Drug Production in Afghanistan: A Challenge to the International Community – Statement by Professor Hamid Ghodse, President of
     the International Narcotics Control Board,” 6/9–10/2010, p. 1.
405. UNODC, “World Drug Report 2010,” p. 11.
406. INCB, “Drug Production in Afghanistan: A Challenge to the International Community – Statement by Professor Hamid Ghodse, President of
     the International Narcotics Control Board,” 6/9–10/2010, p. 2.
407. INCB, “Drug Production in Afghanistan: A Challenge to the International Community – Statement by Professor Hamid Ghodse, President of
     the International Narcotics Control Board,” 6/9–10/2010, p. 2.
408. INCB, “Drug Production in Afghanistan: A Challenge to the International Community – Statement by Professor Hamid Ghodse, President of
     the International Narcotics Control Board,” 6/9–10/2010, p. 2.
409. SIGAR, “Quarterly Report to the U.S. Congress,” 4/30/2010, p. 121.
410. America.gov, “U.S. Envoy Holbrooke on U.S.-Russia Cooperation on Afghanistan,” 6/9/2010, accessed online 6/18/2010.
411. UN, “UN Daily News: Two UN Agencies Team Up To Keep Afghan Villagers Away from Heroin Production,” 4/12/2010, accessed online
     6/28/2010.
412. UN, “UN Daily News: Two UN Agencies Team Up To Keep Afghan Villagers Away from Heroin Production,” 4/12/2010, accessed online
     6/28/2010.
413. DoS, “U.S. Joins Afghan Leaders for Grand Opening of Counter-narcotics Police Compound,” 6/18/2010, accessed online 6/22/2010.
414. U.S. Air Forces Central, “Air Interdiction Unit Gets a Boost,” 5/13/2010, accessed online 6/22/2010.
415. U.S. Air Forces Central, “Air Interdiction Unit Gets a Boost,” 5/13/2010, accessed online 6/22/2010.
416. IOM, “Kabul Counter-Narcotics Training Academy Doubles Capacity with EU, French Funding,” 7/6/2010, accessed online 7/6/2010.
417. UN Security Council, “Report of the Secretary-General pursuant to paragraph 40 of resolution 1917 (2010),” 6/16/2010, p. 12.
418. INL, “U.S. Counter-Narcotics Strategy for Afghanistan, March 2010,” 3/24/2010, accessed online 6/14/2010.
419. DoD, response to SIGAR data call, 7/16/2010.
420. UNODC, “Drug Use in Afghanistan: 2009 Survey, Executive Summary,” 6/21/2010, p. 3.
421. UNODC, “Drug Use in Afghanistan: 2009 Survey, Executive Summary,” 6/21/2010, p. 6.
422. UNODC, “Drug Use in Afghanistan: 2009 Survey, Executive Summary,” 6/21/2010, pp. 9–10.
423. UNODC, “Drug Use in Afghanistan: 2009 Survey, Executive Summary,” 6/21/2010, p. 10.
424. UNODC, “Drug Use in Afghanistan: 2009 Survey, Executive Summary,” 6/21/2010, p. 17.
425. UNODC, “Drug Use in Afghanistan: 2009 Survey, Executive Summary,” 6/21/2010, p. 18.
426. UNODC, “Drug Use in Afghanistan: 2009 Survey, Executive Summary,” 6/21/2010, p. 19.




                                                  156                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
Cover Captions (clockwise from left):
Tribal and religious leaders gather in
Kandahar to discuss a range of local
issues in June. Earlier in the month, the
GIRoA hosted the three-day Peace Jirga,
at which some 1,600 religious scholars,
tribal leaders, civil society organization
leaders, Afghan refugees, and govern-
ment representatives discussed ways to
end violence and achieve lasting peace in
Afghanistan. (U.S. Navy photo)
An Afghan soldier from the ANA’s Close
Support Kandak participates in the first-ever
joint engineering task with the 21st Regi-
ment of the British Army’s Royal Engineers.
The combined teams are working on infra-
structure projects at Patrol Base Rahim in
Nahr-e Saraj, Helmand. (ISAF photo)
Fifteen Afghan women attend a workshop
in journalism held at Herat University. The
workshop was promoted by the Herat PRT
this quarter. (ISAF photo)
Two Afghans measure grain to sell at
the Koru Chareh Bazaar in Marjah in May.
Since the initial fighting to take the city
from insurgent control, residents have
returned to their homes, and the market-        An Afghan musician plays the rubab at the Anab Gull Poetry Festival in Farah in May. A rubab is a lute-like instrument
place—the hub of the community—has               typically made from the trunk of a mulberry tree and animal skin. During the festival, male and female poets of all
reopened. (U.S. Marine Corps photo,              ages recited their poems to an audience of coalition forces, provincial leaders, and Afghans from the 10 districts of
LCpl James Clark)                                         Farah. The festival was the first of its kind in two years. (U.S. Air Force photo, SrA Rylan K. Albright)
SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                          SIGAR                  Special Inspector General for   JULY 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | JULY 30, 2010
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                 Afghanistan Reconstruction       2010
2221 South Clark Street
Suite 800
Arlington, VA 22202-3712




                                 3                                                                        QUARTERLY REPORT TO THE UNITED STATES CONGRESS
